n

c

20-5402
rt.<ip

hla-L

___________ auE____________
SUPfiFMF

(705 f PH

C.OURT OV-

THE (JIMTTPp STATES

ALFA/A/ SAK/TC.trr "

l

w

hT w

n

to* jgg

ww
8 gi£j,«j

/Htprme Attv>Fgalt srmri= nr TrLntmmft ■t
Fl 0R?r r>A ftFMlgT(VVFKVT OF r/)gg FXTTOIKV^ - g^rvtLui-^ FILED

------------------------------------- ---------------------------------JUhH-2028
OFFICE OF THE CLCRK

OK\ reVTTl/VM

A \<0KLT OP

CEPCrjbW^00^|
US"
T

TQ TH-E FLEVANTH CTgCUTT OnugT nF A-PP EA\

ilo^pU filejrm 5/^.vic-k. t
S1U £■?■€. 11 ftrl.

•axo6l%

G^mrje.Vi\\e^,t F-L.

Pro - -Sf=>

lr\ri>ri4g.

RECEIVED

J

AUG 18 207(1
OFFICE OF THE CLERK

sufrREitifc courttus:

Questions
1.

f\n

\a/V^Pv^ 44><>

R.-epr)r4~

(&

Rpc Ary\yvug>1'A An4i nv^ ti~fio>4~i°

54~cr4g. Caur4 A*\e,cnrurtakirir\ was mnrjp

CoQs4l'4()4lor>rii Vtolrxl-iar^ IS

4np, denir^ of
Cilnc,pr>4

s4a-Ve

CjQi

cl.

pp^ardUrvj. A.

Ci^V")<Vi-Vu4>r)lA<a.\ ~^>

C-eP4rFiCa4<> r4-

r

ApperAn V| |(4y

1

CciA‘atrip rr4m/\ 4"o

a

4Vtcm ~tAy>

C.\f\lrv^

^AnrirW

(^kA

priq^&fTV&ciL V)y

/i(\

C»or\4n^,v\<

_______ 04V\p r>

AeAit'UP.ry

______ Or

p

______ pre.S.Pr\4s

f> Wnse A

o£

UJc^

33~^\P. iQ\

sV\n\\

-j'l'l*’

1

n

oF4p

i| rtA

4KrgrA 4a 4W
rrWyocA~i\/g<

Or 4r> -4-W

Pr'OPgrrWcYA^

At*; Qpp(VA/P .A

■Va ~\W ~iAw>n4f»-

t rv4v-i A

$k*~nn-----{Avc~l£er^rr^

r^parVrOea~V

Co<Ap, rule.

SQp¥>4 \|

^

rrf\

r fe

I A
5 kA/ViA in

arvr> 4UiP r

Kav\r\<

oT

■0£.

i nwwTt4e,

am

iiacioaiie

SPCiir'i-U^ orripPj nr
<tT -W\P.
fj-F

CXY\ \j

CnrfP cAt r»i/^ nA

p-e,CSOy~>

‘^y^Wrrsrfrrl)—4tr 4W—FWrrrWAtxyts.4-

^g..p4e.m!\orP r* ?>. 3n\ft;:

L a

r)>4 p

4n<-'

rt-P 4.
If

I lr AXXij—

<~aVi/?t >-V

wWirU^ Ah AW

CpVvaVi i\^4a4i\/p

t

riVv

g\~4n P A e y .

CPlfV\W\<4 V\W4-nryt

ypr^nv^n|

s\is4P VvA

npnv\

curv

lArnav^mfj nrva.A

nr
fAa Atr\i^

rnurV Ar>

r.\a[fv\ pPf>.^e.r\4e-A Vkj n. pCA. -se, p>ar4y

4Afv>iAt^4ra.-Vi\/e-

(ll^

CL

>r>4 rle4ep fy\v aa-jl-Q-lQ-t.

*3. ZT<; rV CorYs4i4u4lrtnal 4p give, Ws^ aWe.y\~Vift^

^CiW\P

4\^nA~

aAfl WGc-

n
9r\0r 4~o 4W>. n\\cnyAann o£ fTvo\e^>Va~Vv OVA \a Pnor^WV
Me. ScvV/icVs^

ffve

hi c Wp.^rn^ ^ Cty\nA-V\e,c roommoAe. iv^ AW,

VifV\e.r\-\- ar\f4.
Qytlr'YsA'

Or^aAyt^-|~

-W\p f^fiYvte. 4~> W\P

Mr-, .^SnVMcVvlj WftS r.nt)<^U4

fnA
fi.gJUo

as a UpyJi

hg.'trvr^ m ayj\rn |\ P) nW '

\aj\4-\a ~W\e. some qUp^rA vicAnm^___________________________________
Inal CjQOrv^p\ CP/PuseA) ~t~o

m\J£s~\~ic^rV-p. Mr. biic.We-P’^->n T-oe

non - -5~-Vr a~W><a if. Ce.AS>om<.

4n ^Oncpp^ ~Vo AricA vAJ >4V\
cV\a<A£>\
t
nr ev/iide.nce,.
Mr. ^rvJVcWl \MQS Q^pntA-VeA ^ns-V- cntYAX/icVicvvA_____

3

r\a
Wlr\tn

C/x3f\se\ ~Vo Cg.^>c&se.vA-V K\rv\
4rV\aV cmimf\
COOWSpA

tywiPsA-V-nAe.

Pe.VuseA.

Mr. Sa\j\<lAaJL

Mr. 4V\<L\/Lerso

3

A^-Ve_r VteArvc^ r\paVeA re\\oX-t Mr. <Sa\/ir

-CH

yrvras-Ve <4 acyxln
av\A. rv^Qiva

v < vVyry-W)

A^'x^crwie re A

<*r\ rWttVyA ny\A CrifW/lcAed r£- mpArs-Vl^
n A ipPerp n-V vir.~Vvm 4W somp. fY\r>v\\U 4W aUpcyA-jrm wi<is marlp
Mr. r>\f \cprsriYA VaqA

Q0alrvs~V Mr. Sav/ i r UV
Q.iS a sucx pgsme

•V - corw/icYl OY\ kvAioa rols\iAP, ns MeuA

V)KCP>\ie.c<»A. Y\i\Ae rvt» oP

1

a-SfAsATmcp. A\r cmiAsel ^4W>.

\ v\e

"trig) Q.ruic-\r Piaon <4 4~WA 4~V\e gAlirlpnf^.
4~WA~ ^nmPnriP
riffe.r\<.p

rlL -^V\P, AeVe,in<>e.

n-\Vpr Pnntaa Mr. Snwu^kt ronnirm4Wvl -^iiP

VhlP rpPu<^>/4. -fn cnvnslApr AUf. ~V\\Jn

W.cnnsp Cov)'A5^g>\

\ Af. eAfiams

4W Cq{mri4A| 4-o rll<>rnv/<°r 4W

4Pe.PePocrp ~H\€. <v\rri-(nn wJQ.£> l)n4-lm^.k| (IvlA. ppnreA ura

W> r fp A.

9v\Apinrp^

\A1

-TKyS—fenwt^-Al-^-- Akp---e^HFSr’Wsyy^---1
tfi t
When Ake, AeAflvj ^rnc

ftSCPrA>rvc| a. fyrw\.<rVi-K)-^r>vnov\

i
D

2l

o
v/io\or\r|

on nV pFTejcVlwe. rrmnSfA \<> CQixeA Wj Cjnow.s.-eA rtr\A
rylcAe. m\e^t U \\ C)OAfV4rW )4\o Aq\ 4r>o a> Lou r4 +0 t'fcX'Use-

4o cxm^lAeo 4W*. C, OAS4i4n4l<riAo\

■J

9

\i\ n\ rxA lorv

o
UtVfr:q£Paci-fci.es.
M[

pftH~ie,s rippp/ir m 4-Up

c<q|vhV>\r>

clover pn^e,»

J
V5

n£ 4-Uc>.

c o<^

n v\ •VVve.

o
nvfmvm,rrs
Re.Uix/

3uncwAir,A'|nr\

\Q

C,0flsl'fftArVYAn\ n/\d Sy^rlrjr^ tVnvi'MAAc. l y\u/Av/p^

S'faWmftv'vV ol~ 4V\P C ri<p

\n
LLJ3
S

R,eO^QAS 4~no fixYivAlr^ AUo ViriV

ladLig

*5

O/YArll

li,
TKVhPNL TQ AMPNftMVF^

Aype/vJl* A-

1A-Pr>l^\ nF

ff.fHFfcriA** aF App^oUViliA^

Append* fe- (WxUl nT 3? D.S.CL § 3^
AppfcrvAl'* C~
Af^fcndk 0~
A~pp<*-WcAjiH

fAfniaj nV fiaftpA iAg,V\gann^ ( f WvervWn C.ircj A
lRe.pnrV <fo lR.£C^mmgy\A,aViov\
^4-fiiW

CrnirAr

T ~ -SArgW—C-a<

Pr\r\\i\r^r\nr\

—&pWw4—(yF

/VVvVinvA

-J
P 6
•tvs

(Ae.rvifiA

teA

r)
Tftfctfc OP ftvmtoftXTEFS CTT~E.1T>
Pny> AJornWo

V. NAIosWiy^Q^TIK^ MLi(p U.S. L>(ni

‘Sc.Ue.r tv\>V.I4.

ny

fi p r

1L .15
\

menV

trP Corrgjcjian&.1 <3g)Vg U.S, Pt^. I .FATS 3>^5g*7^

<S4~Q-V~f>

w, Q>

(n~lC) 5r>. <^r\

1

J
42

.(kHcm

o
XU
SUPREME

O.nuftt n'F TUP.

Pettympj

top

THE
UNTTFn statps

wtcrr of

ceqtto^a^t

RpjfrHnner 0&^pe.c4ft)U^ pm^< V^eJr a. vuriV of cecVtamn
■fa re.\y'ip\*j ~H\e. jo<4y ty\<>wV

\se\o\A).

flPTNToNS

£>£\nw

TK&. opinum rrT 4W-. 0ru4e<^ S-trrV&S
appears

_ 1

0.4- ftppervjL'*

rssue

(Vuir-V n-T appe.rAs

A ~t*n 4V\e. peA-i41oy\ ar\rL tS unK.r> own

as

4r> l4~s C-P.pnr4&rft sWW )S
TKp. npinirsr>

n-P 4V\p

UaU-p_/4 S-prvVes

/^I<4rifj4

r ruin4

ap. pears—a4.
Appends ft QA/J i~V is (tnW v\n\AJa as ~fa t4s rp.pon-fagri s4r*4os
The. dptMra.\

a. pgfafaorv 4nr rpVvpao'iyv-' 4~o 4W nv\t-l-p<4

^-WVps Courl r?F appp/o,|«; drears rA- Appp.rvrAW

C_ 4a 4W.

fteilVion
The Report aY\A. £epn«v\vv\<oYNAfA~l nn <AF -Hip, C.V\'tP-T
^VWj'is4~ra4e
4W 'f\‘\np-\V\e,rr\ foisAncT of f\no\rka. appears rA
Appejaallx.

\n ~\W p^AtAin f\ .

5VaAf. C.anaA'S *

;

The apialrm <rF 4he fair^hpsA' sfaxAp rgnrA- At> cex/teu; ~\\ap

o
Men-Vrs ny|)ejar5 n\

^

J
%A

rvY\rL Pp^h

4W

^*>:Vi-Vi r> v\.

JUftXsnrrTTotsi
~1T)P

4Ug. UnVUvQ S^rx-^&s, C ,dmM- nf A y.pPnU dtPC-l<4io rIL

C.(l5fL \KiCL<k

CWrp r^WiN

73U

.msf.

7ir> IQ

~Hw\€.Ky pe~Vt-i-io\A ^nr r^\APr>r'nrv^ \aJciS> fii>.r\ieA lo\y -Htg.______
UAl~Hg.dP S4ct4y<k r.<snf>4- <?F MppeaU An

A|>p<1

CimtJL (L

Copvy of ~H\e ruvlpn rtp.rujlv^0 f?V\Pn.tA/sQ Q^-en.f>.s a-i- appendix C.
Qv\ A

4V\U ^£~Vi-t-ipr> !<, -j-iw^p.ky -^i IpJ >/vji4V\tY\ \F>Q rlmps

TKf jlPkriir-Fiir>rv
XI..U..S.G, '§ 135M

oF 'W\>rs f,0U<x4 is ^ywJnWfrjl unrip r

(lY

C. 0/\/5T T TI iTJC) A /ft 1 Am STATUTORY P^VTSlOm
TCNVOLVEh

A/ r
0- X|V

Axy\qt\X mmAr
Anr\PmAwu° n-V

nV\-V -Vo F: •P-fpcv-Vwg CloimspA
o
4r>

J
%.\Q

(Aoe. {Vncess

GY- TWk C.ASP

‘SVrtc.lCln.nA v. WnsV>ur>Q-W>v\ , HC>(p

U.Sn (olo'i ^ fer^utrps.

Akai.

Q,

|)Qf4~\^ g\\pQ\yvj AkrA V\><. a-^nri^Pvj Wrs virAriAfrll Wis ‘ZH'sA-U
^mp-rw4YY\p.r>V
A~WJO

^1/^UA

A^

gJ-j-’pc.Aj\/e- rp pref.e.^ActA'ioipy

'Spe.Ctfir^ vV^roir\^<.W Ao

oWAoU/a

PeAlfc-A

W\H5;-V YV\ee.A

f f^nm

4Aa€^________

judy.ry\e.ryA~ -___________
A ^arVNj Mii4 lApr/AlA^ wV\mV <,pecAAtrri\\,| Vus aAV orrve v.
Aid ftoA

mut>se.\
mosA

Ac\ AYvr.A sV\Q\MS V\As cnunseA \aJQS

3

•sYvnvM AVvnA W rmKP. Q-F CnOw^eAA

in ArV\e.

A^moAirmino as, AV\e.

1

UCLOnL rvV-eeA Vk| ^iW. AA-k-Wr, AA\rv\e.r-iA/v\^_r\A ^ nv\A a,

‘rjuFAer*>f4. pre.^viAvt e.
f*>i rVr^wv-ip

<rV Wye

OVerUL)\-w^\rr\lv^,A| rprnrA

3

i

noA,

Cor, Ae^V V,q-\-\),/o

U\|

^Vl

f> P rv-> r s.

-|AaP. fPrr^rv^

Ct

p

\Al l4Vv

f SAri c-UXci-intA ^ ALL

/V\r. ^viMif.UV*. Vr'ia\ \ajns, fi^

ra fe

r. re At V^i V i V\|

W\ e. rvrv Lj-Wq. a UfccyeJ e\|p. \AytVy\e.s.sec,[ AVie

ohorteA \/\c Ai1YV>

Mr. f\riv<ir.l4.j.

1

-----MW.^ryt/i'r.K.t

r/~,vN AorAt V\e,___________

^>roc.e-p (A\r\^>

if, lYvnrp X\i.v\<l An V^nv/p Vip py, nFAe/Ap A 1a\|

J-y-, AV\\s

pnfA>j

*S i jiFFl C l p wlr A~n UTvde P fY\l r^A C/tv\F\ Apv~\r e-

A ve.rAlr.A flr rrwNrAo^lnvy nr\\\j \aivn\^.\\j
\

v\oA

rll <A nr

rppp/vApdly ‘na,M<.Apd WiIS,

oAWyrn-ycy

(r,L\/es~Hr)o'^p

4

OY\ rvAA <=» a mrimrv>A-W_ \A)Vvr UnrQ iftee/\, C.Om^UA Wimr^ lr,Q^|srn pri/^-i-p
\pj> AA>
4~V\p.

AAp

saw^e

o\UqpJ

‘inm?

Ai1 r\Tt e

priofl r><,

AMc. ^mvncU^ls

\/ic.Ai

q\UqpA

Cr>Ui-vS.e\

Al\c.

invesAtnaAe. Ar>o rvr»r\-<.~VrcxAer^\r
TcV^ wiAV> nn e,viAe
PosA* r oYw/ir Amv^,
IIW.

J

AUp some

1 nr n Aiov^

ar^niiinfA AAr.

A o r jjyrv/-^
_______

fAmv/irk.L^ C-VNOO^in!^ V^oA A~n

rpQSfins^ Oiv\/A

c-rrpp A-P

nr \aj lAne sspc.

A A-Y\ e

A Ar,
c\ edie.vA«,e

rfMmv\ n\«v^ re¥iixs^e. A> 4-r> \n\j.e.<d^^aAjer-flgL

\oe.nrvQ \rvmrrp rr,~Ae A xaiVVIa no Tesnurc
L>
AC c\n i./Y\ <
rvA eviA ervr p Ar> <>tjp|ir>rA Kts

^rwnr \L'

un-Wv

/Are

nA

A

^ WClS \e.A-A

NgA l/Wc, <f>n\/lc.lU \^/n^ ^ro\/ev\ rvc^rv^ Wc/xiv^e (V\ft, 5imi ir,l£\ k
rftoAWo T'mn\\v| AiKr oWP.ripriL -VVioiV ~W> e. rrW^p PooYv\rvv rxVe^ ~Tr.vwp<^
Vf.\^.'g.CSor>l ^ V\n<^ Wje.A r.W>i.fy f} \aji4\a

rip.nA

rwAgs-Vimr. pmrrVW. 0 vvt c\\ m

t)

UIQS

>y\ 4W ve r\j

CjniVftls

fAftn,4V\

r>f

A\n* a UptyxVtov-'

WouGjirvV aoai,rv<A /VW. 5mwtc.\ilt.___________________

M\o, ^)avlr.k\ PiUrll n <;urr p^i\iv m<vVtAv-> <;pe.\ci

J poscLr_

XX

floral cVlov^ CeA\gA^ rCiliSm/^ Kl-pwA\j 'SMy.f avp re A Pvifip nciP ns
'Te.Gsorv ~Vn e.^kcju^-p -VV\e r\g,\m| \v\ Pfli’Minrj We
C-Wm^

c£

VAePhPcAV/e, asS^-Vr..r\c-e- rA7

~V\aJo

C*rM %'T>gjP

fve \*y

l •fee Ec&lUi.rxyio

Aisrnver 4W. eMiAp.nrp,
~TV\e "W'iflA CrxinAr 4rurnA -We. PnAApacp <f ip^ntAg* A 4We. ApA<e.A<;p
sompnne, o-Wxpq -VWivrv

(VV. 5->nv/lri^i

Crwwmi-U~el4 -\-Vif

W>4 re-^u^A 4-n onri^A P r •V-W-e- M caa/
)

V AC. c\n.^<Y\s

oWe.n<y
V^g rm \sp

fmw<;e\ V\nA -We napLnc.i\-\j 4rs A'l^cru/pp 4-Vve, c*v\Aer\cP.
\aJTvV nT Ct o-Vvorarv \s auWA ^\Wk a-^-V^r Win
Arn\eA /VXenm

r»-S/vgvAJ nA gvJf.r\.| VeA/p\ o4 AW. ^ftS-4

rArvj\e:V\rm ^rnfp^c, 4Ar

Reasons

Mr, SavncAlx.

Vnr

G^rairvVtnn. ~VW>, VgA\A\nv-s

3
TViP, rPriS.nrv-g' Vr>p

3rarvV’»y~vc3

4V\e p€.A\y>rs/\ are, AWxV

Af> fSn lomAA allout F^r 4Ue. ~Ag.«trr‘iifvvmr>4-iQY\
LiAu^QqAs^—Qjcyj

VA A-i-niecfc—At&.Cec^fl.e

C,oa^4i4( Allt niTxa \

nrrV Afs ~

nc^atnsA

Pro-Se

AJk^cflts&e

3
RAqWA*^ 4y> C|ft Uhc.V\efV*> A.___________________

IV. TAiyVvrnpyv^A principal's

nF

S-Wire

JAec/rsis

nppi^

^<^4*

jn^4- 4-q vssuy^ prec.^yYVpr|

1.

n^ocr^'S Wr>- ~Vn ever\j c.t-Vt7pv>

TW. F Wen-W\ Ciifcm-V V\n^ A \W dfv\icA oT CAca-m \w<i

of /V\r. fSnwicAi-s rp^esV fno ou C^.oVif i cft-Ve. nF Ap^PfAaW 1 tfy
npnA a, sfafe mu (Mr Ap-Ve.omiAQ.Vi n a A\naf -\W„ nllpy fl m 'uMms
\\t,drfVk\j s^afe rf\o.A~Vs \Mfoe aAmig^iVAe. cmAer f\f>o\riflu \a\k/T
4~’\oop Vwl<> -VW ^VrAp fm) .T-V Afcfe.otYViAPrl-AVvK AQ fAof er*
InnvAJ rwnfVj Vuy\ps> Mr. f-vw ic^v V\ns ^riivrWl. on A- 4Uis ntfv\i?>s\ova
l4V

ad

m ?\jer\j OAfifinA (IaA np^p.McAe.. Wief.._______________
~TV\^- R-ppnp-f c\r\A R-CLC-Q Va cap aA rvVin a _ A ppmdui.

?A>afp<.

r.\pnrVj -^VxiaV^
w

Bemuse. A-Ko- rL>£p rv^ ■^-VipiAafp,^ 4r> 4Vie. aAtYusslnir>
Q-f- VW Vif,Viml'ci <.4~ni~W fY\e aV*^t AV\&. CjQUiM- <A\A ncrA
AW aAnn‘\<»M\MU-U| fl£ A-Vg______

cm
5
S-VnWrvve rvVs ( r\no rVid. A~W>.

ISSup n

Ci)Vtr\

CnoHr <Y\aU.<a- VtraVurxrj*,

fvF fnr.4 n<, An \AiWAV\ef AW, "Hime. t CcmAeAA^ n/\ j
£ifmm<;Anf\rg-s n^r AW
\f\*>v-iA
( Aypg.irw4r*

Aft.Ae.nAg.rvVs

prnwiAp»J)

■isa^prya.upA's. nV reAtnAnUA^.____________
pay

H*}

nV

TKp, Ete.\/p.iA-W-> C \l I'CW iA rAsn <rAn.A-g A AVkTlA Mo. 5*>cjl\i ic-10 Aryg.e <41 4?~>
c.nuAp.e.^ (ipfpAsp

oP aUnun^yj -^W sAr,.Ap vy\p ,<^A«s

^AAtf-VVya-gyA^-Q-PP .-JjP,AVAA*^^D—i-AA<jlfAL-s£^LWle-

4W

sAaAps

CQAe. ^ AWvx

fAf, SnVJif.Ki Crm innA

m| \jtA~ \A 4Ag
-A.A..J1--- .VvyWApe-Pg-Jl

Vie

sniff An

CUf^rfP

fo 4fvk1 P<i|\pr t a lly \ajUp.a counsel ApsAWied Ae \AJQS CnnVi(W/\A

P0-P>

o
4W>- s-VflA-eme.n.V:s \zJou\A) W>

vrA reA,ioAoW W AW crxirA-

TW. FAeN/gjoVirv C-i ocuiA- ’TPr-ev^Vlvj OaAtA
eAflVi<v\ tir\

ScVve pwnYcAK.

\/.

A 4Uis e.vxcA-

Sprt^>~Vri^^1 T~\, rs trd <->—

Coc-cecVvofv^ ao\K IKS. Afl>. LEYIS
Cnw^<4ponA-l nr\

rlejQ si'nir)

Qv^aO

pia A).

JV. pa P -V vTAe,rvV nrV

_______________ __

____ Trt rPftnxjirvj lfY\(\ SV^pryv\i/-.iiC t ~VW ^ \p\/p\r\-W)

Vvnu yy>pf

Sf! WVP

CA rrtu-V

g,Wi\n;t> r0_____

a-U-p^-Vjri^ ujeA-V IwVn 4V\eir^

yrms.-)-

\*iW\V

y\Pr p$<.rip^ A~Y%

vajck

CS-ficA^ A~V\q4- <4pc i <;iL--i^
UfWrv fWtrUioQ Mi\ S/^/fr.Ut<. rVniry^ 4V\i< ppnre^c. is.
ilkspr\4~:
___ Tkl<; rtYv&- rAotinn Is 4W> vy\osV tmpopAavyV oT rxVl nY- -Ho-e.
CAr. ^m/ickA On kprl^ )ne rn 1 tCP>.

Q^l r£

IV

d\ru ms.

<4*>g.l <<inv\<.

)

a^vYcie,

atv rili p<ar4-k< ’CeAciV'erP •f’o 4V\is cie.cisio

H

oyv<4

-Vo ^roc^eA -Wi -Vr^rA

liifvie.o a, ~VV\€oc\j AF AeApyisp.. V)Gi<.p/P <°r>Vi ceAy u^viv^

u-AfpAiaV)\e.

€V/l(terng. 'VkocV VnU4pcf>A -fine s-hA&V rnse ,
As 4Wce wa^ a ■e ve r al s-fa-Vp couf4 cAeA-porntno-Vi
4W- sAaVemeyvhs( AW uipi V oF cp.p-V'inroiri <Mno u\AL Vie. 0fanA~e A.

.

~TV\g- WcAs. c£r -\Vvtg. r\rtlim

are. <Am|\U>^ Mr. Savip.Uj

iftSlsWft. W]-k 4oirtl counsel avnA pnsf- Coovidi

rrtOASel

lln\>es-ViQCiA-e 4W nVWp roommrrV0 lApm-

3

___ fV\o. S>a\i?r.l<A Vvis W/^ enrAmumlsly mm/rpra-fy3^

flA <L

WiS

m Oesnoocec, nwailfllnip. ~th hl/yi ~~n rmAxrf Civwj -Vyj\g_ aV
;

<

n Gaoj
o^p

IT ujas

^vax)

spvu^-oij-i-5

f^ sun

a-UA-UaJ^^y^J—UXy^—P^—SQ/VN—(J3—\^3 Mij-\——og. 1

^craj^

^dvo- \0[\\ 'jojo^ up

'315

oo\o4 ^vj^p^'s

~»v\-V •jpr90"SACr?«jp dAYj\^ j^noo ^SbA/nOo <./\o^w\C) pv>vpp pdUlUj
-\-0Atr5

Ip1p'x5

o arv\01 "isVA^

'(^tb\

(UCb VC ‘^S

| yj-r? y ' y» d &

OH (^VAa^

v^s-vjntj

"A

T5“C;

“■
p'1'J°\ 3 -^o _y\jcw^
9Ua^J^<, gV^p p\AP ’O'S- GlACy Jup -avJp^'^Ui} 5W\0^o ySSUHtro
J^O ’<> AUujpiis^U 'd^u^JoL^-suv 7W5XJ
e»f\uvy ip^r i'J'O

I

O^j0 s^

bu\^\t)J- y\XO '^AO^

W uTSTyO^vp ^XJDpTT^gp D ^O

^ JVA^pJA

9T}Uap}A^ ^^OdAwj-s^ K\^iv^ Jtu ^nSSV Ajg/\

wVtJUU 4;° VO ncr^

"dlAA^jiciC^

c\^ c» ajasssu pjpo

=0 Up. |)^V(oi

~3?CO

!)p!'vuS
<31^. Op

Ajo^v/gpi/va Y^o'^fp Safd\^‘^ -p\-»"5>^o^ |>\(\u(w jstu«ap|p
OpTAt^rr^j wu^p.oat^o ^uuaujos
d^WcA^jp g\pp i^'^ou^dns STyU^pn/va -iv^. -jp\>no p ^W'5 ^tMjp.

c

'Wi^j \a (pa^pE
9 j)^0|A'^

^im ^MjdojJ^vjui Gu^ uup ^<AJJ)pj<^ *jyy\—wo \|^

|jp^'KO 1^'JinOc^- -J^ Ud\yV\ (-^q}^ Aju^sI^ jppj '^.U'3WJl^Jt»d'^J '3"M|C>j
MU

IW lib 1]*P!,NS 'm 3? ^UJ u SOfVX Vy-M\yA' Ul ^|ljp ^SW-pp

’^*1+ jp

10

W-j-O^j jTpjj\^ Uav^w f>iO(; _p pdp—114.uA

yuusj^^ig v\^

aCTO

Mvu>j w/a .pu (p^p jypiAPC; 'u^t

w
(£C At)^ X/F

AUTQ

py+ ^XJ.,/V0S ’^w °+

'7frJ ^r&ro
WOis535sod

S\\^ W|

oOJj^ -S^OUaUv Uift SOM

SvaOsj-J^T)^
-^U ^\

mu?j-9.^oj^j

U| CuiUio^vWl UUI^-OUl^O^Ul

I^oiAxJc, 'o\j^jl 7WCT

1

^

'sA^V/jO-^d (p<5|UI«lJu 3V|J. UDu^- o^-po

O

o
—Ib_Mt\ Sfw/ickis
^n.N/tck.1^

cq<;p

} 4W, •frin.l Coup-V- virAn^rA M.t\

Thpb-fpfy\4V\. AtV\&Kviw\*°yTV A^U-V ~ho

f)np

Prnr PA C,

n \n.f4

4V\e FimAairyimAral ^rincjples o¥ fS-hn.pp fVci'^k W| np^js'i^ 4-a
e\/€y\ CoiAfbirW -VW v\e\/u c,\^c ms.
jA-g> 4W CnrvArh Alor^
oAWifVP-^t

VurV

rvrV NA)n4Wt-) ji-tft-V

-W\ fSSP

wIA\a
o \^rl?g.^v rvF 4W. i1mk.fl S-VrrVe^, 4-W. vihm4ULJ Q£>

t

S Yvm A A 1SSI If* t

f]/nsSlA . .y^) , .drtss^Jl,

y'

(aTo^p i->

A.

Sch/irMt ^JQorJ^1

5tL& E7je.ll (ZcU..
Qracjtx/} I Ip f FL

:klk

3 3 W0

n

AppenJk

f\

IN THE UNITED STATES COURT OF APPEALS
FILED
U.S. COURT OF APPEALS
ELEVENTH CIRCUIT

FOR THE ELEVENTH CIRCUIT

/

DEC 2 6 2019
No. 19-11532-J
K

I

J

David J. Smith
Clerk

JOSEPH GLENN SAVICKI,
Petitioner-Appellant,
versus
ATTORNEY GENERAL, STATE OF FLORIDA,
FLORIDA DEPARTMENT OF CORRECTIONS,
Respondents-Appellees.

Appeal from the United States District Court
for die Northern District of Florida
ORDER:
i
I

Joseph Glenn Savicki is a Florida prisoner serving a 25-year sentence after a jury found
him guilty of lewd and lascivious molestation of a victim less than 12 years of age. He filed pro

i

I
i

se a federal habeas petition in the district court, pursuant to 28 U.S.C. § 2254, and a motion for
discovery, appointment of counsel, and funds for an investigator. The district court denied both

i

the petition and the motion, and denied a certificate of appealability (“COA”). Mr. Savicki now
moves this Court for a COA.

i

In nrdftr tn nhtoiry a COA, « tnnvant must make “a substantial showing of the denial of a

constitutional right.” 28 U.S.C. § 2253(c)(2). The movant must show that reasonable jurists would
find debatable both: (l) the merits of an underlying claim, and (2) the procedural issues that he

i
i

I

I

seeks to raise. See Slack v. McDaniel, 529 U.S. 473,478 (2000) (quotations omitted). To succeed

I

on an ineffective-assistance claim in a § 2254 petition, a petitioner must establish that the relevant
state court decision was contrary to, or an unreasonable application of, Strickland v. Washington.
See Cullen v. Pinholster, 563 U.S. 170,189 (2011). To establish ineffective assistance of counsel,
a petitioner must show that (1) his attorney’s performance was deficient, and (2) the deficient
performance prejudiced his defense. Strickland v. Washington, 466 U.S. 668, 687 (1984).
Claim 1:
Defects in state collateral proceedings do not provide a basis for federal habeas relief
because such a challenge does not undermine the legality of the detention or imprisonment. Carroll
v. Sec’y, Dep’t ofCorr., 574 F.3d 1354, 1365-66 (11th Cir. 2009). Thus, Mr. Savicki’s claims

I

I

concerning the state collateral proceedings do not state a cognizable claim for federal habeas relief.
Further, a federal habeas court presumes that credibility determinations in state post-conviction
proceedings are correct, and Mr. Savicki has not overcome the presumption by presenting any

1

I

I

evidence that counsel perjured himself during the evidentiary hearing. Consalvo v. Sec 'yfor Dep t
ofCorr., 664 F.3d 842, 845 (11th Cir. 2011). Accordingly, Mr. Savicki’s claims that the state
collateral proceeding were defective are not cognizable, and a COA is denied on this ground.

1
I

Claim 2:
I

This Court defers to the state court’s determination that the child victim’s hearsay
i

statements were admissible under Florida law. Herring v. Sec ‘y, Dep't of Corr., 397 F.3d 1338,
1355 (11th Cir. 2005). Moreover, the state court found credible trial counsel’s testimony that Mr.
Savicki agreed to the defense’s strategy to impeach the victim and her mother with their prior
inconsistent statements to show that the molestation never occurred. This Court presumes the

i

i
i

credibility finding of a state court is correct, and Mr. Savicki has not made any showing that this

2

i

presumption should be set aside. See Consalvo, 664 F.3d at 845. Nor does this Court second guess
trial counsel’s strategy in a federal habeas proceeding. Chandler v. United States, 218 F.3d 1305,
1314 n.14 (11th Cir. 2000) (en banc). Accordingly, a COA is denied on this ground.
Claim 3 :
The trial transcript shows that the court questioned the victim and properly found that she
understood that she had a duty to tell the truth. Even if the victim testified that she did not
remember speaking to the forensics interviewer, Mr. Savicki has not shown how that went to her
ability to tell the truth and competency to testify, rather than it just evidencing a mistake made by
a child. Further, Mr. Savicki provided no information as to what a psychological evaluation would
have shown, and, thus, he cannot show how he was prejudiced by counsel’s failure to obtain one.
SeeTejadav: Dugger, 941 F.2d 1551,1559 (l 1th Cir. 1991) (holding that a petitioner’s conclusory
statements, unsupported by specific facts or by die record, are insufficient to state a claim for
ineffective assistance of counsel in a collateral proceeding). Accordingly, counsel was not
ineffective for failing to challenge die victim’s competency, and a COA is denied on this ground.
Claim 4:
The state post-conviction court found reasonable, due to the victim’s age, that the
prosecutor would direct ha- attention to “the man in the red shirt,” and found that the prosecutor
had not indicated in any way that Mr. Savicki was the person who had molested her. The trial
transcript supports this finding and shows that the victim was asked if she knew who “the man in
the red shirt was” prior to being asked any other questions about the molestation. The evidence at
trial also showed that Mr. Savicki and the victim had lived in the same house together for at least
several months and that there was no other man living there by Mr. Savicki’s name. Accordingly,

3

S._

J

1

I
!
i

counsel was not ineffective for failing to object to the victim’s in-court identification, and a COA

I
i

i

is denied on this ground.

!

Claim 5:
As neither the victim nor her mother testified what time of day the molestation occurred,
and the victim’s aunt testified that the molestation had occurred months prior to Thanksgiving

i

Day, the testimony from Mr. Savicki’s alibi witnesses—that he was with them until the evening
1

of Thanksgiving Day—would not have refuted allegations that he had molested the victim.
i

Accordingly, counsel was not ineffective for failing to investigate his alibi witnesses, and a COA
is denied on this ground.
i

Claims 6 and 7:

l1

Counsel and Mr. Savicki’s decision to argue that the molestation never occurred, rather than
to try to blame James Dean Dickerson, a man who Mr. Savicki had allegedly seen kissing the victim,
was reasonable in light of the fact that the victim identified Mr. Savicki—a man she had lived with
for at least several months—as the man who molested her. See Chandler, 218 F.3d at 1314 n.14.

i

!
1

!

That strategy does not constitute ineffective assistance simply because Mr. Savicki believes, in
hindsight, that the results of the trial may have been different if they had pursued an alternate theory
of defense. See Payne v. United States, 566 F,3d 1276, 1277 (l 1th Cir. 2009) (“In evaluating an
attorney’s conduct, a court must avoid the distorting effects of hindsight and must evaluate the

<

I
;
l

conduct from counsel’s perspective at the time.”).
I

Further, to the extent that other witnesses could have shown a motive for the victim’s mother
to fabricate the molestation, the state court found credible counsel’s assertion that Mr. Savicki never

i

told him that one of those witnesses would have testified that the mother made the whole thing up.
i

The other witness’s alleged testimony that some of Mr. Savicki’s belongings were found in the

I

I

4

I

mother’s room after his arrest is not necessarily evidence that she fabricated the molestation in order
to steal his belongings, as that would not have refuted the victim’s testimony that Mr. Savicki

I

t

i
i

molested her, testimony which the jury was free to believe even if it discredited the mother. See
i

United States v. Thompson, 422 F.3d 1285, 1292 (11th Cir. 2005) (holding that credibility
determinations are the exclusive province of the jury). Accordingly, counsel was not ineffective
for failing to investigate and present material witnesses, and a COA is denied on this ground.
i
i

Claim 8:
/

i

The state post-conviction court found that counsel was not required under Florida law to
advise Mr. Savicki that a jury could still choose to find him credible even knowing that he was a
convicted felon. A federal court is bound by the state court’s interpretation of state law, see Estelle

i
i
1

I

\

v. McGuire, 502 U.S. 62, 67 (1991), and Mr. Savicki has not shown that there is any requirement
under Florida law that counsel should have so advised him.

Accordingly, counsel was not

!
I
I

ineffective for failing to properly advise Mr. Savicki concerning his right to testify, and a COA is
!

denied on this ground.

I

I

Claim 9 :

!

Mr. Savicki put forth no evidence that the state offered the victim’s mother a deal on her

i

drug charges in exchange for testifying against him, and, even if there existed such a deal, he cannot
meet the materiality prong of Brady v. Maryland, 373 U.S. 83, 87 (1963), because he concedes that
counsel sufficiently impeached the mother’s testimony, even without this information. His claim
that such information would also have impeached the victim’s testimony is conclusory and
unsupported. See Tejada, 941 F.2d at 1559.

l
I
j

Further, as to Mr. Savicki’s claim that the state failed to disclose Dickerson’s arrest and
charge for molestation of another victim, Dickerson was charged prior to Mr. Savicki’s trial, such

1
i
i

!

5

I

i

I

that he or counsel could have discovered this fact. See Wright v. Sec ’y, Florida Dept. ofCorr., 761
F.3d 1256, 1278 (11th Cir. 2014) (holding no Brady violation where the defendant, “prior to trial,
had within [his] knowledge the information by which [he] could have ascertained the alleged Brady

’
i
1

material.”). Nor can Mr. Savicki meet the materiality prong for a Brady violation, as proof that

I

1

Dickerson was charged with lewd and lascivious conduct of a separate victim would not, in and of
itself, refute the victim’s testimony that Mr. Savicki had molested her. Accordingly, counsel was
not ineffective for failing to investigate any alleged deal between the victim’s mother and the state,

1

and Mr. Savicki failed to show a Brady violation concerning any such deal or Dickerson’s arrest.
A COA is denied on these grounds.

I

Claim 10:

\

Mr. Savicki has not shown that the prosecutor knew that certain testimony by the victim’s

i
I

I

mother and aunt was false, or how that testimony would have affected the jury’s verdict, as it could
still have found credible the victim’s testimony in which she identified Mr. Savicki—a man she had
lived with for at least several months—as her molester. Accordingly, the prosecutor did not violate
Giglio v. United States, 405 U.S. 150, 153 (1972), and a COA is denied on this ground.

I

I

i

Claim 11:
Mr. Savicki did not raise a challenge to the constitutionality of Fla. Stat. § 800.04(5)(b) in

!

the state court, and, thus, he failed to exhaust it. McKay v. United States, 657 F.3d 1190, 1196
(11th Cir. 2011). To the extent that he argues cause for the default based on his post-conviction
counsel’s failure to raise it, he was required to have raised that claim in the state court as well.

1

!

Edwards v. Carpenter»529 U.S. 446,452-53 (2000). Further, as found by the district court, this
claim is meritless as die statute does not unconstitutionally shift the burden of proof. Accordingly,
i

a COA is denied on this ground.

i
1
t

6

<

-

Claim 12:
As discussed above in Claim 9, Mr. Savieki’s Bmafy-violation claim concerning
Dickerson’s arrest and charge for lewd and lascivious molestation of another victim is meritless.
As to his ineffective-assistance-of-counsel claim alleging a failure to investigate Dickerson’s arrest,
die state post-conviction court refused to consider this claim because it found that it was untimely,
as Mr. Savicki first raised it in his third successive Fla. R. Crim. P. 3.850 motion, and it did not
qualify for the exception for newly-discovered evidence because Dickerson’s charges were easily
discoverable by Mr. Savicki prior to trial. Because the state court’s rejection of these claims as
untimely and procedurally barred was based on an independent and adequate state ground, the
district court correctly concluded that this claim was procedurally defaulted in federal court as well.
See Bailey v. Nagle, 172 F.3d 1299,1302 (1 IthCir. 1999) (holding that, if a state court finds that a
petitioner’s claims are procedurally defaulted after applying an adequate arid independent state law,
a federal court is obligated to respect the state court’s decision). Accordingly, a COA is denied on
this ground.
Motion for Discovery. Appointment of Counsel, and Funds for an Investigation:
Mr. Savicki does not succeed on any of the claims raised in his § 2254 habeas petition, and,
thus, the district court did not err in denying his motion for discovery, appointment of counsel, and
funds for an investigation concerning such claims.
Based on the above, Mr. Savicki has raised no claims that warrant a COA, see Slack,
529 U.S. at 478, and his motion is DENIED.

UNITED STATES CIRCUIT JUDGE

7

o

)

ftppendk A

Case 5:17-cv-00018-MCR-EMT Document 43 Filed 03/31/19 Page 1 of 2
Page 1 of 2

UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF FLORIDA
PANAMA CITY DIVISION

JOSEPH GLENN SAVICKI,
Petitioner,
CASE NO. 5:17cvl8/MCR/EMT

v.

JULIE L. JONES,
Respondent.

ORDER
This cause comes on for consideration upon the Chief Magistrate Judge’s
Report and Recommendation dated July 9,2018. ECF No. 37. The parties have been
furnished a copy of the Report and Recommendation and have been afforded an
opportunity to file objections pursuant to Title 28, United States Code, Section
636(b)(1). I have made a thorough de novo determination of Petitioner’s objections.
Having carefully considered the extensive Report and Recommendation, and
Petitioner’s objections, I have determined that the Report and Recommendation
should be adopted.

Case 5:17-cv-00018-MCR-EMT Document 43 Filed 03/31/19 Page 2 of 2
Page 2 of 2

Accordingly, it is now ORDERED as follows:
1.

The Chief Magistrate Judge’s Report and Recommendation, ECF No. 37,

is adopted and incorporated by reference in this order.
2.

The amended petition for writ of habeas corpus, ECF No. 17, is

DENIED.
3.

Petitioner’s “Request for Discovery, Appointment of Counsel, Funds for

Investigator”, ECF No. 35, and “Amendment to Request for Appointment of Counsel,
Funds for Investigator, and Depositions be [sic] Transcribed”, ECF No. 36, are
DENIED.
4.

A certificate of appealability is DENIED.

DONE AND ORDERED this 31st day of March 2019.

M. CASEY RODGERS
UNITED STATES DISTRICT JUDGE

Case No. 5:17cvl8/MCR/EMT

Case 5:17-cv-00018-MCR-EMT Document 44 Filed 03/31/19 Page 1 of 1

UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF FLORIDA
PANAMA CITY DIVISION
JOSEPH GLENN SAVICKI
CASE NO. 5:17cv18-MCR/EMT

VS
JULIE L. JONES
JUDGMENT
Pursuant to and at the direction of the Court, it is

ORDERED AND ADJUDGED that the Petitioner take nothing and that this action
be DENIED.
JESSICA J. LYUBLANOVITS
CLERK OF COURT

March 31,2019
DATE

Is/ Sylvia Williams
Deputy Clerk: Sylvia Williams

o

V
i

x

Cj

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT

No. 19-11532-J

JOSEPH GLENN SAVICKI,
Petitioner-Appellant,
versus

ATTORNEY GENERAL, STATE OF FLORIDA,
FLORIDA DEPARTMENT OF CORRECTIONS,
Respondents-Appellees.

Appeal from the United States District Court
for the Northern District of Florida

Before: JILL PRYOR and LAGOA, Circuit Judges.
BY THE COURT:
Joseph Savicki has filed a “Petition for Panel Rehearing and/or Rehearing En Banc,” which
has been construed as a motion for reconsideration of this Court’s order, denying a certificate of
appealability, following the denial of his petition for a writ of habeas corpus, 28 U.S.C. § 2254.
Upon review, Savicki’s motion for reconsideration is DENIED because he has offered no new
evidence or arguments of merit to warrant relief.

\
\
\
\

n

nfflen dh

Oi

Case 5:17-cv-00018-MCR-EMT Document 37 Filed 07/09/18 Page 1 of 153

Page 1 of 153

IN THE UNITED STATES DISTRICT COURT FOR THE
NORTHERN DISTRICT OF FLORIDA
PANAMA CITY DIVISION
JOSEPH GLENN SAVICKI,
Petitioner,
vs.

Case No.: 5:17cvl8/MCR/EMT
/

JULIE L. JONES,
Respondent.

I
REPORT AND RECOMMENDATION
i!

This cause is before the court on Petitioner’s amended petition for writ of

■>

habeas corpus filed under 28 U.S.C. § 2254 (ECF No. 17). Respondent filed an
answer and relevant portions of the state court record (ECF Nos. 27, 28). Petitioner

/

filed a reply (ECF No. 32). Petitioner subsequently filed a “Request for Discovery,
Appointment of Counsel, Funds for Investigator” (ECF No. 35) and “Amendment to
Request for Appointment of Counsel, Funds for Investigator, and Depositions be
Transcribed” (ECF No. 36).
The case was referred to the undersigned for the issuance of all preliminary
orders and any recommendations to the district court regarding dispositive matters.
&?<?N.D.Fla.Loc. R. 72.2(B); see also 28 U.S.C. § 636(b)(1)(B), (C) and Fed. R. Civ.
P. 72(b). After careful consideration of all issues presented by the parties, if is the

/

Case 5:17-cv-00018-MCR-EMT Document 37 Filed 07/09/18 Page 2 of 153
\
Page 2 of 153

opinion of the undersigned that the pleadings and attachments before the court show
that Petitioner is not entitled to federal habeas relief, and that Petitioner’s pending
motions should be denied.
I.

BACKGROUND AND PROCEDURAL HISTORY
The relevant aspects of the procedural background of this case are established

by the state court record (see ECF No. 28).1 Petitioner was charged in the Circuit

!

Court in and for Santa Rosa County, Florida, Case No. 2012-CF-313, with one count
of lewd and lascivious molestation of a victim less than twelve years of age (Ex. A at
13). Following a jury trial on May 23,2013, he was found guilty as charged (Ex. A
at 79, Exs. B, C). At the conclusion of trial, Petitioner was sentenced, upon being
‘

\.

designated a sexual predator, to a mandatory minimum term of twenty-five (25) years
in prison, with jail credit of 443 days (Ex. A at 86—90, 95-96). Petitioner appealed
the judgment to the Florida First District Court of Appeal (“First DCA”), Case No.
1D13-2951 (see Ex. A at 101, Ex. E). The First DCA dismissed the appeal on June
2, 2014, pursuant to Petitioner’s notice of voluntary dismissal (see Ex. E).

1 Hereinafter all citations to the state court record refer to the exhibits submitted by
Respondent (ECF No. 28). If a cited page has more than one page number, the court cites to the
“Bates stamp” page number.
• vv

Case No.: 5:17cvl8/MCR/EMT

Case 5:17-cv-00018-MCR-EMT Document 37 Filed 07/09/18 Page 3 of 153

Page 3 of 153

On June 6, 2014, Petitioner filed a motion for post-conviction relief, pursuant
to Rule 3.850 of the Florida Rules of Criminal Procedure (Ex. F at 66-94). The state
circuit court dismissed the motion for failure to comply with the oath and certification
requirements of Rule 3.850 (Ex. G at 219-20). The dismissal was without prejudice
to Petitioner’s filing an amended motion within sixty (60) days (id). Petitioner filed
an amended motion on June 27, 2014 (id. at 236-70). The circuit court struck the
motion as facially insufficient, without prejudice to Petitioner’s filing a second
amended motion within sixty (60) days (Ex. H at 443-46). Petitioner filed a second
amended motion (id. at 455-78). The court granted a limited evidentiary hearing and
appointed counsel to represent Petitioner (Ex. I at 674-77). At the commencement
of the hearing, on August 18, 2015, Petitioner chose to represent himself (Ex. I at
730-800, Ex. J at 801-32). Following the hearing, the state circuit court denied the
second amended Rule 3.850 motion in an order rendered on December 15,2015 (Ex.
J at 902-34). Petitioner appealed the decision to the First DCA, Case No. 1D16-0285
(Ex. P). The First DCA affirmed the decision per curiam without written opinion on
September 29, 2016, with the mandate issuing November 29, 2016 (Ex. U). Savicki
v. State. 203 So. 3d 162 (Fla. 1st DCA 2016) (Table).

Case No.: 5:17cvl8/MCR7EMT

Case 5:17-cv-00018-MCR-EMT Document 37 Filed 07/09/18 Page 4 of 153

Page 4 of 153

During the pendency ofthe post-conviction appeal, Petitioner filed a successive
Rule 3.850 motion in the state circuit court (Ex. V at 9^6). On March 17,2016, the
circuit court dismissed the motion for lack of jurisdiction, and alternatively, as
impermissibly successive (id. at 110-12). Petitioner appealed the decision to the First
DCA, Case No. 1D16-1900 (Ex. W at 356). The First DCA affirmed the decision per
curiam without written opinion on September 16, 2016, with the mandate issuing
November 10, 2016 (Ex. Y, AA). Savicki v. State, 202 So. 3d 412 (Fla. 1st DCA
2016) (Table).
On November 28,2016, Petitioner filed a second successive Rule 3.850 motion
in the state circuit court (Ex. BB at 7-25). The circuit court summarily denied the
motion on January 12, 2017 (id. at 73-76). Petitioner appealed the decision to the
First DCA, Case No. 1D17-1696 (id. at 1359-60). The First DCA affirmed the
decision per curiam without written opinion on March 13, 2018, with the mandate
issuing April 10,2018. Savicki v. State. No. 1D17-1696,2018 WL 1308747 (Fla. 1st
DCA Mar. 13, 2018) (Table).
During the pendency of the appeal in First DCA Case No. 1D17-1696,
Petitioner a third successive Rule 3.850 motion in the state circuit court (Ex. DD at
944-63). The circuit court initially held the motion in abeyance until the conclusion

Case No.: 5:17cvl8/MCR/EMT

Case 5:17-cv-00018-MCR-EMT Document 37 Filed 07/09/18 Page 5 of 153

Page 5 of 153

ofPetitioner’s appeal in Case No. 1D17-1696 (Ex. CC at 921-22). OnJune 15,2017,
the First DCA relinquished jurisdiction to the circuit court to rule on Petitioner’s third
successive Rule 3.850 motion (Ex. EE). The court circuit summarily denied the third
successive Rule 3.850 motion on July 10, 2017 (Ex. DD at 985-91). Petitioner
appealed the decision to the First DCA, Case No. ID 17-3484. The First DCA
affirmed the decision per curiam without written opinion on March 9, 2018, with the
mandate April 18, 2018. Savicki v. State. No. 1D17-3484, 2018 WL 1223092 (Fla.
1 st DCA Mar. 9,2018) (Table). Petitioner filed a petition for writ of certiorari in the
Florida Supreme Court, Case No. SC18-473. On April 26, 2018, the supreme court
dismissed the petition for lack ofjurisdiction. Savicki v. State. No. SC 18-473, 2018
WL 1956395, at *1 (Fla. Apr. 26, 2018).
Petitioner filed the instant federal habeas action on January 20,2017 (ECF No.
1).
II.

STANDARD OF REVIEW
Federal courts may grant habeas corpus relief for persons in state custody

pursuant to 28 U.S.C. § 2254. Pub. L. 104-132, § 104, 110 Stat. 1214, 1218-19.
Section 2254(d) provides, in relevant part:
(d) An application for a writ of habeas corpus on behalf of a person in
custody pursuant to the judgment of a State court shall not be granted
Case No.: 5:17cvl8/MCR/EMT

Case 5:17-cv-00018-MCR-EMT Document 37 Filed 07/09/18 Page 6 of 153

Page 6 of 153

with respect to any claim that was adjudicated on the merits in State
court proceedings unless the adjudication of the claim—
(1) resulted in a decision that was contrary to, or involved an
unreasonable application of, clearly established Federal law, as
determined by the Supreme Court of the United States; or
(2) resulted in a decision that was based on an unreasonable
determination of the facts in light of the evidence presented in the
State court proceeding.
28 U.S.C. § 2254(d).
The United States Supreme Court explained the framework for § 2254 review
in Williams v. Tavlor. 529 U.S. 362, 120 S. Ct. 1495, 146 L. Ed. 2d 389 (2000). The
appropriate test was described by Justice O’Connor as follows:
Under the “contrary to” clause, a federal habeas court may grant the writ
if the state court arrives at a conclusion opposite to that reached by this
court on a question of law or if the state court decides a case differently
than this Court has on a set of materially indistinguishable facts. Under
the “unreasonable application” clause, a federal habeas court may grant
the writ if the state court identifies the correct governing legal principle
from this Court’s decisions but unreasonably applies that principle to the
facts of the prisoner’s case.
M, 529 U.S. at 412-13 (O’Connor, J., concurring).
Employing the Williams framework, on any issue presented in a federal habeas
petition upon which there has been an adjudication on the merits in a state court
proceeding, the federal court must first ascertain the “clearly established Federal law,”

Case No.: 5:17cvl8/MCR/EMT

Case 5:17-cv-00018-MCR-EMT Document 37 Filed 07/09/18 Page 7 of 153

Page 7 of 153

namely, “the governing legal principle or principles set forth by the Supreme Court
at the time the state court render[ed] its decision.” Lockver v. Andrade. 538 U.S. 63,
71-72, 123 S. Ct. 1166, 155 L. Ed. 2d 144 (2003). The law is “clearly established”
only when a Supreme Court holding at the time of the state court decision embodies
the legal principle at issue. See Thaler v. Haynes. 559 U.S. 43, 47, 130 S. Ct. 1171,
175 L. Ed. 2d 1003 f20101: Woods v. Donald. — U.S. —. 135S.Ct. 1372,1376,191
L. Ed. 2d 464 (2015) (“We have explained that clearly established Federal law for
purposes of § 2254(d)(1) includes only the holdings, as opposed to the dicta, of this
Court’s decisions.” (internal quotation marks and citation omitted)).
After identifying the governing legal principle(s), the federal court determines
whether the state court adjudication is contrary to the clearly established Supreme
Court case law. The adjudication is not contrary to Supreme Court precedent merely
because it fails to cite to that precedent. Rather, the adjudication is “contrary” only
if either the reasoning or the result contradicts the relevant Supreme Court holdings.
Early v. Packer. 537 U.S. 3, 8, 123 S. Ct. 362, 154 L. Ed. 2d 263 (2002) (“Avoiding
th[e] pitfalls [of § 2254(d)(1)] does not require citation to our cases—indeed, it does
not even require awareness of our cases, so long as neither the reasoning nor the result
of the state-court decision contradicts them.”). Where there is no Supreme Court

Case No.: 5:17cvl8/MCR/EMT

\

Case 5:17-cv-00018-MCR-EMT Document 37 Filed 07/09/18 Page 8 of 153

Page 8 of 153

precedent on point, the state court’s conclusion cannot be contrary to clearly
established federal law. See Woods. 135 S. Ct. at 1377 (holding, as to claim that
counsel was per se ineffective in being absent from the courtroom for ten minutes
during testimony concerning other defendants: “Because none of our cases confront
the specific question presented by this case, the state court’s decision could not be
contrary to any holding from this Court.” (internal quotation marks and citation
omitted)). If the state court decision is contrary to clearly established federal law, the
federal habeas court must independently consider the merits of the petitioner’s claim.
See Panetti v. Ouarterman. 551 U.S. 930, 954, 127 S. Ct. 2842, 168 L. Ed. 2d 662
(2007).

If the “contrary to” clause is not satisfied, the federal habeas court next
determines whether the state court “unreasonably applied” the governing legal
principles set forth in the Supreme Court’s holdings. The federal court defers to the
state court’s reasoning unless the state court’s application of the legal principle(s) was
“objectively unreasonable” in light of the record before the state court. Williams. 529
U.S. at 409; see Holland v. Jackson. 542 U.S. 649, 652, 124 S. Ct. 2736, 159 L. Ed.
2d 683 (2004) (per curiam). In applying this standard, the Supreme Court has
emphasized:

Case No.: 5:17cvl8/MCR/EMT

Case 5:17-cv-00018-MCR-EMT Document 37 Filed 07/09/18 Page 9 of 153

Page 9 of 153

When reviewing state criminal convictions on collateral review, federal
judges are required to afford state courts due respect by overturning their
decisions only when there could be no reasonable dispute that they were
wrong. Federal habeas review thus exists as “a guard against extreme
malfunctions in the state criminal justice systems, not a substitute for
ordinary error correction through appeal.” Harrington, supra, at
102-103,131 S. Ct. 770 (internal quotation marks omitted).
Woods. 135 S. Ct. at 1376 (quoting Harrington v. Richter. 562 U.S. 86, 131 S. Ct.
770, 178 L. Ed. 2d 624 (2011)).
Section 2254(d) also allows federal habeas relief for a claim adjudicated on the
merits in state court where that adjudication “resulted in a decision that was based on
an unreasonable determination of the facts in light of the evidence presented in the
State court proceeding.” 28 U.S.C. § 2254(d)(2). The “unreasonable determination
of the facts” standard is implicated only to the extent the validity of the state court’s
ultimate conclusion is premised on an unreasonable fact finding.

See Gill v.

Mecusker. 633 F.3d 1272, 1292 (11th Cir. 2011). As with the “unreasonable
application” clause, the federal court applies an objective test. Miller-El v. Cockrell.
537 U.S. 322, 340, 123 S. Ct. 1029, 154 L. Ed. 2d 931 (2003) (holding that a state
court decision based on a factual determination “will not be overturned on factual
grounds unless objectively unreasonable in light of the evidence presented in the state
court proceeding.”). Federal courts “may not characterize . . . state-court factual

Case No.: 5:17cvl8/MCR/EMT

Case 5:17-cv-00018-MCR-EMT Document 37 Filed 07/09/18 Page 10 of 153

Page 10 of 153

determinations as unreasonable merely because we would have reached a different
conclusion in the first instance.” Brumfield v. Cain, — U.S. —, 135 S. Ct. 2269,
2277, 192 L. Ed. 2d 356 (2015) (quotation marks omitted).
When performing review under § 2254(d), the federal court presumes that all
factual determinations made by the state court are correct. 28 U.S.C. § 2254(e)(1).
The petitioner bears “the burden of rebutting the presumption of correctness by clear
and convincing evidence.” Id. Neither the Supreme Court nor the Eleventh Circuit
has interpreted how § 2254(d)(2) and § 2254(e)( 1) interact in the context of fact-based
challenges to state court adjudications. See Cave v. Sec’v for Dep’t of Corr., 638
F.3d. 739 (11th Cir. 2011). However, the Eleventh Circuit has declined to grant
habeas relief under § 2254(d)(2) in the context of a state appellate court’s summary
affirmance, where it found that the validity of the state court decision was not
premised on the trial court’s unreasonable fact finding, and that the petitioner failed
to demonstrate “by clear and convincing evidence that the record reflect[ed] an
insufficient factual basis for affirming the state court’s decision.” Gill, 633 F.3d at
1292.
Only if the federal habeas court finds that the petitioner satisfied § 2254(d),
does the court take the final step of conducting an independent review of the merits

Case No.: 5:17cvl8/MCR/EMT

Case 5:17-cv-00018-MCR-EMT Document 37 Filed 07/09/18 Page 11 of 153

Page 11 of 153

of the petitioner’s claims. See Panetti. 551 U.S. at 954. Even then, the writ will not
issue unless the petitioner shows that he is in custody “in violation of the Constitution
or laws and treaties of the United States.” 28 U.S.C. § 2254(a). “If this standard is
difficult to meet, that is because it was meant to be.” Richter. 562 U.S. at 102.
Within this framework, the court will review Petitioner’s claims.
III.

PETITIONER’S CLAIMS
A.
Ground One: “The process employed bv the State courts for post­
conviction relief is defective in light of the evidence presented.”
Petitioner alleges the state circuit court held an evidentiary hearing in the first

Rule 3.850 proceeding on August 18, 2015, and that the court appointed post­
conviction counsel, Attorney Jeremy Early, on June 9, 2015 (ECF No. 17 at 5-10).
Petitioner states that prior to the evidentiary hearing, he sent several letters to Attorney
Early requesting that he contact several witnesses and obtain evidence in support of
his post-conviction claims, but Attorney Early did not communicate with him until
August 12, 2015 (id.). Petitioner alleges he also filed several motions in an attempt
to obtain evidence to support his post-conviction claims (id.). Petitioner contends he
sought to obtain an offense report, dated November 28,2011, which was the basis for
Stacy Williams’ (the victim’s mother) arrest for possession of methamphetamine on
April 27, 2012 (id.). Petitioner alleges he also sought transcripts of the pre-trial
Case No.: 5:17cvl8/MCR/EMT

Case 5:17-cv-00018-MCR-EMT Document 37 Filed 07/09/18 Page 12 of 153

Page 12 of 153

depositions of Stacy Williams, Michelle Zebracki, and Jerry Weekley (id). Petitioner
alleges he filed motions to discharge Attorney Early based upon Early’s failure to
communicate and failure to investigate the case (id.). Petitioner alleges the post­
conviction court conducted a Nelson2 hearing on the same day as the evidentiary
hearing (id.). Petitioner alleges the court determined that Attorney Early was not
ineffective, and gave Petitioner the choice of proceeding with Attorney Early or
representing himself (id.). Petitioner states he chose to represent himself, with
Attorney Early serving in a standby capacity (id.). Petitioner alleges after the
evidentiary hearing, he again filed motions to obtain transcripts of the pre-trial
depositions of Williams, Zebracki, and Weekley, as well as a copy of Ms. Williams’
offense report, and to supplement the record with that evidence, but the court denied
his motion (id ). Petitioner contends the circuit court’s failure to discharge Attorney
Early and appoint an alternate attorney rendered the post-conviction proceeding

2 In Nelson v. State. 274 So. 2d 256 (Fla. 4th DCA 1973), the court held that where a
defendant, before commencement oftrial, requests discharge of his court-appointed counsel, the trial
judge should make an inquiry of the defendant as to the reason for the request and, if incompetency
of counsel is assigned as the reason, should make a sufficient inquiry of the defendant and his
appointed counsel to determine whether there is cause to believe that counsel is not rendering
effective assistance to the defendant. If reasonable cause for such belief appears, the trial judge
should make a finding to that effect on the record and appoint substitute counsel, who should be
allowed adequate time to prepare the defense. Id. at 259. If no reasonable basis for such belief
appears, the trial judge should so state on the record and advise the defendant that if he discharges
his original counsel, the State may not thereafter be required to appoint a substitute. Id.
Case No.: 5:17cvl8/MCR/EMT

Case 5:17-cv-00018-MCR-EMT Document 37 Filed 07/09/18 Page 13 of 153

Page 13 of 153

unreliable (/V/.).Petitioner also contends the First DCA also violated his due process
rights by granting the State’s request for an extension of a filing deadline but not
granting Petitioner’s request (id.). Petitioner contends the process employed by the
state court is defective and deprived him of the ability to provide necessary evidence
to support his post-conviction claims (id.).
Respondent contends Petitioner’s challenge to the state post-conviction process
is not a cognizable basis for relief under § 2254 (ECF No. 27 at 12-15). Respondent
further contends that ineffective assistance of post-conviction counsel is not a
cognizable federal habeas claim (id.).
It is well established that due process violations that allegedly occur during state
proceedings collateral to the trial proceeding do not form the basis of habeas relief.
See Carroll v. Sec’v. Dep’t of Corr.. 574 F.3d 1354.1365-66(11th Cir. 2009): Quince
v. Crosby. 360 F.3d 1259, 1262 (11th Cir. 2004). A decision in a state collateral
proceeding is not a criminal judgment, or executive agency equivalent, that resulted
in the prisoner’s detention. See Carroll. 574 F.3d at 1365 (“[A] challenge to a state
collateral proceeding does not undermine the legality of the detention or
imprisonment—i.e., the conviction itself....”), Collateral proceedings are instead
“civil in nature and are not part of the criminal proceeding itself.” Pennsylvania v.

Case No.: 5:17cvl8/MCR/EMT

Case 5:17-cv-00018-MCR-EMT Document 37 Filed 07/09/18 Page 14 of 153

Page Hof 153

Finlev. 481 U.S. 551, 556-57, 107 S. Ct. 1990, 1994, 95 L.Ed. 2d 539 (1987).
Therefore, procedural violations during state collateral proceedings are “issues
unrelated to the cause of the petitioner’s detention.” Spradlev v. Dugger. 825 F.2d
1566, 1568 (11th Cir. 1987). As such, they cannot form the basis for habeas relief.
See Carroll. 574 F.3d at 1365 (holding that a failure to hold an evidentiary hearing in
a state post-conviction proceeding was not a basis for habeas relief); see also In re
Rutherford. 437 F.3d 1125, 1127 (11th Cir. 2006) (finding insufficient for habeas
relief the petitioner’s claim that the state post-conviction court denied him due process
by failing to provide mental health records of a person the petitioner alleged had
actually committed the crime); Quince. 360 F.3d at 1262 (rejecting federal habeas
petition which alleged that the state judge presiding over the petitioner’s
post-conviction hearing denied the petitioner due process by not recusing himself,
because the claim did not relate to the petitioner’s conviction).
Additionally, the ineffectiveness or incompetence of counsel during state
collateral post-conviction proceedings is not a ground for federal habeas relief. See
28 U.S.C. § 2254(i). Petitioner failed to state a cognizable basis for federal habeas
relief; therefore, he is not entitled to relief on Ground One.
B.
Ground Two: “Ineffective assistance of counsel—failure to object to
unreliable, inadmissible, perjured Hearsay Rule Exceptions 90.803(23) Isicl.”
Case No.: 5:17cvl8/MCR/EMT

Case 5:17-cv-00018-MCR-EMT Document 37 Filed 07/09/18 Page 15 of 153

Page 15 of 153

Ground Six: “IOC [sic]—failure to contact, interview, and present
material witnesses.”
Ground Seven:
investigation.”3

“IOC [sic]—failure to conduct anv pre-trial

In Ground Two, Petitioner alleges that on October 2, 2012, the State filed a
Notice of Intent to Offer Statements Qualifying as Hearsay Exception Under [Fla.
Stat. §] 90.803(23) (ECF No. 17 at 12-21). Petitioner alleges the hearsay statements
at issue were (1) the child victim’s statements during a forensic interview conducted
by Leilani Mason, a Case Coordinator with the Child Protection Team (“CPT”), (2)
the victim’s statements to her mother, Stacy Williams, and (3) the victim’s statements
to her “aunt,” Michelle Zebracki (id). Petitioner alleges defense counsel, Attorney
Timothy Weekley, stipulated to admission of the statements, and waived a hearing to
determine the reliability of the hearsay statements (id ). Petitioner alleges Attorney
Weekley stated at the post-conviction evidentiary hearing that he did not challenge
admissibility of the statements, because he wished to show the inconsistencies of the
statements; and Weekley testified that he was confident that the court would find the
statements admissible (id.). Petitioner contends if Attorney Weekley had challenged

3 The court has consolidated these three claims because they were the subject of the state
post-conviction evidentiary hearing, and they all relate to defense counsel’s decisions regarding pre­
trial investigation and presentation of the defense theory at trial.
Case No.: 5:17cvl8/MCR/EMT

Case 5:17-cv-00018-MCR-EMT Document 37 Filed 07/09/18 Page 16 of 153

Page 16 of 153

the admissibility of the victim’s hearsay statements, the trial court would have
determined that the statements were unreliable and thus inadmissible {id.). Petitioner
contends Attorney Weekley’s failure to challenge the admissibility of the victim’s
hearsay statements rendered the verdict unreliable (id.).
In Ground Six, Petitioner contends he provided Attorney Weekley, prior to trial,
the names of several witnesses who (1) knew that the victim’s mother, Stacy
Williams, was biased against Petitioner because he called 911 to report that Mr. James
Dean Dickerson kissed the 5-year-old victim, thus causing child protective services
to become involved in Ms. Williams’ life, (2) knew that Ms. Williams had fabricated
the sexual molestation allegation against Petitioner so she could steal his used
electronics and sell them to support her drug habit, and (3) “may reveal” that someone
other than Petitioner committed the sexual molestation (ECF No. 17 at 36-41; ECF
No. 32 at 39-43). Petitioner identifies these witnesses as (1) Joshua Leach, a deputy
who observed items of Petitioner’s personal property, as well as an illegal substance,
in Stacy Williams’ bedroom four days after Williams reported the sexual molestation,
(2) Tarah C. Freeman, who warned Petitioner to “watch his back” in relation to Ms.
Williams, and (3) officers who responded to Petitioner’s 911 call regarding James
Dean Dickerson {id.). Petitioner alleges Attorney Weekley was ineffective for failing

Case No.: 5:17cvl8/MCR/EMT

Case 5:17-cv-00018-MCR-EMT Document 37 Filed 07/09/18 Page 17 of 153

Page 17 of 153

to contact these witnesses and present their testimony at trial (id.). Petitioner contends
the jury would have had reasonable doubt about his guilt if the jury had heard this
testimony (id.).
In Ground Seven, Petitioner contends Attorney Weekley was ineffective for
failing to investigate James Dean Dickerson, and present evidence that Mr. Dickerson
may have been the person who molested the victim, if indeed the molestation occurred
(ECF No. 17 at 42-45; ECF No. 32 at 44-51). Petitioner alleges he told Attorney
Weekley that he saw Mr. Dickerson kiss the 5-year-old victim on the lips, and
Petitioner called 911 and reported this information on August 28, 2011 (id.).
According to the 911 dispatch records, the responding officer interviewed Petitioner
and Mr. Dickerson and determined that Petitioner “believed something was going on
that was not” (Ex. H at 505-07). Petitioner contends this evidence could have raised
reasonable, doubt in the minds of the jurors (ECF No. 17 at 42-49).
Petitioner additionally alleges that Attorney Weekley also failed to present
evidence that Ms. Williams was a drug addict and fabricated the allegation against
Petitioner in order to get him out of the apartment so she could sell his used
electronics to support her addiction (ECF No. 17 at 45-49; ECF No. 32 at 44-51).
Petitioner alleges on November 24, 2011, when police came to the apartment where

Case No.: 5:17cvl8/MCR/EMT

Case 5:17-cv-00018-MCR-EMT Document 37 Filed 07/09/18 Page 18 of 153

Page 18 of 153

Petitioner and Ms. Williams were living and informed Petitioner that Ms. Williams
had filed the complaint of sexual molestation, Petitioner photographed his personal
property and locked his bedroom door (id.). Petitioner alleges four days later, he
returned to the apartment with police to assist him in retrieving his personal property,
and he discovered his bedroom had been ransacked, and some of his property was
found in Ms. Williams’ bedroom (id). Petitioner alleges the police also discovered
methamphetamine in Ms. Williams’ bedroom (id.). Petitioner alleges this evidence
would have created reasonable doubt in the minds of the jurors (id.).
Petitioner contends the state post-conviction court’s adjudication of these
ineffective assistance of trial counsel (“IATC”) claims was based upon an
unreasonable factual determination, specifically, its determination that Attorney
Weekley’s testimony at the evidentiary hearing was credible (ECF No. 17 at 12-21,
37-41; ECF No. 32 at 10-27, 39-51). Petitioner also contends the state court’s
determinations, that Attorney Weekley made sound strategic decisions, and that
Petitioner was not prejudiced by counsel’s alleged errors, were unreasonable, because
the court did not permit Petitioner to present witnesses in support of his claims (id.).
Respondent concedes Petitioner exhausted these three IATC claims in the state
courts (see ECF No. 27 at 15-16, 30,41-42). Respondent contends the state court’s

Case No.: 5:17cvl8/MCR/EMT

Case 5:17-cv-00018-MCR-EMT Document 37 Filed 07/09/18 Page 19 of 153

Page 19 of 153

adjudication of the claims was not contrary to or an unreasonable application of
federal law (id. at 16-19, 30-45).
1.

Clearly Established Federal Law

The standard for evaluating claims of ineffective assistance of counsel is set out
in Strickland v. Washington. 466 U.S. 668 (1984). To obtain relief under Strickland.
Petitioner must show (1) deficient performance by counsel and (2) a reasonable
probability that, but for counsel’s deficient performance, the result of the proceeding
would have been different. Id. at 687-88. If Petitioner fails to make a showing as to
either performance or prejudice, he is not entitled to relief. Id. at 697.
The focus of inquiry under the performance prong of Strickland is whether
counsel’s assistance was reasonable considering all the circumstances and under
prevailing professional norms. Strickland. 466 U.S. at 688-89,691. “The petitioner’s
burden to prove, by a preponderance of the evidence, that counsel’s performance was
unreasonable is a heavy one.” Jones v. Campbell. 436 F.3d 1285, 1293 (11th Cir.
2006) (citing Chandler v. United States. 218 F.3d 1305, 1313 (11th Cir. 2000) (en
banc)). “Judicial scrutiny of counsel’s performance must be highly deferential,” and
courts should make every effort to “eliminate the distorting effects of hindsight, to
reconstruct the circumstances of counsel’s challenged conduct, and to evaluate the

Case No.: 5:17cvl8/MCR/EMT

Case 5:17-cv-00018-MCR-EMT Document 37 Filed 07/09/18 Page 20 of 153

Page 20 of 153

conduct from counsel’s perspective at the time.” Strickland, 466 U.S. at 689.
“[T]here are no ‘absolute rules’ dictating what reasonable performance is . . . .”
Michael v. Crosbv. 430 F.3d 1310,1320 (11th Cir. 2005) (quoting Chandler, 218 F.3d
at

1317).

Indeed,

“‘[absolute rules would interfere with counsel’s

independence—which is also constitutionally protected—and would restrict the wide
latitude counsel have in making tactical decisions.’” Id. (quotingPutman v. Head, 268
F.3d 1223, 1244 (11th Cir. 2001)).
To be found deficient, trial counsel’s performance must be “outside the wide
range of professionally competent assistance.”

Strickland. 466 U.S. at 690.

Professionally competent assistance includes a duty to conduct a reasonable
investigation. Id. at 690-91. The Supreme Court has emphasized that only when
counsels’ choices are made after a “thorough investigation of law and facts relevant
to plausible options” are those choices “virtually unchallengeable.” Id. at 690. When,
however, “strategic choices [are] made after less than complete investigation [they]
are reasonable precisely to the extent that reasonable professional judgments support
the limitations on investigation.” Id. at 690-91. The bottom line is that “counsel has
a duty to make reasonable investigations or to make a reasonable decision that makes
particular investigations unnecessary.

Case No.: 5:17cvl8/MCR/EMT

In any ineffectiveness case, a particular

Case 5:17-cv-00018-MCR-EMT Document 37 Filed 07/09/18 Page 21 of 153

Page 21 of 153

decision not to investigate must be directly assessed for reasonableness in all the
circumstances...Id. at 691. This means that when a court assesses the attorney’s
decision not to investigate, it “must consider... whether the known evidence would
lead a reasonable attorney to investigate further.” Wiggins v. Smith. 539 U.S. 510,
527, 123 S. Ct. 2527, 156 L. Ed. 2d 471 (2003). “Even if many reasonable lawyers
would not have done as defense counsel did at trial, no relief can be granted on
ineffectiveness grounds unless it is shown that no reasonable lawyer, in the ^£2
circumstances, would have done so.” Rogers v. Zant. 13 F.3d 384, 386 (11th Cir.
1994) (emphasis added).
As to the prejudice prong of the Strickland standard, Petitioner’s burden of
demonstrating prejudice is high. See Wellington v. Moore. 314 F.3d 1256,1260 (11th
Cir. 2002). To establish prejudice, Petitioner must show “that every fair-minded jurist
would conclude ‘that there is a reasonable probability that, but for counsel’s
unprofessional errors, the result of the proceeding would have been different.’” Jones
v.GDCP Warden. 753 F.3 d. 1171,1184 (11 th Cir. 2014) (quoting Strickland. 466 U. S.
at 694). “A reasonable probability is a probability sufficient to undermine confidence
in the outcome,” not that counsel’s conduct more likely than not altered the outcome
of the proceeding. Id. (citation omitted). And Petitioner must show that the

Case No.: 5:17cvl8/MCR/EMT

Case 5:17-cv-00018-MCR-EMT Document 37 Filed 07/09/18 Page 22 of 153

Page 22 of 153

likelihood of a different result is substantial, not just conceivable. Williamson v. Fla.
Dep’tofCorr.. 805 F.3d 1009,1016 (11th Cir. 2015) (citing Richter, 562 U.S. at 112).
“When a defendant challenges a conviction, the question is whether there is a
reasonable probability that, absent the errors, the factfinder would have had a
reasonable doubt respecting guilt.” Strickland, 466 U.S. at 695. The prejudice
assessment does “not depend on the idiosyncracies of the particular decisionmaker,”
as the court should presume that the judge or jury acted according to law. Id. at
694-95. Further, when the claimed error of counsel occurred at the guilt stage of trial
(instead of on appeal), Strickland prejudice is gauged against the outcome of the trial,
not on appeal. See Purvis v. Crosby. 451 F.3d 734, 739 (11th Cir. 2006) (citing
Strickland. 466 U.S. at 694-95).
Finally, when a district court considers a habeas petition, the state court’s
findings of historical facts in the course of evaluating an ineffectiveness claim are
subject to the presumption of correctness, while the performance and prejudice
components are mixed questions of law and fact. See Strickland, 466 U.S. at 698;
Collier v. Tumin. 177F.3d 1184,1197 (11th Cir. 1999). “Surmounting Strickland’s
high bar is never an easy task.” Padilla v. Kentucky, 559 U.S. 356, 371, 130 S. Ct.
1473, 176 L. Ed. 2d 284 (2010). “Establishing that a state court’s application of

Case No.: 5:17cvl8/MCR/EMT

Case 5:17-cv-00018-MCR-EMT Document 37 Filed 07/09/18 Page 23 of 153

Page 23 of 153

Strickland was unreasonable under § 2254(d) is all the more difficult.” Richter. 131
S. Ct. at 788. As the Richter Court explained:
The standards created by Strickland and § 2254(d) are both “highly
deferential,” and when the two apply in tandem, review is “doubly” so.
The Strickland standard is a general one, so the range of reasonable
applications is substantial. Federal habeas courts must guard against the
danger of equating unreasonableness under Strickland with
unreasonableness under § 2254(d). When § 2254(d) applies, the
question is not whether counsel’s actions were reasonable. The question
is whether there is any reasonable argument that counsel satisfied
Strickland’s deferential standard.
Id. (citations omitted).
2.

Federal Review of State Court Decision

Petitioner presented these IATC claims as Claims #1, #6, and #7 of his second
amended Rule 3.850 motion (Ex. G at 456-59, 465-72). In the state circuit court’s
written decision denying the claims, the court correctly stated the deficient
performance and prejudice prongs of the Strickland standard as the applicable legal
standard (Ex. J at 904-05). The court adjudicated the claims as follows:
Claim One—Failing to Challenge Out-Of-Court Hearsay Statements of
Child Victim
Defendant claims that counsel was ineffective for failing to
challenge the out-of-court hearsay statements of the child victim.
Defendant further alleges that counsel was ineffective for waiving the
required section 90.803(23) hearing to determine the reliability of the
child victim’s hearsay statements without Defendant’s consent.
Case No.: 5:17cvl8/MCRyEMT

Case 5:17-cv-00018-MCR-EMT Document 37 Filed 07/09/18 Page 24 of 153

Page 24 of 153

This claim was addressed at the evidentiary hearing.[FN 8]
Counsel testified that he had several reasons for not objecting to the
hearsay rule exceptions under section 90.803(23), Florida Statutes. First, “
counsel expected the Court to permit into the evidence the Child
Protection Team (CPT) interview, especially since the child victim was
anticipated to, and did testify at trial.[FN 9] Secondly, the State was
planning on withdrawing portions of its motion for child hearsay. The
defense theory was to.attack the credibility of Stacy Williams (the child
victim’s mother) and the child victim, and to stand by the assertion that
the alleged incident did not occur and Defendant was not guilty. [FN 10]
As discussed with Defendant, counsel wanted to get all of the different
versions of the child hearsay statements into evidence.[FN 11] In order
to accomplish this, counsel wanted “everything to come in for as many
different possible versions and variations.”[FN 12] Counsel was '
confident that the statements would meet the constitutionally mandated
safeguards of reliability because the main part of the child hearsay was
from the CPT interview, and then there were disclosures made to other
family members.[FN 13] Counsel confirmed that he absolutely wanted
to bring out the inconsistencies that were present in the child’s testimony
from statement to statement.[FN 14] Counsel further confirmed that if
the State had not filed a notice of intent to present child hearsay, he still
would have wanted the child hearsay statements to come into evidence
so he could use the statements to impeach the child victim.[FN 15]
Counsel testified that Defendant knew of this theory and agreed to
counsel’s strategy of letting the child hearsay statements in without
objection.[FN 16] In fact, Defendant encouraged counsel to attack the
statements, to attack the CPT interview, and to attack the credibility of
the mother.[FN 17] Counsel testified that in essence, everything
Defendant asked counsel to do as a defense was to attack the credibility,
mainly of the mother, Ms. Williams.[FN 18] In counsel’s opinion this
technique was successful because “the mother’s credibility was
absolutely and totally destroyed.”[FN 19] Counsel further opined that
“[t]he bottom line is the jury, at the end of the day, didn’t believe the
child hearsay because it was on a video or because it came through the
testimony of another person. They did not believe, in my opinion,
anything that the mother of the alleged victim had to say. The conviction
Case No.: 5:17cvl8/MCR/EMT

Case 5:17-cv-00018-MCR-EMT Document 37 Filed 07/09/18 Page 25 of 153

Page 25 of 153

came back because they believed the testimony, in person, in court, of
the little girl.”[FN 20]
The Court finds counsel’s testimony credible regarding this claim.
As the evidence at [the] hearing shows that Defendant knew and was in
agreement with counsel’s sound trial strategy of bringing out the
inconsistencies in the child hearsay statements, the Court finds that
counsel was not deficient, nor was Defendant prejudiced by counsel’s
failure to challenge the child hearsay statements. Defendant is not
entitled to relief as to this claim.
[FN 8: Defendant chose to represent himself at the
evidentiary hearing despite being appointed counsel. See
Transcript, Evidentiary Hearing, August 18, 2015, pp.
2-26. While Defendant offered argument in support of the
claims set for evidentiary hearing, Defendant failed to
present any evidence (including testimony) to support his
claims.]
Claim Six—Failing to Call. Interview, and Present Material Witnesses
Defendant next alleges that his counsel was ineffective by failing
to call, interview, and present material witnesses. Specifically,
Defendant alleges that if: a) Tarah C. Freeman; b) Iesha Rochelle
Gooden; c) Raymond Lloyd Tiller; d) Richard Henry Stephens; e) James
Dean Dickerson; f) the officers who investigated Defendant’s 911 call;
and g) the officers involved in Defendant’s November 28,2011 standby
had been called on Defendant’s behalf at trial, the results of his trial
would have been different.
An evidentiary hearing was convened regarding this claim as it
pertains to Ms. Freeman, Ms. Gooden, Mr. Tiller, and Mr. Stephens.
Counsel testified that Defendant made him aware of these alleged
proposed witnesses.[FN 39] Counsel confirmed that he had made the
decision not to contact any of these potential witnesses based on what
Defendant had said about them, “both what they would say, their
Case No.: 5:17cvl8/MCR/EMT

Case 5:17-cv-00018-MCR-EMT Document 37 Filed 07/09/18 Page 26 of 153

Page 26 of 153

characteristics, their attitude toward” Defendant.[FN 40] The Court
finds that counsel’s testimony is credible and his strategy sound in not
contacting these four witnesses. As addressed in greater detail below,
the Court finds that Defendant is not entitled to relief as to the entirety
of this claim.
a. Tarafa C. Freeman
Defendant alleges that his counsel should have called Tarah C.
Freeman, a former roommate, who would have testified she had warned
Defendant that Ms. Williams (the mother of the child victim) was going
to “set him up.” Ms. Freeman would have also testified that Ms.
Williams was telling people Defendant had molested her child. Ms.
Freeman would have further testified that James Dean Dickerson lived
at the same residence as Defendant and Ms. Williams; there were several
other roommates that lived at Ms. Williams’ residence; she had heard
Defendant threaten Ms. Williams with calling Department of Children
and Families (DCF); and the one time Ms. Freeman had seen Defendant
and the child victim together, she did not witness anything inappropriate.
Ms. Freeman would have also confirmed that on November 24, 2011
(“Thanksgiving”) Defendant texted Ms. Freeman that Ms. Williams had
filed a complaint, to which Ms. Freeman responded she had warned him.
Contrary to Defendant’s allegations, counsel testified Defendant
never told him that Ms. Freeman would testify he was being “set up” by
Ms. Williams.[FN 41] Counsel confirmed that for the first few months
of Defendant’s correspondence with counsel, Defendant stated Ms.
Freeman had told him a few weeks before the report of abuse was filed
that Ms. Williams was telling people Defendant had molested her
daughter. [FN 42] Counsel further confirmed Defendant consistently told
counsel that Ms. Freeman had told Defendant to watch his back.[FN 43]
Counsel also testified that it was Defendant who drew a conclusion in
later letters that Ms. Freeman telling him to watch his back must have
been a sign from her that Defendant was being “set up.”[FN 44]

Case No.: 5:17cvl8/MCR/EMT

Case 5:17-cv-00018-MCR-EMT Document 37 Filed 07/09/18 Page 27 of 153

Page 27 of 153

Counsel testified that in evaluating whether the testimony would
be helpful at trial, counsel took into account that Defendant told him Ms.
Freeman had been evicted from Ms. Williams’ home.[FN 45] Counsel
further testified that he reviewed aDCF report showing Ms. Williams
told DCF she had kicked several people out her house for drug use.[FN
46] Counsel further took into account that Defendant had characterized
Ms. Freeman as being part of the group that Defendant referred to as a
drug addicts.[FN 47] Counsel testified that he determined Ms.
Freeman’s proposed testimony would have probably only served to
impeach the credibility of Ms. Williams. However, counsel surmised
from the information provided by Defendant that Ms. Freeman’s
testimony could have been impeached by Ms. Williams on rebuttal
evidence by the State.[FN 48]
Counsel also noted that although Defendant alleges in his rule
3.850 motion that Ms. Freeman was available to testify, in Defendant’s
correspondence to counsel he had asked counsel to inform Ms. Freeman
how long Defendant had been in jail and the penalty Defendant was
facing. [FN 49] Defendant also instructed counsel to act as though he had
copies of the text messages between Defendant and Ms. Freeman in
which she warned Defendant to watch his back.[FN 50] Defendant
indicated that if counsel did not do all of these things, Ms. Freeman
might not cooperate.[FN 51]
Counsel confirmed that Defendant told counsel that Ms. Freeman
had observed Defendant with the child victim and had not observed any
odd reactions by the child victim to Defendant.[FN 52] However,
counsel testified there was “an ethical reason for which I would not have
been able to call her to testify to that.”[FN 53] Ultimately counsel
determined that calling Ms. Freeman would not have helped Defendant’s
case.[FN 54] “It was not a silver bullet or a smoking gun without some
other admission from [Ms. Williams], which never came.”[FN 55]
The Court finds the entirety of counsel’s testimony regarding Ms.
Freeman credible. The Court further finds that Defendant never told
counsel Ms. Freeman warned him that Ms. Williams was going to “set
Case No.: 5:17cvl8/MCR/EMT

Case 5:17-cv-00018-MCR-EMT Document 37 Filed 07/09/18 Page 28 of 153

Page 28 of 153

him up.” Even if Ms. Freeman had offered the vague statement that Ms.
Williams was trying to set up Defendant, it is questionable whether this
testimony would have been admissible at trial. The Court also finds that,
contrary to Defendant’s allegations, Ms. Freeman was not available and
willing to testify at Defendant’s trial. The Court finds that counsel
clearly made a strategic decision not to contact Ms. Freeman based upon
the information Defendant provided to counsel. Ms. Freeman’s
testimony could have easily been impeached, and even if it were not, Ms.
Freeman’s testimony could have only served to impeach Ms. Williams’
testimony, which had already been accomplished. Ms. Freeman’s
proposed testimony simply would not have made a difference in the
result[] of Defendant’s trial. Defendant has failed to show that counsel
was deficient or that Defendant was prejudiced by counsel’s failure to
contact Ms. Freeman and have her testify at Defendant’s trial. Defendant
is not entitled to relief as to this claim.
b. Iesha Rochelle Gooden
Defendant alleges counsel should have called Iesha Rochelle
Gooden, a former roommate, who would have testified she had seen
Defendant and the child victim together once and the child did not have
a reaction to Defendant’s presence. Defendant further alleges that Ms.
Gooden would have testified that Ms. Williams and Defendant argued
about Ms. Williams’ lifestyle and Defendant had threatened to call DCF.
Defendant further contends that Ms. Gooden would have testified that
Ms. Williams would spend the night in Defendant’s room; Ms. Williams
had talked about setting Defendant up; and Ms. Williams had broken into
Defendant’s room and stolen several items after Defendant was forced
to leave the residence by law enforcement.
An evidentiary hearing was convened regarding this allegation.
Counsel testified that he was aware that Ms. Gooden was a former
roommate of Defendant’s who had been “kicked out” by Ms. Williams
from the residence prior to the allegations against Defendant.[FN 56]
Counsel further testified that Defendant informed counsel that Ms.
Gooden was the girlfriend of Raymond Tiller.[FN 57] When being
Case No.: 5:17cvl8/MCR/EMT

Case 5:17-cv-00018-MCR-EMT Document 37 Filed 07/09/18 Page 29 of 153

Page 29 of 153

questioned by Defendant at [the] evidentiary hearing, counsel revealed
that “Raymond Tiller is a person that you told me had told another
person that you admitted to him that you had done it.”[FN 58] Counsel
indicated he did not believe it would be in Defendant’s best interest to
attempt to contact Ms. Gooden because he had “no interest” in trying to
find a witness who could lead the State to someone who would make the
allegation that Defendant had made an admission to the crime.[FN 59]
Defendant had also warned counsel that one of the ways to find Ms.
Gooden was to go through Mr. Tiller, who was being housed at the Santa
Rosa County Jail. Counsel testified that from Defendant’s description
of Mr. Tiller as a “reluctant hostile witness,” he did not want to call
anybody as a witness who was connected to Mr. Tiller.[FN 60] Counsel
further testified that he did not believe Ms. Gooden’s testimony would
have been of any great evidentiary value to establish Ms. Williams was
motivated to report Defendant because of threats of DCF involvement.
Counsel testified that from what he had reviewed before trial, DCF was
constantly being called on Ms. Williams.[FN 61]
The Court finds counsel’s testimony wholly credible on the reason
he did not attempt to contact Ms. Gooden. The Court further finds that
counsel exercised sound trial strategy in not contacting Ms. Gooden.
Contacting Ms. Gooden would not have been in Defendant’s best
interest. As Defendant has failed to demonstrate that counsel was
deficient or that Defendant was prejudiced, Defendant is not entitled to
relief to this claim.
c. Raymond Llovd Tiller
Defendant alleges that counsel should have called Raymond Lloyd
Tiller, a former roommate, who would have testified that Ms. Williams
and Defendant argued; Defendant threatened to call DCF on Ms.
Williams, and Ms. Williams slept in Defendant’s bedroom. Defendant
further claims that Mr. Tiller would have testified that the child victim
did not live at the house with Ms. Williams and he had never seen
Defendant and the child victim at the apartment at the same time.
Defendant further contends that Mr. Tiller would have testified that Ms.
Case No.: 5:17cvl8/MCR/EMT

Case 5:17-cv-00018-MCR-EMT Document 37 Filed 07/09/18 Page 30 of 153

Page 30 of 153

Williams broke into Defendant’s room on November 24, 2011, after
Defendant was “made to leave” by Milton police. Mr. Tiller would have
further testified that Ms. Williams and the child victim were not at the
apartment on November 24,2011, until after Ms. Williams had contacted
the Milton police.
An evidentiary hearing was convened regarding this claim.
Counsel testified that because Defendant informed counsel that Mr.
Tiller had told someone else that Defendant had admitted to committing
the crime, he did not believe he was doing Defendant “any favors” by
locating Mr. Tiller.[FN 62] Counsel also testified he did not believe it
was wise to contact Mr. Tiller when Defendant told counsel he should
“proceed with caution” because Mr. Tiller would be a “reluctant hostile
witness,” and if he knew counsel was contacting him on Defendant’s
behalf, Mr. Tiller would not help.[FN 63] Counsel asked Defendant at
[the] hearing, even if he assumed for a moment Mr. Tiller may have seen
the few small things that might further impeach the credibility of Ms.
Williams, “why would we open the door to the possibility that the State
may elicit from [Mr. Tiller and Ms. Gooden] alleged admissions that you
made about what you’re charged with? That has no logic,”[FN 64]
Counsel clarified that he made his decision not to contact Mr. Tiller
based on not only what Defendant told counsel about the situation, but
also on what Defendant told Mr. Russell and Ms. Edwards, Defendant’s
previous counsel.[FN 65] Counsel had the benefit of the full file and all
of Defendant’s statements made to counsel and to all of Defendant’s
previous attorneys when he made the decision not to call Mr. Tiller.[FN
66]
The Court finds counsel’s testimony credible. Counsel was fully
informed and exercised sound discretion when determining it would defy
logic to contact Mr. Tiller to testify on Defendant’s behalf. Defendant
has failed to demonstrate that counsel was deficient or that Defendant
was prejudiced. Defendant is not entitled to relief as to this claim.
d. Richard Henry Stephens

Case No.: 5:17cvl8/MCR/EMT

Case 5:17-cv-00018-MCR-EMT Document 37 Filed 07/09/18 Page 31 of 153

Page 31 of 153

Defendant alleges that Richard Henry Stephens, who was also a
former roommate of Defendant, would have testified that James
Dickerson was permitted to move to an upstairs bedroom. Defendant
"further alleges thafMr. Stephens would"have testitiedlhat Ms. Williams
and Defendant argued about Mr. Dickerson moving in. Mr. Stephens
was also aware that Defendant threatened to call DCF. Additionally,
Stephens would have testified that the child victim was not living at the
residence; he never saw Defendant and the child victim at the apartment
at the same time.
An evidentiary hearing was convened regarding this assertion.
Counsel testified that Defendant informed him that Mr. Stephens was
Ms. Williams’ boyfriend, who was a sex offender that was not supposed
to be living at that address.[FN 67] In response to Defendant’s question
as to whether Mr. Stephens would have testified that Defendant
threatened to call DCF on Ms. Williams, counsel testified he did not
believe Mr. Stephens would be willing to testify on Defendant’s behalf
as it would have required Mr. Stephens admitting he was present at a
prohibited location.[FN 68] Counsel further explained he based this
opinion on Defendant’s letters informing counsel Mr. Stephens was a sex
offender living with Ms. Williams.[FN 69]
The Court finds counsel’s testimony credible and his strategy
sound in not calling Mr. Stephens to testify. The Court agrees with
counsel that it is highly unlikely Mr. Stephens would have implicated
himself in another crime by testifying on Defendant’s behalf. The Court
finds that counsel’s actions were not deficient and Defendant has failed
to demonstrate he was prejudiced by counsel’s actions. Defendant is not
entitled to relief as to this claim.
e. James Dean Dickerson
Defendant next alleges that James Dean Dickerson, a former
roommate, would have testified that Defendant did not want Mr.
Dickerson living at Ms. Williams’ residence. Defendant also contends
that Mr. Dickerson woul have testified the child victim did not live at the
Case No.: 5:17cvl8/MCR/EMT

Case 5:17-cv-00018-MCR-EMT Document 37 Filed 07/09/18 Page 32 of 153

Page 32 of 153

residence and he never saw the child victim and Defendant at the
residence at the same time.
Defendant is not entitled to relief as to this claim. Even if counsel
had called Mr. Dickerson to testify to the testimony alleged by
Defendant, it would not have made a difference at Defendant’s trial. The
substance of Mr. Dickerson’s proposed testimony has no bearing on
whether Defendant committed the crime in question. As Defendant
cannot show he was prejudiced by counsel’s failure to offer testimony
that would have been of no assistance to Defendant’s case. Defendant
is not entitled to relief as to this claim.
f. Officers Who Investigated Defendant’s 911 call
Defendant next alleges that counsel should have called the officers
who investigated the 911 call placed by Defendant on August 28,2011.
Defendant alleges the officers would have testified that Defendant told
them Ms. Williams had seen Mr. Dickerson kissing the sleeping child
victim, “like a man kisses a woman.”
This claim is facially insufficient. Initially, indentifying [sic] the
persons as “officers” is not an adequate identification of the purported
witnesses. See Austin v. State. 762 So. 2d 558, 558 (Fla. 4th DCA
2000). The Court has reviewed the 911 call report attached to
Defendant’s motion and finds that the officers are not identified on the
report. Consequently, counsel would not have had the proper
information to try to obtain the testimony from the unidentified
“officers.”
Even if the claim were facially sufficient, Defendant would still
not be entitled to relief. Testimony regarding an ancillary event
regarding someone else kissing the child victim would have done
nothing to refute the fact that the child victim identified Defendant as the
person who molested her. Additionally, counsel testified that he and
Defendant discussed the possible defense of raising the issue with Mr.
Dickerson and shifting the blame to him. However, counsel indicated
Case No.: 5:17cvl8/MCR/EMT

Case 5:17-cv-00018-MCR-EMT Document 37 Filed 07/09/18 Page 33 of 153

Page 33 of 153

“[w]e elected not to do that because the allegations against the James
person were different than the allegations against [Defendant]. For
example, the allegations against James occurred in a common living area
with several children present in front of a television while the child slept.
The allegations against [Defendant] were isolated to [Defendant’s] room
and [the child victim] only.”[FN70] The Court finds counsel’s testimony
credible regarding this issue. Defendant has failed to demonstrate that
counsel sas deficient and that Defendant was prejudiced by the officers
not being called. Defendant is not entitled to relief as to this claim.
g. Officers involved in Defendant’s November 28. 2011 Standby
Defendant also alleges that counsel should have called the Milton
Police Department Officers and the Santa Rosa Sheriffs Office Officers
who were involved in Defendant’s civil standby on November 28,2011.
Defendant alleges the officers would have testified that Ms. Williams
was “visibly high” when the officers arrived at the apartment to let
Defendant in to collect his belongings. Defendant further alleges the
officers could have testified that some of Defendant’s personal items
were found in Ms. Williams’ room even though she denied taking any of
Defendant’s belongings.
This claim as presented prior to [the] evidentiary hearing[FN 71]
appears to be facially insufficient as Defendant fails to identify the
proposed witnesses by name. See Austin v. State. 762 So. 2d 558, 558
(Fla. 4th DCA 2000). The Court has reviewed the police report
regarding this incident attached as an exhibit to the motion: the officers
are not identified. Consequently, counsel would not have had the proper
information to try to obtain the testimony from the unidentified
“officers.”
[FN 71: After [the] evidentiary hearing Defendant
submitted “Defendant’s Supplemental/Amended Discovery
Exhibit O in support of Defendant’s 3.850,” filed October
7, 2015; and “Amended Discovery Exhibit N,” filed
September 22,2015. In the October 7,2015 pleading with
Case No.: 5:17cvl8/MCR/EMT

~

Case 5:17-cv-00018-MCR-EMT Document 37 Filed 07/09/18 Page 34 of 153

Page 34 of 153

attached exhibits, Defendant now alleges the name of the
deputy who arrested Ms. Williams, and who presumably
would have been one of the officers present during
Defendant’s standby. The Court finds that while Defendant
was given leave to file written closing arguments after the
hearing, he was not permitted leave to submit additional
allegations or evidence for the Court’s consideration.
Consequently, both of these pleadings with attached
exhibits are inappropriately filed and will not be considered
by the Court. Even if they were considered, neither of
these exhibits would have made a difference in the result of
Defendant’s trial.]
Even if this claim were not facially insufficient, Defendant would
still not be entitled to relief. Initially, Ms. Williams admitted from the
stand that she was a drug addict.[FN 72] Testimony from a third-party
observing Ms. Williams under the influence of drugs would not have
added any additional information to the trial. Additionally, the fact that rMs. Williams might have taken some of Defendant’s belongings after he —
was arrested on these charges is an ancillary matter that has no bearing on whether Defendant committed the offense. As testified to by counsel "
at the evidentiary hearing, counsel strategically decided not to pursue
this defense because “[q]uite frankly, I don’t think that it is a motivation
to make a serious claim against someone in order to steal an Xbox or a
television.”[FN 73] Counsel later expounded on his explanation by
testifying “If I recall the items, there were a couple of gaming systems
and a television. I would not have felt comfortable pursuing that as a
theory of defense, for a jury, to say that [Ms. Williams] was enticing her
daughter to make accusations against [Defendant], and putting her
through the stress of a trial to testify against [Defendant] for a couple of
used gaming systems and other electronics.”[FN 74] Counsel also
indicated he did not know who the officer was that charged Ms. Williams
with drug possession that night, but that he had in fact talked to a number
of officers related to the case.[FN 75] The Court finds counsel’s
testimony credible. Defendant has failed to demonstrate that counsel

Case No.: 5:17cvl8/MCR/EMT

Case 5:17-cv-00018-MCR-EMT Document 37 Filed 07/09/18 Page 35 of 153

Page 35 of 153

was deficient and that Defendant was prejudiced by these officers not
being called. Defendant is not entitled to relief as to this claim.
Claim Seven—Failing to Conduct Fre-TriaTlnvestigation
Defendant also alleges that counsel was ineffective for failing to
conduct “any” pre-trial investigation. Specifically, Defendant alleges
that he explained to counsel that the allegations were lodged against him
because Ms. Williams wanted revenge and monetary gain. Specifically,
Defendant claims Ms. Williams wanted revenge because Defendant had
involved law enforcement and DCF in her life on August 28,2011, when
he called 911. Defendant further alleges Ms. Williams wanted revenge
because he had threatened to call DCF and report Ms. Williams’ drug
use. Defendant claims that Ms. Williams would gain monetarily by the
allegations because she could steal the items from Defendant’s room
after his arrest and trade the property to support Ms. Williams’ drug
addiction.
Defendant also claims that he told counsel Ms. Williams was
arrested in April 2012 for drug offenses which resulted from information
Defendant gave the authorities on November 28, 2011. Defendant
claims that he requested his counsel to investigate whether Ms. Williams
was promised anything for her testimony.
Defendant also claims that the child victim made other allegations
of abuse against her uncle, Jerry Weekley and her grandfather, Eddie
Weekley, before Defendant’s trial. Defendant alleges he urged counsel
to investigate to see if maybe the Weekleys were attempting to maintain
custody of Ms. Williams’ children, and if possibly Ms. Williams might
have influenced the child victim to make allegations against them.
Defendant claims that four days before trial, on May 19, 2013,
counsel informed Defendant he had not conducted investigation into
these matters because he assumed the attorney prior to him had already
investigated these concerns. Defendant claims that if counsel had

Case No.: 5:17cvl8/MCR/EMT

Case 5:17-cv-00018-MCR-EMT Document 37 Filed 07/09/18 Page 36 of 153

Page 36 of 153

investigated and presented the pertinent evidence, the jury would not
have found Defendant guilty.
An evidentiary hearing was convened regarding this multi-part
claim. The evidence submitted at evidentiary hearing established that
counsel was aware of Defendant’s theories of revenge and monetary
gain, and he did not see a need to further investigate those situations.[FN
76] As discussed in great detail, counsel testified he considered the
theories of revenge and monetary gain but determined that neither of
these trial strategies would assist Defendant at trial.[FN 77]
In regard to Defendant’s claim regarding whether Ms. Williams
was promised anything for her testimony, counsel testified he understood
Ms. Williams was arrested prior to Defendant’s trial but he did not look
into whether he State was making her testify as a result of her arrest. [FN
78] However, such failure to look into to the issue was not prejudicial
to Defendant. A large portion of counsel’s defense theory was to show
Ms. Williams was not credible. Even the trial judge indicated during a
bench conference that Ms. Williams’ credibility had been
impeached.[FN 79] If Ms. Williams had brokered a deal to testify at
Defendant’s trial, this information would have only been used by the
defense for impeachment purposes. As counsel had already impeached
Ms. Williams’ credibility at trial, whether Ms. Williams had been
promised anything in exchange for her testimony is of no real

consequence.
As to Defendant’s claim regarding additional allegations of abuse
against others, counsel testified at [the] evidentiary hearing that he did
not recall telling Defendant there had been new allegations of abuse
made by the child victim against Eddie and Jerry Weekley.[FN 80]
Counsel knew that Defendant had referenced such in a couple of his
letters, but counsel could not recall whether any new allegations had
actually been brought by the child victim.[FN 81] The Court finds
counsel’s testimony credible. At [the] hearing, Defendant failed to
present any evidence showing that new allegations of abuse actually had
been made by the child victim against Eddie and Jerry Weekley. Even
Case No.: 5:17cvl8/MCR/EMT

Case 5:17-cv-00018-MCR-EMT Document 37 Filed 07/09/18 Page 37 of 153

Page 37 of 153

if such allegations had been made, Defendant has failed to show how
such information would have been admissible evidence at trial.
Defendant has failed to demonstrate that counsel acted deficiently and
Defendant was prejudiced~He is not entitled to relief.
~~ “
(Ex. J at 906-08, 915-30) (footnotes citing to trial transcript and evidentiary hearing
transcript omitted). The First DCA affirmed the decision without written opinion (Ex.
U).
The state court’s factual findings with respect to the content of the testimony
adduced at Petitioner’s trial and at the post-conviction evidentiary hearing are
' supported by the transcripts of those proceedings {see Exs. B, C, I at 730-800, J at
801-32). Therefore, the court will defer to those factual findings.
The state court’s factual finding that the testimony of Petitioner’s trial counsel,
Timothy Weekley, was credible is also entitled to deference. “Determining the
credibility of witnesses is the province and function of the state courts, not a federal
court engaging in habeas review.” Consalvo v. Sec’v for Dep’t of Corr.. 664 F3d
842, 845 (11th Cir. 2011); see also Gore v. Sec’v for Dep’t of Corr.. 492 F.3d 1273,
1300 (11th Cir. 2007) (noting that while reviewing court also gives a certain amount
of deference to credibility determinations, that deference is heightened on habeas
review) (citing Rice v. Collins. 546 U.S. 333, 341^12, 126 S. Ct. 969, 163 L. Ed. 2d
824 (2006) (stating that “[Reasonable minds reviewing the record might disagree
Case No.: 5:17cvl8/MCR/EMT

Case 5:17-cv-00018-MCR-EMT Document 37 Filed 07/09/18 Page 38 of 153

Page 38 of 153

about the [witness’] credibility, but on habeas review that does not suffice to
supersede the trial court’s credibility determination”)). Federal habeas courts have
“no license to redetermine credibility of witnesses whose demeanor has been observed
by the state trial court, but not by them.” Marshall v. Lonberger. 459 U.S. 422, 434,
103 S.Ct. 843,74 L. Ed. 2d 646 (19831: see also Baldwin v. Johnson, 152F.3d 1304,
1317 (11th Cir. 1998); Smith v. Kemp. 715 F.2d 1459, 1465 (11th Cir. 1983)
(“Resolution of conflicts in evidence and credibility issues rests within the province
of the state habeas court, provided petitioner has been afforded the opportunity to a
full and fair hearing.”). Questions of the credibility and demeanor of a witness are
questions of fact. See Consalvo. supra (citing Freund v. Butterworth. 165 F.3d 839,
862 (11th Cir. 1999) (en banc)). “The deference compelled by the AEDPA requires
that a federal habeas court more than simply disagree with the state court before
rejecting its factual determinations.” Nejad v. Attorney, 830 F.3d 1280, 1292 (11th
Cir. 2016) (internal quotation marks and citation omitted). Instead, “[i]n the absence
of clear and convincing evidence, [courts] have no power on federal habeas review to
revisit the state court’s credibility determinations.” Id. (emphasis in original) (citation
omitted).

Case No.: 5:17cvl8/MCR/EMT

Case 5:17-cv-00018-MCR-EMT Document 37 Filed 07/09/18 Page 39 of 153

Page 39 of 153

Petitioner contends the state court’s credibility finding is unreasonable, because
Attorney Weekley gave “false” testimony at the evidentiary hearing (see ECF No. 17
at 17—18; ECF No. 32 at 18). As one example, Petitioner asserts Attorney Weekley
testified that during the victim’s recorded forensic interview with CPT Case
Coordinator Leilani Mason, the victim was questioned about her understanding of the
difference between telling the truth and telling a lie (see Ex. I at 800, Ex. J at 801), but
the transcript of the interview (included in the trial transcript) showed that Ms. Mason
did not question the victim about her understanding of the difference between telling
the truth and telling a lie (see Ex. B at 77-95).
The transcript of the evidentiary hearing shows that the context of Attorney
Weekley’s allegedly false testimony was the following:
Q (by the Defendant) And per your recollection, was [the victim]
issued an oath in the DVD interview—the forensic interview?
A. No, she was not. She was given the same sort of questions
about understanding the difference between telling the truth and telling
a lie that Judge did prior to her testimony at trial. That is very common.
I did not have a problem with that.
(Ex. I at 800, Ex. J at 801).
The transcript of the CPT interview reflects that at the beginning of the
interview, Ms. Mason asked the victim the following:

Case No.: 5:17cvl8/MCR/EMT

Case 5:17-cv-00018-MCR-EMT Document 37 Filed 07/09/18 Page 40 of 153

Page 40 of 153

MS. MASON: Okay. So there are some really important things
about this room I want to tell you. Okay? And the first thing and the
most important thing is that in this room we only talk about the truth and
about things that really happened. Can you do that today?
THE CHILD: (Indicates affirmatively).
(Ex. B at 79). At the conclusion of the interview, Ms. Mason asked the victim the
following:
MS. MASON: Has everything we talked about today been the
truth and everything really happened?
THE CHILD: (Witness indicates positively).
(Ex. B at 95).
At the beginning of the victim’s trial testimony, the prosecutor asked the
following:
Q. All right.... [D]o you know what it means to tell a lie?
A. Kind of.
Q. Well, if I told you that my suit is pink, would that be the truth
or would that be a lie?
A. A lie.
Q. Why would that be a lie?
A. Because it’s black.

Case No.: 5:17cvl8/MCR/EMT

Case 5:17-cv-00018-MCR-EMT Document 37 Filed 07/09/18 Page 41 of 153

Page 41 of 153

Q. If you don’t tell the truth, what can happen? Could you get in
trouble?
A. (Witness indicates affirmatively).
Q. This man that’s sitting up here at the bench, what do you think
would happen if you told him a lie?
A. (Witness shrugs shoulders).
Q. Do you think you would get in trouble if you told him a lie?
A. (Witness indicates affirmatively).
Q. You have to answer out loud for us.
A. Yes.
Q. And ... can people get hurt if you tell lies about them?
A. No.
Q. If you were to say that someone did something to you and they
really didn’t, could that person get in trouble?
A. Uh-huh.
Q. Do you understand what I’m asking?
A. Yes.
Q. Can you hurt someone if you tell a lie about them?
A. I don’t know.

\
CaseNo.: 5:17cvl8/MCR/EMT

Case 5:17-cv-00018-MCR-EMT Document 37 Filed 07/09/18 Page 42 of 153

Page 42 of 153

Q. Well, if you said that someone did something to you and it
wasn’t true, do you think that would be a good thing to do?
A. Uh-uh.
Q. Why not?
A. (Witness shrugs shoulders).
Q. Do you understand that when you are in here today that you
have to tell the truth?
A. Uh-huh.
Q. You do?
A. Yes.
Q. Do you understand that everything you say has to be what
really happened?
A. Yes.
Q. Okay. Do you promise the judge, the man sitting here in the
robe, do you promise him that you’re going to tell the truth and only
speak about what really happened?
A. Uh-huh.
(Ex. B at 23-25).
During a bench conference at trial, the trial judge commented that he did not
place the child under oath prior to her testimony, because he permitted the prosecutor

Case No.: 5:17cvl8/MCR/EMT

Case 5:17-cv-00018-MCR-EMT Document 37 Filed 07/09/18 Page 43 of 153

Page 43 of 153

to lay the foundation as to whether or not the victim was able to tell the truth (Ex. B
at 66).4

Petitioner has failed to show, by clear and convincing evidence, that Attorney
Weekley testified falsely at the evidentiary hearing with respect to whether Ms. Mason
ascertained the victim’s understanding of her obligation to tell the truth during the
recorded forensic interview. Therefore, Petitioner’s example of allegedly false
testimony by Attorney Weekley does not satisfy his burden of rebutting the
presumption of correctness of the state court’s credibility finding.
Petitioner also contends Attorney Weekley testified falsely when he stated he
did not waive the hearing requirement of Florida Statutes § 90.803(23). Petitioner
contends the trial transcript demonstrates Weekley did waive it (see ECF No. 17 at
17-18; ECF No. 32 at 18).
Florida Statutes § 90.803(23) provides, in relevant part:
(23) Hearsay exception; statement of child victim.—
(a) Unless the source of information or the method or circumstances by
which the statement is reported indicates a lack of trustworthiness, an
out-of-court statement made by a child victim with a physical, mental,
4 Florida law provides, “In the court’s discretion, a child may testify without taking the oath
if the court determines the child understands to duty to tell the truth or the duty not to lie.” Fla. Stat.
§ 90.605(2).

Case No.: 5:17cvl8/MCR/EMT

Case 5:17-cv-00018-MCR-EMT Document 37 Filed 07/09/18 Page 44 of 153

Page 44 of 153

emotional, or developmental age of 16 or less describing... any offense
involving an unlawful sexual act, contact, intrusion, or penetration
performed in the presence of, with, by, or on the declarant child, not
otherwise admissible, is admissible in evidence in any civil or criminal
proceeding if:
1. The court finds in a hearing conducted outside the presence of the
jury that the time, content, and circumstances of the statement provide
sufficient safeguards of reliability. In making its determination, the court
may consider the mental and physical age and maturity of the child, the
nature and duration of the abuse or offense, the relationship of the child
to the offender, the reliability of the assertion, the reliability of the child
victim, and any other factor deemed appropriate; and
2. The child [ ]:
a. Testifies;....
(c) The court shall make specific findings of fact, on the record, as to the
basis for its ruling under this subsection.
Fla. Stat. § 90.803(23).
The trial transcript demonstrates that prior to the swearing of the jury, the trial
court and the parties discussed the admissibility of the child victim’s hearsay
statements (Ex. B at 4-7). The prosecutor stated she intended to introduce only the
victim’s statements during the CPT forensic interview, but on the morning of trial,
defense counsel had notified her that he intended to introduce the victim’s statements
to her mother, Stacy Williams. The following discussion ensued:

Case No.: 5:17cvl8/MCR/EMT

Case 5:17-cv-00018-MCR-EMT Document 37 Filed 07/09/18 Page 45 of 153

Page 45 of 153

THE COURT: Yeah, I’m looking at 90.803(23) statement of child
victim, and it clearly says that in order for it to be admissible, the court
has to have a hearing outside the presence of the jury, that the time,
content andEIrcumstances of the statement provide sufficient safeguards
of reliability.
We are going to have to have a hearing, but my only concern is
how come we didn’t do this before we get ready to start the trial?
MR. WEEKLEY: In a way, Your Honor, we’re doing that now,
and if I could just clarify a couple of things, what I intend to introduce
was originally designed to be impeachment evidence with the mother of
the alleged victim. The statements are taken from information I received
in discovery from the State Attorney’s Office, in addition to filing a
criminal complaint, Ms. Williams also filed for domestic—injunction for
prevention of sexual violence. All of that is part of the Discovery that
I received from the state. There’s no transcript or anything. There’s
statements in her handwriting.
The position that we’re in is that it’s vital to the defense of Mr.
Savicki to point out the differences in the stories made by the alleged
child victim at different points in time.
THE COURT: Yeah, you can do that, but what you got to do is,
you got to ask the child victim, did you say this to this person, did you,
say this to this person. If she admits it, that’s it. If she denies it, then
you call that person and ask that person if the child said these things to
her. That’s just how you impeach any witness.
MR. WEEKLEY: And that’s what we’re planning on doing. We
want to be clear, but in order for us to do that, all of the statements made
to the relatives have to come in. We’re prepared to do that through the
testimony of the child.

Case No.: 5:17cvl8/MCR/EMT

Case 5:17-cv-00018-MCR-EMT Document 37 Filed 07/09/18 Page 46 of 153

Page 46 of 153

THE COURT: Well, yeah, that’s the standard way you impeach
a witness. First you have to ask the witness about those statements. You
just can’t in your own case suddenly throw those statements out there.
MR. WEEKLEY: Oh, no, no.
THE COURT: Anything else?
MS. PACE: Nothing from the state.
THE COURT: I guess we’re going to have to have hearing on
your notice to introduce these statements.
MS. PACE: My understanding from the defense is that he had no
problem with them coming in.
THE COURT: You have no objections?
MR. WEEKLEY: No objections whatsoever to this..............
THE COURT: Well, then if there’s no objection from the defense,
then we’ll go forward and the state will be allowed to introduce the
statements of the victim in their case in chief without conducting a
hearing pursuant to 90.803(23) by stipulation of both parties, correct?
MR. WEEKLEY: Correct, Your Honor.
(Ex. B at 4-8).
Attorney Weekley’s testimony at the post-conviction evidentiary hearing was
the following:
Q [by Petitioner]. Okay. And did you discuss waiving the hearing
that is constitutionally mandated by Florida Evidence Code Chapter
90.803(23) with me?
Case No.: 5:17cvl8/MCR/EMT

Case 5:17-cv-00018-MCR-EMT Document 37 Filed 07/09/18 Page 48 of 153

Page 48 of 153

record does not clearly and convincingly establish that the state court’s credibility
finding was unreasonable; therefore, this court defers to the state court’s finding that
Attorney Weekley’s testimony was credible.
The court will next address the reasonableness of Attorney Weekley’s decision
not to challenge the admissibility of the child victim’s hearsay statements. Attorney
Weekley explained his decision as follows:
Q [by Petitioner]. What was your reason or what evidence did you
base not objecting to the hearsay rule exceptions under 90.803(23)?
A. A couple:
First of all, where you have a Child Protection Team interview,
it’s done in such a way that it’s typically allowed by the Court.
Especially if, because it meets the first paragraph for reliability.
Especially if, the alleged victim is going to testify in person, which
she was and she did.
Secondly, the State actually was going to withdraw portions of
their motion for child hearsay. We wanted to submit, and we talked
about this, all the different versions . . . that the mother of the alleged
victim had put into writing or statement [sic] as child hearsay that had
come from the child.
In order for us to do that, I wanted everything to come in for as
many different possible versions, and variations.
Q [by Petitioner]. Without, at the minimum, ensuring that those
statements still met the constitutionally mandated safeguards or
Case No.: 5:17cvl8/MCR/EMT

Case 5:17-cv-00018-MCR-EMT Document 37 Filed 07/09/18 Page 47 of 153

Page 47 of 153
• • • •

THE WITNESS: We discussed letting the child hearsay in. We
actually had a hearing where I said we were fine with it coming in. I told
the Judge—in fact, I recall looking at this particular part of the video in
preparation for this. I recall telling the Judge that we wanted all of it to
come in.
He said we would have to have a hearing. And I said I think that’s
kind of what we’re doing now. There wasn’t really a waiver of the
hearing.
And let me point out that ifthere was a problem with the Judge not
making specific findings on the record related to that particular statute,
that would have been an appellate issue.
Q. (By The Defendant) And you discussed this with me?
A. You knew that we wanted the evidence to come in from all of
the different statements, yes, sir.
(Ex. I at 67-68).
Although Petitioner argues that Attorney Weekley testified falsely when he
stated he did not waive the § 90.803(23) hearing, it is clear from the trial transcript
that the issue of the admissibility of the victim’s hearsay statements was heard by the
court outside the presence of the jury. Because the defense stipulated to the admission
of the victim’s statements, the court did noUssue a ruling on the admissibility of the
statements, nor did the court make findings of fact as to whether the time, content, and
circumstances of the statement provided sufficient safeguards of reliability. The
Case No.: 5:17cvl8/MCR/EMT

Case 5:17-cv-00018-MCR-EMT Document 37 Filed 07/09/18 Page 49 of 153

Page 49 of 153

reliability; that the time, content and circumstances of the hearsay rule
exceptions met such—
A. I was confident that they would because the child hearsay, that
was the main part of the hearing, was the CPT interview, also,
disclosures that were made to other family members.
The theory of defense was: You can’t trust the credibility of the
mother; you can’t trust the credibility of the alleged victim. The
mother’s credibility was absolutely and totally destroyed.
If you’ve read the trial transcript, you saw Judge Rimmer’s
comments on the fact that the mother’s credibility was pretty much
destroyed. There’s no reason to go on and do some additional testimony.
The bottom line is the jury, at the end of the day, didn’t believe the
child hearsay because it was on a video or because it came through the
testimony of another person. They did not believe, in my opinion,
anything that the mother of the alleged victim had to say. The conviction
came back because they believed the testimony, in person, in court, of
the little girl.
THE COURT. Mr. Weekley, I think I understood it, but just to
make sure the record is clear, I take it there were some inconsistencies
between what the child said on the videotape, and the child hearsay and
then subsequent statements that she gave?
THE WITNESS: Minor descriptive terminology. Some things
were omitted from testimony; they were mentioned in the arrest report.
Camo shorts, which was part of what Mr. Savicki had disclosed in his
letters to earlier counsel. But the setup, where it occurred, how it
occurred, the limitation of what occurred, she was consistent on that.
In between her testimony, the Child Protection Team and her
testimony in court, she attended a deposition and refused to answer
questions.
Case No.: 5:17cvl8/MCR/EMT

Case 5:17-cv-00018-MCR-EMT Document 37 Filed 07/09/18 Page 50 of 153

Page 50 of 153

At trial, excused [sic] the jury, played the video, we impeached her
credibility on the basis that she did not answer those questions, as though
There were other minor
it were an inconsistent statement,
inconsistencies.
The great variation was from the mother in the DVI statements
versus what she said to law enforcement, or what she said to law
enforcement more matched what the daughter said than what she said in
the DVI petitions.
THE COURT. Okay. And would it be fair to say that as a defense
attorney, I mean, it is what it is, any you’ve got to make do [sic] with
what you’ve got to work with.
But any defense attorney would want to bring out the
inconsistencies that were present in the child’s testimony from statement
to statement.
THE WITNESS: Absolutely.
THE COURT: In other words, if the child hearsay did not come
in through the State’s case—I mean, suppose they never filed a notice of
intent to use child hearsay, that would have still been something you
wanted—you would have used to impeach the child.
THE WITNESS: Correct.
THE COURT: And it would’ve come in anyway.
THE WITNESS: Correct.
Q [by Petitioner]. And you’re—and you’re stating on the record
that I always agreed to this?
A. Yes. We had several discussion about it.

Case No.: 5:17cvl8/MCR/EMT

Case 5:17-cv-00018-MCR-EMT Document 37 Filed 07/09/18 Page 51 of 153

Page 51 of 153

Q. Who are the sole beneficiaries of the hearsay statements?
A. There was no sole beneficiary. We would have benefited [sic]
from any discrepancy in the statements, compared one nextTotheofher7
And, in fact, you encouraged me time and time again to attack the
statements, to attack the interview of the child, to attack the credibility
of the mother. That was the entire thing that you asked me to do. All
these other witnesses, all these other things, debit cards, Yahoo
messages, it was to further attack the credibility mainly of the mother.
(Ex. I at 790-795, 797-98).
Petitioner also challenges Attorney Weekley’s pre-trial investigation and trial
strategy, contending that Weekley failed to investigate any defense theories or pursue
a trial strategy. Petitioner argues:
[C]ounsel’s biggest fraud upon the Court is what counsel testified
was his defense theory, and it is critical that Petitioner point this out,..
. because the PC [post-conviction] Court’s denial of relief is based upon
counsel’s fraudulent testimony.
(ECF No. 17 at 18). Petitioner asserts Attorney Weekley “lied” and “fabricated” when
he testified that the defense strategy was to attack the credibility of both the victim and
her mother, Stacy Williams (see ECF No. 17 at 17-21; ECF No. 32 at 16-25,45-46).
Petitioner told the post-conviction court that he wanted Attorney Weekley to pursue
the theory that the 5-year-old child victim fabricated the allegation (i.e., that Petitioner
i

placed her hand on his bare penis and moved it back and forth), because the victim’s
mother, Stacy Williams, pressured the victim to do so. Petitioner wanted Attorney
Case No.: 5:17cvl8/MCR/EMT

Case 5:17-cv-00018-MCR-EMT Document 37 Filed 07/09/18 Page 52 of 153

Page 52 of 153

Weekley to pursue this theory by presenting evidence that Ms. Williams was a drug
addict, and wanted to get Petitioner out of the apartment they shared so that she could
steal and sell his used electronics to support her addiction. Petitioner also wanted
Attorney Weekley to show that Ms. Williams was motivated by retaliation for
Petitioner’s reporting to police, on August 28,2011, that Mr. James Dean Dickerson
kissed the victim on the lips, which caused chid protective services to become
involved in Ms. Williams’ life. Petitioner wanted Attorney Weekley to present
evidence including (1) testimony from the officer who arrested Ms. Williams for drug
possession on April 27,2012, (2) testimony of people who witnessed Williams’ drug
use and thefts of other roommates’ personal property (including testimony form Tarah
Freeman, Raymond Lloyd Tiller, Iesha Rochelle Gooden, and police officers who
accompanied Petitioner to the apartment on November 28,2011, to collect Petitioner’s
belongings after he was forced to leave on November 24, 2011), (3) testimony from
the officers who responded to Petitioner’s 911 call regarding James Dean Dickerson,
and (4) testimony from witnesses who either never saw Petitioner and the victim at the
apartment at the same time, or observed Petitioner’s interactions with the victim and
saw nothing inappropriate (including testimony from Tarah Freeman, Iesha Rochelle

Case No.: 5:17cvl8/MCR/EMT

Case 5:17-cv-00018-MCR-EMT Document 37 Filed 07/09/18 Page 53 of 153

Page 53 of 153

Gooden, Raymond Lloyd Tiller, Richard Henry Stephens, and James Dean
Dickerson).
Petitioner also wanted Attorney Weekley to pursue a second theory, that the
child victim may have been the victim of sexual molestation, but it was perpetrated
by someone else, for example, Mr. Dickerson or one of the many other roommates in
the apartment.

Petitioner wanted Attorney Weekley to pursue this theory by

presenting evidence including (1) testimony from witnesses who saw several other
roommates in the apartment (including testimony from Tarah Freeman), (2) testimony
from the officers who responded to Petitioner’s 911 call regarding James Dickerson’s
allegedly kissing the victim, and (3) testimony from witnesses that Mr. Dickerson
lived in the apartment after Petitioner made the 911 call (including testimony from
Tarah Freeman and Richard Henry Stephens).
Attorney Weekley testified as follows with respect to the trial strategy:
There were two alternatives that we discussed: You had raised
several times concerns about a person by the name of James, who had
been found kissing the alleged victim in your case. I think the phrase
that you repeated was: “Like a man kisses a woman”. That you had
called 911. You wanted to shift the blame to him and say that he was the
one who had done these things. We elected not to do that because the
allegations against the James person were different than the allegations
against you.

Case No.: 5:17cvl8/MCR/EMT

Case 5:17-cv-00018-MCR-EMT Document 37 Filed 07/09/18 Page 54 of 153

Page 54 of 153

For example, the allegations against James occurred in a common
living area with several children present in front of a television while the
child slept. The allegations against you were isolated to your room and
[the victim] only.
The alleged victim, [ ], elected not to say anything at all at her
deposition. I made you aware of the fact that there were some concerns
about the cooperation from the mother of the alleged victim and the
alleged victim, herself; and that it was a cleaner way and a better way to
attack the credibility, as you asked me to attack the credibility of the
mother of the alleged victim, and to stand by your assertion that you had
made across the board, that these things had not happened and you were
not guilty.
That was our theory of defense, in part, that the mother lied; that the
daughter was not trustworthy because she had refused to testify at the
deposition. I certainly did not go into the case arguing for the veracity
of what she said.
Q [by Petitioner]. So you’re stating on the record, Mr. Weekley,
that I agreed with your theory of defense, to attack the credibility of the
allegations that were made against me?
A. Yes.
Q. And you based that theory of defense upon what?
A. I based that theory of defense upon the best possible way to
proceed with what we had to work with.
Q. On what evidence?
A. On the evidence of the fact that the child and the mother were
at times uncooperative with the State, which would go against their
credibility; based upon the child showing up at the deposition and
refusing to answer any questions directly to either the State or the
Case No.: 5:17cvl8/MCR/EMT

Case 5:17-cv-00018-MCR-EMT Document 37 Filed 07/09/18 Page 55 of 153

Page 55 of 153

defense, going against her credibility; against the varying statements that
were made by the mother of the alleged victim that were each different
from the other, going against the credibility that she had, and there was
much more that went against her credibility, by her own admissions, at'
the trial. That was the theory of defense.
(Ex. I at 756-57, 768^69).
With respect to pre-trial investigation, Attorney Weekley testified he reviewed
the notes from the depositions taken by Petitioner’s first trial counsel, Attorney
Russell (Ex. I at 763). Attorney Weekley testified he also reviewed the notes from the
depositions of Stacy Williams (the victim’s mother), Michelle Zebracki (the victim’s
“aunt”), and the two depositions of Jerry Weekley (the victim’s uncle), and he
reviewed the videos of the victim’s CPT forensic interview and the victim’s
deposition (id.).
Attorney Weekley testified he was aware of the information in the police report
from November 28, 2011, which indicated that some items of Petitioner’s personal
property were located in Stacy Williams’ locked bedroom, and Weekley was aware
ofthe evidence that Ms. Williams was a drug addict, specifically, that she was arrested
for drug possession prior to Petitioner’s trial (Ex. I at 774-75). Attorney Weekley
testified:
If I recall the items, there were a couple of gaming systems and a
television. I would not have felt comfortable pursuing that as a theory
Case No.: 5:17cvl8/MCR/EMT

Case 5:17-cv-00018-MCR-EMT Document 37 Filed 07/09/18 Page 56 of 153

Page 56 of 153

of defense, for a jury, to say that she is enticing her daughter to make
accusations against you, and putting her through the stress of a trial to
testify against you for a couple of used gaming systems and other
electronics.
(Ex. I at 774). With respect to evidence of Ms. Williams’ drug use, Attorney Weekley
testified he did not spend time investigating whether she was a drug addict, but Ms.
Williams freely admitted she was a drug addict at trial (id.).
Attorney Weekley testified he made the decision not to contact Tarah Freeman,
Iesha Rochelle Gooden, Raymond Lloyd Tiller, Richard Henry Stephens, or James
Dean Dickerson “based on what [Petitioner] had to say about them, both what they
would say, their characteristics, their attitudes toward you.” (Ex. I at 787). Specifically
with respect to each witness, Attorney Weekley testified as follows:
Q [by Petitioner]. So Tarah C. Freeman—
A [by Attorney Weekley]. Uh-huh.
Q. —made you aware that she had warned me weeks prior to the
allegations to watch my back because Stacey Williams was going to set
me up?
A. That is not what you told me. You wrote to me in several
letters in fact, you provided, not only to myself, but also to Mr. Russell,
a list of questions to ask Ms. Freeman at deposition. None of those
questions related to your being set up.
You consistently said for the first few months of your
correspondence that Tarah Freeman had told you a few weeks before the
Case No.: 5:17cvl8/MCR/EMT

Case 5:17-cv-00018-MCR-EMT Document 37 Filed 07/09/18 Page 57 of 153

Page 57 of 153

mother of the alleged victim reported the alleged abuse to law
enforcement, that you had been molesting her daughter, to use your
phrase. You did say consistently that she told you to watch your back.
In evaluating whether that testimony would have been helpful at
trial, I also took into account that you told me that Ms. Freeman had been
kicked out of the house by the mother of the alleged victim.
And in reviewing the Department of Children and Families’ report
related to the mother of the alleged victim, that she had told Department
of Children and Families that she had kicked several people out of the
house for drug use.
I also took into account your characterization of her, that she was
part of the group that you referred to as drug addicts.
Her testimony about the mother having told her about the
allegations earlier in time than were reported to law enforcement would
probably only have served to impeach the credibility of the mother, to
show that she wasn’t a good mother for not having made law
enforcement aware of those allegations earlier.
Also, if we had called Ms. Freeman, she could have been
impeached by Ms. Williams, the mother of the alleged victim, on rebuttal
evidence by the State, that she was motivated to get revenge for Ms.
Williams having kicked her out of the house.
You also say, in your 3.850, that Ms. [Freeman] was available.
But in your correspondence to me, you asked me to go to her and, to
inform her of how long you had been in jail; what the penalty was that
you were facing for the allegations made against you; to act as though I
had copies of text messages between you and her that was her warning
you to watch your back; and that I had to do that or else she might not
cooperate.

Case No.: 5:17cvl8/MCR/EMT

Case 5:17-cv-00018-MCR-EMT Document 37 Filed 07/09/18 Page 58 of 153

Page 58 of 153

Q. But I did tell you that Tarah C. Freeman did warn me to watch
my back?
A. That is correct.
And here’s my point, Mr. Savicki, your first few months of
correspondence, the phrase consistently came up that you had been
warned to watch your back.
No mention of: She had set me up.
At some point into the correspondence, you began to say, well,
maybe this is the reason the mother has made the allegations against me,
is that she was setting me up.
And then as soon as the trial is over, your correspondence to
Regional Conflict Counsel, the people that follow me, is that she was
going to testify that I had been set up. That is not what you told me.
Q. Sol never wrote you that?
A. You wrote me that she told you to watch your back, but you
never wrote me that she was going to come forward and say that she
knew, based upon statements made by the mother, that all of the
allegations against you were made up.
Q. Did I not also inform you that Tarah was there on one evening
when, the one or two times that I recall that [the victim] was there at the
same time, and that Tarah would testify that she did not observe any odd
reactions to my presence from [the victim]?
A. There was an ethical reason for which I would not have been
able to call her to testify to that.
[Y]ou had also disclosed to me and to Mr. Russell prior to me, that
there was an event that you referred to as an innocent event, where the
Case No.: 5:17cvl8/MCR/EMT

Case 5:17-cv-00018-MCR-EMT Document 37 Filed 07/09/18 Page 59 of 153

Page 59 of 153

alleged victim came into your bedroom and snatched the covers off of
you while you were wearing camouflage shorts. You refer to that about
six times in your correspondence.
Many of the witnesses that you complain that I didn’t investigate
and call, you wanted me to ask of them: Isn’t it true that they were never
around each other; that there wasn’t an opportunity for them to do that?
I don’t ethically—because of my candor responsibility to the
Court, I can’t put you on the stand and ask that. And I think it’s thin
ethical grounds for me to try to get that sort of a denial in through a
third-party witness, when I know that to not be true based upon what
you’ve told me.
(Ex. I at 778-83).
With regard to Iesha Rochelle Gooden, Attorney Weekley testified that
Petitioner informed him that Ms. Gooden was the girlfriend of Raymond Tiller, and
that Tiller had told another person that Petitioner admitted to him (Tiller) that he had
engaged in the sexual molestation of which he was accused (Ex. I at 784). Attorney
Weekley continued:
I didn’t have any interest in trying to find a witness that could lead
the State to someone who would make an allegation, whether true or not,
that you had made an admission. Because one of the strengths of our
case was that you had consistently denied that you had done it.
To try to track somebody down that might lead the State to a
person who would make that allegation against you, possibly, was not in
your best interest.

Case No.: 5:17cvl8/MCR/EMT

Case 5:17-cv-00018-MCR-EMT Document 37 Filed 07/09/18 Page 60 of 153

Page 60 of 153

Further, you warned me that one of the ways that I could find her
was to go through Mr. Tiller, who for a while was housed with you at the
Santa Rosa County Jail.
But I think the phrase that you used, to be specific and refresh my
recollection, that: He would be a reluctant hostile witness. If Ray thinks
it will help me, he may not help. Take caution. He told a friend of mine
that I admitted to doing it. So anybody connected with Mr. Tiller is not
a witness that I’m interested in calling.
Plus, what she would testify to about you and the mother
disagreeing over your calling DCF or having arguments about that, DCF
was called on her, by your letters and by the reports that I read, by
people other than yourself.
Q [by Petitioner]. That is correct.
A. Okay. So I don’t know that there’s a great evidentiary value
in finding motivation that she doesn’t want DCF being called on her,
when DCF is constantly being called on her, according to what we
reviewed.
Q. Okay. Fair enough.
And the same stuff with Raymond Lloyd Tiller—
A. And again, I refer back to my answer on Ms. Gooden. I do not
think am doing you any favors to look for anyone who you tell me has
told another person you said you did it; or who you tell me, I’ve got to
use caution or my investigator has to use caution because they’re going
to be a hostile witness; if they know it’s for me, they’re not going to
help. Why am I going to track these people down? Because if they
become aware that you have a case, they become aware that we’re
investigating the case and we might involve them—let’s assume for a
moment that they say the few small things that might further impeach the
credibility of the mother of the alleged victim, why would we open the
Case No.: 5:17cvl8/MCR/EMT

Case 5:17-cv-00018-MCR-EMT Document 37 Filed 07/09/18 Page 61 of 153

Page 61 of 153

door to the possibility that the State may elicit from them alleged
admissions that you made about what you’re charged with? That has no
logic.
Q. How about conversely, maybe they verify everything that I say
and other evidence that I don’t even know anything about. All I can tell
you in my letters to you—
A. I don’t do my investigations based on speculation. I made my
decisions to talk to or not talk to witnesses based upon what you told me
in your correspondence.
And hold on for one second. Let me clarify. Based upon what
you told both Mr. Russell and myself, because some of the information
I’m referring to was disclosed to Mr. Russell and Ms. Edwards from the
Public Defender’s Office prior to them conflicting off of the case. So,
with the benefit of the full file and your statements in your
correspondence to all the attorneys, including myself, that was why I
made my decisions.
Q. But referring back to Tarah Freeman, I made you aware of text
messages between her and myself on the night that Stacey Williams
called law enforcement on me?
A. You mentioned text messages.
Q. And that the substance of those text messages would have been
from myself to her: You won’t believe what Stacey just did.
From her to me: I tried to warn you, did I not?
From me back to her: I need you to fill out a statement.
And she said that she would and asked me: What do you want me
to say?

Case No.: 5:17cvl8/MCR/EMT

Case 5:17-cv-00018-MCR-EMT Document 37 Filed 07/09/18 Page 62 of 153

Page 62 of 153

And I specifically said: The truth, please. Oh, God. Do not lie.
Just tell the truth.
A. I never had the benefit of any text messages. I know what you
wrote. There were several times that you would recount in detail each
party’s side of the conversation through messenger, Facebook, texts.
The bottom line on what you told me about Ms. Freeman was that she
made a report to you earlier than the mother reported to law enforcement
of allegations against you.
You never told me that she would come forward and say: The
mother said, I’m going to set him up.
You drew a conclusion in later letters that that is what was going
on and that her telling you that the mother of the alleged victim had said
that you were doing this to her daughter, and watch your back, must have
been a sign from her. You speculate that she knows more. You never
said: This is what she told me.
But there were other people in the case, as well, that you said
heard about the allegations days or weeks before, that they were reported
to law enforcement. Calling Tarah Freeman—
Calling Tarah Freeman would not have helped your case. It was
not a silver bullet or a smoking gun without some other admission from
the mother of the alleged victim, which never came.
Q. Did I not inform you that Richard Henry Stevens would testify
that James Dickerson was allowed to move into a bedroom upstairs?
A. You told me that.
And you also told me that he was the boyfriend of the alleged
victim’s mother and that he was a sex offender who was not suppose
[sic], to be living at that address.

Case No.: 5:17cvl8/MCR/EMT

Case 5:17-cv-00018-MCR-EMT Document 37 Filed 07/09/18 Page 63 of 153

Page 63 of 153

Q. That is correct.
A. So what value—I’m sorry. Go ahead.
Q. And that Richard Henry Stevens, as well as the other
roommates, would testify that I had threatened to call DCF on Stacey?
A. I do not believe that Mr. Stevens would have been willing to
testify on your behalf about that matter because it would have required
him to admit that he was at a location he was not supposed to be at.
Q. And when did you come up with that assertion?
A. When I read your letter informing me that he was a sex
offender who was not supposed to be living at that address.
Q. Okay.
(Ex. I at 784-90).
With regard to James Dean Dickerson, Attorney Weekley explained:
I’ll tell you the problem with talking about James is she [the
victim] never mentioned another name. If there had been: I’m not sure
who did it, it was a guy who lived with my mom, or stayed with my
mom, or it was a guy whose name started with “J”, and perhaps it was
James instead of Joseph; if the allegation had been that you had caught
them in your room; if the allegation had been that that happened [i.e.,
James’ kissing the victim] when she was alone and not surrounded by
other people, with him; if there was some other similarity other than the
fact that there was a person who was inappropriate with the child, not as
inappropriate as what you were alleged to have done, but some
inappropriate action with an adult male, that wasn’t enough to run with,
in my opinion.
(Ex. I at 795).
Case No.: 5:17cvl8/MCR/EMT

Case 5:17-cv-00018-MCR-EMT Document 37 Filed 07/09/18 Page 64 of 153

Page 64 of 153

V Although Attorney Weekley’s strategy did not yield the outcome that he and
Petitioner desired, it was nevertheless a reasonable one to pursue, and thus counsel
was not ineffective. There was strong evidence supporting the defense theory that Ms.
Williams fabricated the allegation, and that the victim’s testimony was untrustworthy. K
■*C“.

—

^

Attorney Weekley pursued this theory by presenting evidence that Ms. Williams was
a perpetual liar. Attorney Weekley impeached Ms. Williams with factual conflicts in
the statements she provided to police, to the courts in a separate civil matter, and in
her trial testimony, and Attorney Weekley even elicited Ms. Williams’ admissions at
trial that she was a drug addict and had provided false sworn statements to the police
and to the court (in a separate civil proceeding) regarding the molestation allegation
against Petitioner.
Additionally, Attorney Weekley impeached the victim’s trustworthiness by
eliciting her testimony that after her initial statements during the CPT interview, she
(1) could not describe what “Joe” looked like, (2) did not know what color “Joe’s”
hair was, (3) could not say what a “private part” was, and (4) could not say whether
anything had happened to her (Ex. B at 36-37, 59, 62-64). Attorney Weekley also
elicited the victim’s testimony that she did not tell her “aunt,” Michelle Zebracki, or
her uncle, Jerry Weekley, about the sexual molestation (Ex. B at 37), which conflicted

CaseNo.: 5:17cvl8/MCR/EMT

Case 5:17-cv-00018-MCR-EMT Document 37 Filed 07/09/18 Page 65 of 153

Page 65 of 153

with the testimony of Michelle Zebracki and Jerry Weekley that the victim told both
of them about it (Ex. B at 153-56, Ex. C at 188). Attorney Weekley additionally
elicited the victim’s testimony that she did not remember being in a room with a
woman named Leilani and coloring with her (i.e., referring to the CPT forensic
interview) (Ex. B at 37-38), and then Leilani Mason testified that she interviewed the
victim, and a videotape of the interview was published to the jury, during which the
victim was clearly coloring {id. at 71, 74-95).
Attorney Weekley also impeached the victim’s credibility through his crossexamination of CPT Case Coordinator Leilani Mason. Attorney Weekley elicited Ms.
Mason’s testimony that the victim told her that “Joe” touched her four times, but when
Ms. Mason asked the victim about multiple times, the victim responded that she did
not know about the other times (Ex. B at 98-99). Attorney Weekley also presented
evidence, through the victim’s statements during her forensic interview, that her
mother, Ms. Williams, was mad at Petitioner, thereby suggesting a motive for Ms.
Williams to make a false molestation report to police.
Presenting evidence of the weaker theory (i.e., that the victim may have been
molested, but someone else did it) would have diluted the strength of the theory that
the victim was fabricating. Additionally, as pointed out by the state post-conviction

Case No.: 5:17cvl8/MCR/EMT

Case 5:17-cv-00018-MCR-EMT Document 37 Filed 07/09/18 Page 66 of 153

Page 66 of 153

court, there were numerous problems with investigating and presenting the evidence
that Petitioner wanted Attorney Weekley to present, including admissibility issues,
credibility issues, and the fact that some of the evidence was a “double-edged sword”
that likely would have been more harmful than helpful to the defense.
As the Eleventh Circuit stated in Dill v. Allen:
In light of the reasonableness standard set forth by the Strickland
Court, our circuit maintains that constitutionally sufficient assistance of
counsel does not require presenting an alternative—not to mention
unavailing or inconsistent—theory of the case. See Johnson v. Alabama,
256 F.3d 1156, 1178 (11th Cir. 2001) (finding no ineffective assistance
of counsel where apetitioner’s “now-preferred ‘third man’ defense” was
“not compatible” with the information he conveyed to trial counsel when
formulating strategy pre-trial); Williamson v. Moore. 221 F.3d 1177,
1180 (11th Cir. 2000) (finding no ineffective assistance of counsel where
a reasonable attorney could have deemed an alternative theory
“inconsistent with Petitioner’s own description of the killing”). That is,
we will not find ineffective assistance of counsel simply because a
petitioner’s counsel failed to chronicle every possible theory ,o£-4hcrelevant facts. See Chandler, 218 F.3d at 1318 (en bancXt“[C]ounsel’s
reliance on particular lines of defense to the exclusion of
others—whether or not he investigated those other defenses—is a matter
of strategy and is not ineffective unless the petitioner can prove the
chosen course, in itself, was unreasonable.”). Reasonableness, indeed,
suggests that atrial counsel would weigh competing theories and choose
to present the most compelling theory among the various options. Id. at
1315 n. 16. Petitioner’s constitutional right to effective assistance of
counsel did not require counsel to channel Scheherazade in recounting
myriad possible theories.
488 F.3d 1344, 1357 (11th Cir. 2007).

Case No.: 5:17cvl8/MCR/EMT

Case 5:17-cv-00018-MCR-EMT Document 37 Filed 07/09/18 Page 67 of 153

Page 67 of 153

Here, the state court reasonably determined that Attorney Weekley made a
reasonable strategic decision to focus on one trial strategy. The court also reasonably
concluded that reasonable professional judgments supported Attorney Weekley’s
decisions to limit his investigation of Petitioner’s suggested witnesses, and to allow
admissi

;hevictim’s hearsay statements. It is possible that fairminded jurists

could disagree as to the reasonableness of Attorney Weekley’s decisions; however,
this potential for disagreement precludes this federal court from granting habeas relief
on this claim. See Harrington. 562 U.S. at 786 (“A state court’s determination that a
claim lacks merit precludes habeas relief so long as fairminded jurists could disagree
on the correctness of the state court’s decision.”); id (§ 2254(d) preserves the federal
court’s authority to issue the writ in cases where “there is no possibility fairminded
jurists could disagree that the state court’s decision conflicts with this Court’s
precedents); see also Holsev v. Warden. Ga. Diagnostic Prison. 694 F.3d 1230,1257
(11th Cir. 2101) (“[I]f some fairminded jurists could agree with the state court’s
decision, although others might disagree, federal habeas relief must be denied.”);
Morris v. Sec’v. Dep’t of Corr.. 677 F.3d 1117, 1127 (11th Cir. 2012) (if, at a
minimum, fairminded jurists could disagree about the correctness of the state court’s
decision, the state court’s application of Supreme Court precedent was not

Case No.: 5:17cvl8/MCR/EMT

Case 5:17-cv-00018-MCR-EMT Document 37 Filed 07/09/18 Page 68 of 153

Page 68 of 153

unreasonable, and AEDPA precludes the grant of habeas relief) (citing Harrington,
supra); Johnson v. Sec’v. Dep’t of Corr., 643 F.3d 907, 910 (11th Cir. 2011) (“. . .
only ‘if there is no possibility fairminded jurists could disagree that the state court’s
decision conflicts with [the Supreme] Court’s precedents’ may relief be granted.”)
(quoting Harrington, supra).
With respect to Strickland’s prejudice prong, the state court reasonably
concluded that Petitioner failed to show a reasonable probability that the outcome of
trial would have been different if Attorney Weekley had challenged the admissibility
of the victim’s hearsay statements, and investigated and presented the evidence that
Petitioner faults him for not pursuing (i.e., testimony from Tarah Freeman, Iesha
Rochelle Gooden, Raymond Lloyd Tiller, Richard Henry Stephens, James Dean
Dickerson, and the police officers who responded to the apartment in August and
November of 2011). See Evans v. Sec’v. Dep’t of Corr., 703 F.3d 1316, 1328-33
(11th Cir. 2013) (holding that it is reasonable Tor a state court to conclude that a
petitioner fails to establish prejudice when the evidence that defense counsel failed to
introduce was a“double-edged sword” that likely would have been more harmful than
helpful) (citations omitted).

Case No.: 5:17cvl8/MCR/EMT

Case 5:17-cv-00018-MCR-EMT Document 37 Filed 07/09/18 Page 69 of 153

Page 69 of 153

As a final matter, the undersigned rejects Petitioner’s argument that the state
court failed to provide him an opportunity to develop and present the factual basis for
his claims. Nothing in the record suggests that the state court did not give appropriate
consideration and weight to Petitioner’s proffer of the evidence he faulted Attorney
Weekley for not presenting at trial. Petitioner proffered the essence of this evidence
in his second amended Rule 3.850 motion, in the numerous attachments to the motion,
and during the evidentiary hearing (in both his questions posed to Attorney Weekley
and in his direct exchanges with the court) {see Ex. H at 455-600, Ex. I at 601-05,
685-98, 730-800, Ex. J at 801-30). At the beginning of the evidentiary hearing, the
state court told Petitioner, “I want to hear you proffer what these witnesses would
have said and how it’s relevant to what you’re convicted of.” (Ex. I at 742). The court
advised Petitioner that if it appeared that his proffer was sufficient to warrant further
factual development, the court would bifurcate the hearing and provide Petitioner an
additional opportunity to present evidence {id.). After Attorney Weekley testified, the
court provided Petitioner the opportunity to present all of the evidence available to
him, and to proffer what any other witnesses or evidence would show (Ex. J at 809).
The court reiterated that it would consider the trial transcript and all of Petitioner’s
submissions {id. at 813-28). With respect to additional witnesses, the court ruled:

Case No.: 5:17cvl8/MCR/EMT

Case 5:i7-cv-00018-MCR-EMT Document 37 Filed 07/09/18 Page 70 of 153

Page 70 of 153

THE COURT: [B]aSed on what I’ve heard, I don’t think it’s
necessary to call the other witnesses, I don’t think there’s any value to
it. I think defense counsel clearly made his trial strategy not to call the
witnesses, not to contact them for the reasons he stated.
Mr. Weekley is an excellent attorney. He’s been doing this a long
time. He shows very good judgment in the cases that he’s tried with me
and other court proceedings. And his explanations on the stand today,
as to why he didn’t contact or call the witnesses that you allege he should
have called, I don’t think it’s necessary for me to hear from those
witnesses.
A lot of the statements you are attributing to those witnesses
would have been inadmissible at atrial. Just a blanket, vague statement
by somebody, quote: He set me up, or she set me up, or I think she’s
trying to set you up, or I told you, that, by itself, is not admissible in
court. And for the strategy reasons he discussed, I don’t think it’s
necessary for me to hear other witnesses.
I mean, especially the ones that attribute an admission by the
defendant.
The last thing you’re going to do as a defense counsel is contact
somebody who may open the door to that and give the State access to
information that they don’t already possess that’s incriminating to your
client. That not only is a good strategy decision not to follow up on that,
I think it would’ve been malpractice to have done anything differently.
As far as witnesses who might have testified that this was not first
reported to law enforcement, you’re opening up the door to getting
evidence in front of a jury that the child and/or the mother accused the
defendant of this and made statements to other people that it happened.
What little value you might get out of a delay in reporting would be more
than off set by allowing the State access to incriminating information
against your client that there had been other accusation— that it—it
would buttress the reporting. You know, the more times a victim reports
Case No.: 5:17cvl8/MCR/EMT

Case 5:17-cv-00018-MCR-EMT Document 37 Filed 07/09/18 Page 71 of 153

Page 71 of 153

something to somebody, the more believable it becomes. As a matter of
fact, that’s why there’s a rule against it. You can’t get a witness on the
stand and say—in most cases, there are exceptions to this. Generally, you
can’t buttress the testimony ofyour witness by talking about out-of-court
statements made by that same witness.
What Defendant is suggesting his attorney should have done is
ignore these rules, ignore the fact that even the State is not trying to get
that in evidence and go ahead and put it on yourself. I think that would
be crazy.
I won’t comment on all the testimony and all the witnesses. I’ll
do that more in detail in a written order as to why I think it was sound
strategy not to call and investigate the witnesses. But I don’t think it’s
necessary for me to hear from the witnesses based on what’s been
proffered to me.
(Ex. J at 810-13).
Additionally, to the extent Petitioner argues the state court’s adjudication of the
merits is not entitled to deference because the state court denied his request to
transcribe the pre-trial depositions of Stacy Williams, Michelle Zebracki, and Jerry
Weekley, and include the transcripts in the post-conviction record (see Ex. I at
711-13, Ex. J at 900-01) his argument is unavailing. At the state court evidentiary
hearing, Petitioner questioned Weekley about why he did not obtain the transcripts.
Attorney Weekley responded:
THE WITNESS: With the exception of the alleged victim, who
we had on video, the mother of the alleged victim, whose deposition I
did, Leilani Mason, who filed the CPT report and the video, I thought
Case No.: 5:17cv 18/MCR/EMT

Case 5:17-cv-00018-MCR-EMT Document 37 Filed 07/09/18 Page 72 of 153

Page 72 of 153

that Jerry Weekley and Michelle Zebracki were more helpful to us than
otherwise.
If I’m going to get a transcript of somebody’s deposition, it’s so
that I can catch them to impeach them. I don’t typically prepare to
impeach witnesses that I think might actually be helpful. I didn’t need
to get the transcript of the mother’s testimony at deposition because we
had so much in her handwriting and so much other statements that she
made to law enforcement. I didn’t need the transcript of the deposition
of the alleged victim because she really didn’t say anything on video. I
didn’t need the transcript of Leilani Mason because I had a detailed
report that CPT investigators always refer to, very seldom vary from, and
a video of what she did when she was talking to the alleged victim. I had
what I needed for trial.
(Ex. I at 799-800).
Petitioner did not proffer to the state court how the transcripts of the pre-trial
depositions would have provided factual support for his claims that Attorney Weekley
was ineffective for failing to conduct pre-trial investigation, failing to challenge
admission of the victim’s hearsay statements, or failing to present certain witnesses
at trial; nor did Petitioner proffer how the how the transcripts would have provided
factual support for his showing of prejudice.5

Therefore, the state court’s

5 The pre-trial depositions are the subject of Petitioner’s pending requests that this federal
court assist him in obtaining the transcripts (ECF Nos. 35, 36). Petitioner states that on May 19,
2018, he spoke with Jerry Weekley. Jerry Weekley is the victim’s uncle and was called as a defense
witness at trial. Petitioner alleges Jerry Weekley told him the content of his pre-trial deposition.
Petitioner alleges Jerry Weekley told him that at the deposition, Weekley informed Petitioner’s trial
counsel that he was told, by his aunt, that the two of them (Jerry Weekley and Attorney Timothy
Weekley) were related. The state court’s failure to grant Petitioner’s request for the deposition
transcript did not prevent Petitioner from discovering this fact. The trial transcript shows that this
Case No.: 5:17cvl8/MCR/EMT

Case 5:17-cv-00018-MCR-EMT Document 37 Filed 07/09/18 Page 73 of 153

Page 73 of 153

failure to grant Petitioner’s request did not render the court’s adjudication of the IATC
informatiorr(i.er,-thatlerry~Weekley’s-aunti;old-him-that-he-and“trial-counsehwereTdated7±)utthat
neither counsel nor Jerry Weekley knew if that was true, and the two did not know each other) was
brought out at trial (Ex. C at 187-88).
Petitioner also alleges Jerry Weekley told him that he told Attorney Weekley that after
Petitioner left Ms. Williams’ apartment in November of 2011, Mr. Dennis Thurman moved in; but
then Ms. Williams kicked him out and stole his belongings, just as she did to Petitioner. Petitioner
alleges this provides more support for his claim that Attorney Weekley was ineffective for failing
to present evidence that Ms. Williams fabricated the allegation for financial gain. Even if this
information was part of the state court record, it would not demonstrate that the state court’s
rejection of Grounds Six or Seven was unreasonable. The court reasonably concluded that the
monetary gain theory (i.e., that Ms. Williams was motivated to falsely accuse Petitioner because she
wanted to steal and sell his used electronics to support her drug habit) would not have been an
effective means of impeaching Ms. Williams, and that her numerous inconsistent statements was a
much stronger means of impeachment.
Petitioner additionally alleges Jerry Weekley told him that he told Attorney Weekley that
Ms. Williams (the victim’s mother) had made “new allegations” against him (Jerry Weekley), but
that a protective services investigator told him that the allegations were not pursued because the
investigator “kept catching Ms. Williams lying.” In Petitioner’s case, defense counsel destroyed Ms.
Williams’ credibility at trial by eliciting her admission that she had previously provided false
information in a sworn written statement to police and in three sworn written statements to the court
(in a different civil proceeding) (see Ex. B at 116-17,119-25,135-42). Furthermore, evidence that
Ms. Williams had accused others of sexually abusing the victim had no bearing on the credibility
of the victim’s testimony and thus would not have been admissible to impeach the victim. Cf. Sec’v.
Fla. Dep’t of Corr. v. Baker. 406 F. App’x 416, 424-25 (11th Cir. 2010) (evidence that the same
victim accused others of sexual abuse may be used to cross-examine a witness about false
allegations of sexual abuse).
With respect to Michelle Zebracki’s deposition, Petitioner did not proffer, either in state
court or this federal court, what a transcript of her pre-trial deposition would show, let alone that it
would support any of his IATC claims. Petitioner submitted to this court “Facebook messenger
responses” obtained by Petitioner’s mother and allegedly posted by Ms. Zebracki (see ECF No. 35).
In these Facebook messages, all of the information that Ms. Zebracki states she provided to
Petitioner’s trial counsel related to Stacy Williams’ (the victim’s mother) lying. As previously
discussed, Attorney Weekley elicited Ms. Williams’ admission at trial that her testimony
contradicted her sworn written statements provided to police and the courts. Therefore, Petitioner
has not shown that the state court’s denial of Petitioner’s request for the deposition transcripts
rendered the state court’s adjudication of his IATC claims contrary to or an unreasonable application
of clearly established federal law.
Case No.: 5:17cvl8/MCR/EMT

Case 5:17-cv-00018-MCR-EMT Document 37 Filed 07/09/18 Page 74 of 153

Page 74 of 153

claims contrary to or an unreasonable application of clearly established federal law.
Ground Three: “IOC fsic)—failure to challenge the competency of the
C.
alleged victim to testify and seek a psychological expert’s opinion.”
Petitioner claims that Attorney Weekley was ineffective for failing to challenge
the competency of the child victim to testify (ECF No. 17 at 22-25; ECF No. 32 at
27-33). Petitioner also faults counsel for failing to engage the services of a
psychological expert to determine whether the victim was competent to testify and
whether the victim was coached and manipulated by her mother (id).
Respondent concedes Petitioner exhausted this LATC claim (ECF No. 27 at
19-20). Respondent contends the state court’s adjudication of the claim was not
contrary to or an unreasonable application of clearly established federal law (id. at
20-22).

1.

Clearly Established Federal Law

The Strickland standard, set forth supra, governs this claim.
2.

Federal Review of State Court Decision

Petitioner presented this claim as Claim #2 of his second amended Rule 3.850
motion (Ex. H at 459-60). The state circuit court adjudicated the claim as follows:
Claim Two—Failing to Object to Court’s Lack of Finding Child
Victim Competent

Case No.: 5:17cvl8/MCR/EMT

Case 5:17-cv-Q0018-MCR-EMT Document 37 Filed 07/09/18 Page 75 of 153

Page 75 of 153

Defendant next alleges that counsel was ineffective for failing to
challenge the child victim’s competency. Defendant also alleges counsel
was ineffective for failing to object to the Court not making a finding
that the child victim was competent to testily as required by section
90.605(2), Florida Statutes. Defendant claims the child victim did not
demonstrate she understood a “moral obligation to tell the truth and the
duty not to lie.” Defendant further alleges that counsel could have
challenged the child victim’s competency by using existing case
precedent and consulting with a psychological expert to determine
whether the child victim was competent to testify. Defendant also
contends that since counsel “having nothing to lose and everything to
gain by objecting” could have objected and prevented the State from
proving the offense as the child victim was the only alleged eye witness.
Defendant alleges that without the child victim’s testimony, the jury
could not have found Defendant guilty.
Initially, it appears this claim might be facially insufficient as
Defendant fails to allege there is a reasonable probability that the results
of Defendant’s trial would have been different if counsel had challenged
the child victim’s testimony or objected to the Court’s failure to make a
finding regarding the child victim’s competency. Defendant basically
alleges that counsel had “nothing to lose” in objecting to the child
victim’s competency which is not an allegation that lends itself to
finding it is “reasonably probable” a different result would have
occurred.
Even if this claim were not facially insufficient, the record refutes
Defendant’s claim. Contrary to Defendant’s allegations, the Court did
in fact find that the child victim was competent to testify.[FN 21]
Additionally, even though this claim was not set for evidentiary hearing,
counsel testified in response to Defendant’s questions at [the] evidentiary
hearing that he did not believe the child victim was incompetent. The
Court finds that the record supports counsel’s opinion that the child
victim was competent to testify.[FN 22] Consequently, the Court finds
there was no valid basis for counsel to object to the child victim’s
testimony. The Court further finds that if counsel had objected, the
Case No.: 5:17cvl8/MCR/EMT

Case 5:17-cv-00018-MCR-EMT Document 37 Filed 07/09/18 Page 76 of 153

Page 76 of 153

Court would have overruled the objection and the child victim would
have been permitted to testify. As the Court made the finding that the
child victim was competent to testify, and because the record shows the
child victim was competent,[FN 23] Defendant has failed to demonstrate
that counsel was deficient or that Defendant was prejudiced. Defendant
is not entitled to relief as to this claim.
(Ex. J at 908-09) (footnotes citing to trial transcript and evidentiary hearing transcript
omitted). The First DCA affirmed the decision without written opinion (Ex. U).
Although an ineffective assistance of counsel claim is a federal constitutional
claim which the court considers in light of the clearly established law of Strickland.
when “the validity of the claim that [counsel] failed to assert is clearly a question of
state law, ... we must defer to the state’s construction of its own law.” Alvord v.
Wainwright. 725 F.2d 1282, 1291 (11th Cir. 1984) (explaining, in the context of an
ineffective assistance of appellate counsel claim, that “[o]n the one hand, the issue of
ineffective assistance—even when based on the failure of counsel to raise a state law
claim—is one of constitutional dimension,” but, “[o]n the other hand, the validity of
the claim [counsel] failed to assert is clearly a question of state law, and we must defer
to the state’s construction of its own law.”) (citations omitted)6; see also Callahan v.
Campbell. 427 F.3d 897, 932 (11th Cir. 2005) (holding that defense counsel cannot

6 Alvord was superseded by statute on other grounds as noted in Hargrove v. Solomon, 227
F. App’x 806 (11th Cir. 2007).
Case No.: 5:17cvl8/MCR/EMT

Case 5:17-cv-00018-MCR-EMT Document 37 Filed 07/09/18 Page 77 of 153

Page 77 of 153

be deemed ineffective for failing to make a state-law-based objection when the state
court has already concluded that the objection would have been overruled under state
law; to conclude otherwise would require the federal habeas court to make a
determination that the state court misinterpreted state law, which would violate the
fundamental principle that federal habeas courts should not second-guess state courts
on matters of state law); Herring v. Sec ‘v Dep’t of Corr.. 397 F.3d 1338, 1354-55
(11th Cir. 2005) (denying federal habeas relief on ineffective assistance claim based
on counsel’s failure to make state law-based objection; holding that the Florida
Supreme Court’s conclusion that the proposed objection would have been overruled
was binding and precluded federal habeas relief on the ineffective assistance claim:
“The Florida Supreme Court already has told us how the issues would have been
resolved under Florida state law had [petitioner’s counsel] done what [petitioner]
argues he should have done.... It is a ‘fundamental principle that state courts are the
final arbiters of state law, and federal habeas courts should not second-guess them on
such matters.’”) (alterations in original) (quoting Agan v. Vaughn. 119 F.3d 1538,
1549 (11th Cir. 1997)).
A witness’s competency to testify is a matter of state law. See Fla. Stat.
§§ 90.602, 90.603. Here, as in Alvord. Callahan, and Herring, the state court has

Case No.: 5:17cvl8/MCR/EMT

Case 5:17-cv-00018-MCR-EMT Document 37 Filed 07/09/18 Page 78 of 153

Page 78 of 153

already answered the question of whether counsel had a meritorious basis to object to
the child victim’s competency to testify—counsel did not. This court must defer to
the state court’s determination of state law. The failure by Petitioner’s counsel to raise
this issue cannot be deemed deficient performance, and Petitioner cannot show he was
prejudiced by counsel’s failure to raise this issue, because it had no arguable basis for
success. Therefore, Petitioner is not entitled to relief on this aspect of his IATC claim.

With respect to counsel’s failure to engage the services of a psychological
expert to determine if the victim was competent to testify, and whether the victim was
coached and manipulated by her mother, Petitioner’s assertions as to what an expert
would have concluded, if an expert had examined the child, are purely speculative.
Petitioner’s unsupported speculation is insufficient to show that counsel’s failure to
secure the services of an expert was deficient. Petitioner’s speculation is also
insufficient to show that there is a reasonable probability the expert would have
opined that the victim was not competent to testify, or that the victim’s allegation was
the product of coaching or manipulation.
Petitioner failed to demonstrate that the state court’s adjudication of this IATC
claim was based upon an unreasonable determination of the facts, or that it was

Case No.: 5:17cvl8/MCR/EMT

Case 5:17-cv-00018-MCR-EMT Document 37 Filed 07/09/18 Page 79 of 153

Page 79 of 153

contrary to or an unreasonable application of Strickland. Therefore, he is entitled to
federal habeas relief on Ground Three.
D.
Ground Four: “IOC [sic!—failure to challenge tainted, unreliable in­
court identification where prosecutor pointed to Petitioner.”
Petitioner alleges prior to trial, the victim did not visually identify the
perpetrator, and instead identified the perpetrator only by the name “Joe” (ECF No.
at 17 at 27-33; ECF No. 32 at 33-37). Petitioner alleges the victim could not
physically describe “Joe” during her deposition other than that he was white, and the
victim could not state when she last saw “Joe” (id).

Petitioner alleges law

enforcement relied upon the victim’s mother (Stacy Williams) to identify “Joe,” but
Ms. Williams had a motive to falsely accuse Petitioner (i.e., she wanted to steal and
sell Petitioner’s used electronics to support her drug habit) (id.). Petitioner alleges
during the child victim’s trial testimony, the prosecutor pointed to Petitioner and
asked if the victim knew “who the man is over in the red shirt,” and the victim
responded, “Joe”; however, when the victim was asked if she knew “Joe,” had ever
seen “Joe” before, and several other questions, the victim answered in the negative
(id.). Petitioner alleges at no time was he identified as the perpetrator (id.). Petitioner
also alleges James Dean Dickerson may have molested the victim, because Dickerson
was caught kissing the victim (id.). Petitioner contends Attorney Weekley was
Case No.: 5:17cvl8/MCR/EMT

Case 5:17-cv-00018-MCR-EMT Document 37 Filed 07/09/18 Page 80 of 153

Page 80 of 153

ineffective for failing to object to the in-court identification as “tainted” (id.).
Petitioner contends that if counsel had objected, “the jury could have rendered a
different verdict because of a reasonable doubt as to identity” (id. at 33).
Respondent concedes Petitioner exhausted this IATC claim (ECF No. 27 at
22-23). Respondent contends the state court’s adjudication of the claim was not
contrary to or an unreasonable application of clearly established federal law (id. at
23-26).
1.

Clearly Established Federal Law

The Strickland standard, set forth supra, governs this claim.
2.

Federal Review of State Court Decision

Petitioner presented this claim as Claim #3 of his second amended Rule 3.850
motion (Ex. H at 460-61). The state circuit court adjudicated the claim as follows:
Claim Three—Failing to Object and Move to Suppress In-Court
Identification
Defendant next alleges that counsel failed to object and move to
suppress the in-court identification. Defendant alleges that “counsel
made several issues about identification.” Defendant further contends
that neither Michelle Zebracki nor Jerry Weekley (witnesses at trial)
knew Defendant; therefore they would not be able to testify whether
Defendant was the “Joe” in the allegation. Defendant further states that
his appearance had changed since the time of the incident: he had lost
weight, shaved off his goatee and mustache, and allowed his hair to grow
out where he had been bald previously. Defendant also claims that
Case No.: 5:17cvl8/MCR/EMT

Case 5:17-cv-00018-MCR-EMT Document 37 Filed 07/09/18 Page 81 of 153

Page 81 of 153

counsel should have objected to the State pointing to Defendant,
describing the color of his shirt and then asking the child victim to
identify Defendant. Defendant claims that if counsel had succeeded in
suppressing the identification, it would have raised reasonable doubt as
to Defendant’s identity as the perpetrator, and the jury would have found
Defendant not guilty.
Defendant has failed to allege a valid basis for counsel to have
objected or moved to suppress the in-court identification of Defendant
as the perpetrator of the crime. Initially, the Court notes that neither
Michelle Zebracki[FN 24] nor Jerry Weekley[FN 25] was asked to
identify Defendant in-court, most likely for the reason cited by
Defendant: neither Michelle Zebracki nor Jerry Weekley knew
Defendant. Defendant admits his appearance was drastically different
at the time of trial but the child victim was still able to identify
Defendant by name.[FN 26] The record shows that the State asked the
child victim “Do you know who the man is over in the red shirt over
there?” to which the child victim responded “Joe.”[FN 27] Upon further
questioning, the child victim testified that Joe had grabbed her hand and
put it on his penis, moving her hand back and forth. [FN 28] Considering
the age of the child victim, the State’s question directing the child victim
to the man in the red shirt was wholly appropriate. The State did not
include in its vague description of Defendant’s clothing any indication
that Defendant was the person who had committed the crime against the
child. It was the child victim who testified later that it was Joe, who used
to live in her mother’s house, who had molested her. The Court finds
that if counsel had objected to the State’s question to the child victim, it
is likely the objection would have been overruled.
Even though this claim was not scheduled for [the] evidentiary
hearing, counsel testified in response to Defendant’s questions that the
child victim never identified Defendant from a pretrial photo line-up,
“[b]ut I think she knew who she was talking about when she said, Joe,
who lives with my mom. There was not another Joe that you ever made
me aware of that lived in that house.”[FN 29] Counsel also testified that
the identity of the alleged perpetrator was never a question in this
Case No.: 5:17cvl8/MCR/EMT

Case 5:17-cv-00018-MCR-EMT Document 37 Filed 07/09/18 Page 82 of 153

Page 82 of 153

case.[FN 30] “This is not an identity case. There were several months
when both the mother, the alleged victim—and Mr. Savicki agreed they
lived in the same house.”[FN 31] The Court finds counsel’s testimony
credible. Defendant has failed to show that counsel had a valid basis to
object or move for suppression of the in-court identification.
Consequently, Defendant has failed to show that counsel was deficient
or that he was prejudiced. Defendant is not entitled to relief as to this
claim.
(Ex. J at 909-12) (footnotes citing to trial transcript and evidentiary hearing transcript
omitted). The First DCA affirmed the decision without written opinion (Ex. U).
In Perry v. New Hampshire. 565 U.S. 228, 132 S. Ct. 716, 181 L. Ed. 2d 694
(2012), the Supreme Court reiterated the holdings of its previous precedents with
respect to the approach appropriately used to determine whether the Due Process
Clause requires suppression of an eyewitness identification tainted bv police
arrangement. The Court emphasized, first, “that due process concerns arise only when
law enforcement officers use an identification procedure that is both suggestive and
unnecessary. Td.. 565 IJ.S. at 238-39 tciting Manson v. Brathwaite. 432 U.S. 98.107,
108,97 S. Ct. 2243,53 L. Ed. 2d 140 fl 9771. and Neil v. Biggers. 409 U.S. 188, 198,
93 S. Ct. 375, 34 L. Ed. 2d 410 (1972)). Second, “[e]ven when the police use such a
procedure, . . . suppression of the resulting identification is not the inevitable
consequence.” Perry. 565 U.S. at 239 (citing Brathwaite. 432 U.S. at 112-113 and
Biggers. 409 U.S. at 198-199).
Case No.: 5:17cvl8/MCR/EMT

Case 5:17-cv-00018-MCR-EMT Document 37 Filed 07/09/18 Page 83 of 153

Page 83 of 153

The Perry Court rejected the argument that its precedents should be read more
broadly to require a trial court to screen all identification evidence for reliability
before allowing the jury to assess its creditworthiness, including identification
evidence that was not the product of improper conduct by police. 565 U.S. at 245.
The Court explained that the primary aim of excluding identification evidence is to
“deter law enforcement use of improper lineups, showups, and photo arrays,” id. at
241, and that this aim is not served “in cases [ ]... in which the police engaged in no
improper conduct.” Id. at 242. And the Court declined to “open the door to judicial
preview, under the banner of due process,” of identifications made without improper
police conduct but under “suggestive circumstances.” Id. at 244. The Court noted:
Most eyewitness identifications involve some element of suggestion.
Indeed, all in-court identifications do. Out-of-court identifications
volunteered by witnesses are also likely to involve suggestive
circumstances. For example, suppose a witness identifies the defendant
to police officers after seeing a photograph of the defendant in the press
captioned “theft suspect,” or hearing a radio report implicating the
defendant in the crime. Or suppose the witness knew that the defendant
ran with the wrong crowd and saw him on the day and in the vicinity of
the crime. Any of these circumstances might have “suggested” to the
witness that the defendant was the person the witness observed
committing the crime.
Id. at 244. The Court recognized that the jury, not the judge, traditionally determines
the reliability of evidence. Id. at 245. The court also took into account the safeguards

Case No.: 5:17cvl8/MCR/EMT

Case 5:17-cv-00018-MCR-EMT Document 37 Filed 07/09/18 Page 84 of 153

Page 84 of 153

built into the adversary system that caution juries against placing undue weight on
eyewitness testimony of questionable reliability, including (1) the defendant’s right
to confront the eyewitness through cross-examination, (2) defense counsel’s
opportunity to expose the flaws in the eyewitness’ testimony and focus the jury’s
attention on the fallibility of such testimony during opening statements and closing
arguments, (3) any jury instructions which warn the jury to take care in appraising
identification evidence, (4) the constitutional requirement that the government prove
the defendant’s guilt beyond a reasonable doubt (which impedes convictions based on
dubious identification evidence), and (5) evidentiary rules which permit trial judges
to exclude relevant evidence if its probative value is substantially outweighed by its
prejudicial impact or potential for misleading the jury. Id. at 245-47. For these
reasons, the Perrv Court held that the Due Process Clause does not require a court to
determine the reliability of an eyewitness identification when the identification was
not procured under unnecessarily suggestive circumstances arranged by law
enforcement, Id. at 248.
The identification evidence at issue in Petitioner’s case (i.e., the child victim’s
in-court identification of Petitioner as “Joe”) was not the product of police
arrangement or misconduct; indeed, there is no dispute that this case did not involve
,y~

Case No.: 5:17cvl8/MCR/EMT

•

Case 5:17-cv-00018-MCR-EMT Document 37 Filed 07/09/18 Page 85 of 153

Page 85 of 153

a prior out-of-court identification procedure arranged by law enforcement (e.g., a line­
up, photo line-up, or show-up).

Instead, this case involves only an in-court

identification, which Petitioner argues was in response to an unnecessarily suggestive
question by the prosecutor.
The allegedly objectionable identification came just after the prosecutor
elicited testimony from the child victim, who had just turned seven years old, that:
she understood she had to tell the truth; she understood that everything she said had
to be “what really happened”; and she promised the judge that she would tell the truth
and “only speak about what really happened” (Ex. B at 24-25). The prosecutor then
asked the victim:
Q. (By Ms. Pace) [D]o you know why you’re here today?
A. No, ma’am.
Q. Do you know why you’re here in the courtroom to speak?
A. Uh-huh.
Q. Okay. Can you tell the ladies and gentlemen over here in the
jury why it is that you are here today to speak?
A. (Witness shrugs shoulders).
Q. Can you tell him?
A. I don’t know.
Case No.: 5:17cvl8/MCR/EMT

Case 5:17-cv-00018-MCR-EMT Document 37 Filed 07/09/18 Page 86 of 153

Page 86 of 153

Q. You don’t know? Do you know who the man is over in the red
shirt over there?
A. Joe.
Q. Joe. Okay. How do you know him? Have you met him before
today?
A. Not lately.
Q. How did you first meet Joe?
A. (Witness shrugs shoulders).
Q. Where have you seen him before today?
A. (Witness shrugs shoulders).
Q. You don’t know?
A. No.
Q. [W]hen did you first see Joe?
A. At my mom’s old apartment.
Q. At your mom’s old apartment? Okay, and do you know what
city that was in?
A. Uh-uh.
Q. No, okay. Did Joe ever live with you?
A. (Witness shrugs shoulder).
Q. Where did you see him at your mom’s old apartment?
Case No.: 5:17cvl8/MCR/EMT

Case 5:17-cv-00018-MCR-EMT Document 37 Filed 07/09/18 Page 87 of 153

Page 87 of 153

A. In my bedroom.
Q. In your bedroom? Okay, and where was your bedroom?
A. Up the stairs and you go straight.
Q. All right. Were you—did you sleep in that bedroom?
A. I slept on the couch.
Q. Who slept in your bedroom?
A. Joe.
Q. Joe?
A. (Witness indicates affirmatively).
Q. Did Joe have clothes at the house in your bedroom?
A. To change into.
Q. To change into? Okay. Who else lived at the house when Joe
was staying in your bedroom?
A. My mom.
Q. Anybody else? Just you and your mom?
A. That’s it.
Q. Did something happen with Joe?
A. I don’t know.
Q. Do you not know or do you not remember?
Case No.: 5:17cvl8/MCR/EMT

Case 5:17-cv-00018-MCR-EMT Document 37 Filed 07/09/18 Page 88 of 153

Page 88 of 153

A. I don’t know.
Q. Did you tell someone that something happened with Joe?
A. I told—
Q. What did you tell? Can you tell these ladies and gentlemen?
What did you tell?
A. I told my mom what happened.
Q. Okay. What did you tell your mom happened?
A. That—
Q. Can you tell these ladies and gentlemen of the jury what you
told your mom happened?
A. I think.
Q. Okay. Well, go ahead and tell them.
A. He grabbed my hand and put it on his front.
Q. On his front?
A. (Witness indicates affirmatively).
Q. When you say “he” are you talking about Joe?
A. Yes.
Q. Where did that happen?
A. In my mom’s old apartment.

Case No.: 5:17cvl8/MCR/EMT

Case 5:17-cv-00018-MCR-EMT Document 37 Filed 07/09/18 Page 89 of 153

Page 89 of 153

Q. Do you remember, did it happen in a particular part of the house?
A. In my bedroom.
(Ex. B at 26-29). The victim then testified that Joe grabbed her hand, put her hand
on his “wiener,” which she described as “slimy,” and made her hand “go back and
forth” (id. at 30-31).
During the post-conviction evidentiary hearing, Petitioner questioned Attorney
Weekley as to why he did not pursue a mistaken identity theory by showing the victim
a photograph of James Dean Dickerson or presenting evidence that Dickerson had
inappropriately kissed the victim (Ex. I at 795-96, Ex. J at 805). Attorney Weekley
responded that the victim had consistently stated that the man who placed her hand on
his bare penis was “Joe, who lives with my mom,” and the only variation from that
was when the victim refused to answer questions during her deposition (Ex. J at 805,
808). Attorney Weekley testified that there was no pre-trial line-up, “But I think she
knew who she was talking about when she said, Joe, who lives with my mom. There
was not another Joe that you ever made me aware of that lived in that house” (id. at
808).
The court questioned Attorney Weekley about the identification issue as
follows:

Case No.: 5:17cvl8/MCR/EMT

Case 5:17-cv-00018-MCR-EMT Document 37 Filed 07/09/18 Page 90 of 153

Page 90 of 153

THE COURT: The point is that the mother of the victim and the
defendant all resided together?
MR. WEEKLEY: That is correct.
THE COURT: All right. And it wasn’t just like a day or so, it
was a long period of time, whether it be six months or a year?
MR. WEEKLEY: That correct [sic].
THE COURT: So as a defense counsel, you wouldn’t see it as one
of those cases where it was a case of mistaken identity?
MR. WEEKLEY: No.
THE COURT: Like, for example, I tried one I think that was just
PCA’d the other day where the victim only saw the defendant one time
at a party and that’s the only time in her life she ever saw him. That that
would be a case where you would really want to make—it all comes
down to identity. This wasn’t one of those type cases?
MR. WEEKLEY: No. This is not an identity case. There were
several months when both the mother, the alleged victim—and Mr.
Savicki agreed they all lived in the same house.
(Ex. J at 806-07). During the evidentiary hearing, Petitioner told the court he began
residing at the apartment with Stacy Williams at the end of August of 2011, and
stayed there until November 24, 2011 (Ex. J at 824). And in one of Petitioner’s
submissions to the post-conviction court (a letter to the Milton Housing Authority),
Petitioner stated he resided at the apartment with Stacy Williams from mid-June of
2011 through November of 2011 (see Ex. I at 694-95).
Case No.: 5:17cvl8/MCR/EMT

Case 5:17-cv-00018-MCR-EMT Document 37 Filed 07/09/18 Page 91 of 153

Page 91 of 153

The state court reasonably concluded that Attorney Weekley was not deficient
for failing to object to, or move for suppression of, the victim’s identification
testimony on the ground that it was the product of the prosecutor’s unnecessarily
suggestive question. Prior to trial, the child consistently identified “Joe” as the man
who put her hand on his bare penis. At trial, the prosecutor simply asked the child if
she knew Petitioner, and the victim readily identified Petitioner as “Joe.” This was
prior to the prosecutor’s eliciting any testimony from the victim about the specifics
of the molestation, or who perpetrated it. Petitioner failed to show that counsel had
a meritorious basis to seek exclusion of the victim’s identification on the ground that
the prosecutor’s question created a substantial likelihood of misidentification, or that
the probative value of the identification testimony was substantially outweighed by
the danger ofunfair prejudice or misleading thejury, see Fla. Stat. § 90.403. For these
' reasons, the state court also reasonably concluded that Petitioner failed to show he was
prejudiced by defense counsel’s failure to object to, or seek suppression of, the
victim’s identification testimony. Therefore, Petitioner is not entitled to federal
habeas relief on Ground Four.
E.
Ground Five: “IOC [sic]—failure to contact, investigate, and present
alibi witnesses.”

Case No.: 5:17cvl8/MCR/EMT

Case 5:17-cv-00018-MCR-EMT Document 37 Filed 07/09/18 Page 92 of 153

Page 92 of 153

Petitioner alleges that in several sworn pre-trial statements, Stacy Williams (the
victim’s mother) stated that (1) she observed a drastic change in the victim’s
demeanor towards Petitioner on November 24, 2011, (2) this observation led her
(Williams) to question the victim, (3) Williams’ questioning resulted in the victim’s
disclosing the sexual molestation allegation, and (4) Williams then reported the
allegation to law enforcement (ECF No. 17 at 34-35; ECF No. 32 at 37-). Petitioner
alleges he informed Attorney Weekley that Ms. Williams’ statements were lies,
because he had been at his fiancee’s house from the evening of November 23 through
the late afternoon of November 24, 2011, and then went to his mother’s house until
the early evening of November 24 (id.). Petitioner alleges he told Attorney Weekley
that when he returned to Ms. Williams’ apartment on November 24, neither the victim
nor Ms. Williams were there, and he did not see them until later that evening when
law enforcement arrived and forced him to leave (id.). Petitioner contends Attorney
Weekley was ineffective for failing to contact “potential witnesses” (id.). Petitioner
contends one of these witnesses was Tarah C. Freeman, who would have testified that
Ms. Williams was with her and Brian Morris (Freeman’s boyfriend) on November 24,
2011 (see ECF No. 32 at 38-39).

Case No.: 5:17cvl8/MCR/EMT

Case 5:17-cv-00018-MCR-EMT Document 37 Filed 07/09/18 Page 93 of 153

Page 93 of 153

Respondent concedes Petitioner exhausted this IATC claim (ECF No. 27 at 26).
Respondent contends the state court’s adjudication of Petitioner’s claim was not
contrary to or an unreasonable application of clearly established federal law (id. at
27-29).
1.

Clearly Established Federal Law

The Strickland standard, set forth supra, governs this claim.
2.

Federal Review of State Court Decision

Petitioner presented this claim as Claim #5 of his second amended Rule 3.850
motion (Ex. H at 463-65). Petitioner identified Kara Lindsey Allen (Petitioner’s
fiancee) and Patricia Faulkner (Petitioner’s mother) as the potential witnesses whom
Attorney Weekley should have contacted (id.).
The state circuit court adjudicated the claim as follows:
Claim Five—Failing to Call. Interview, and Present Alibi Witnesses
Defendant alleges that counsel was ineffective for failing to call,
interview and present alibi witnesses. Defendant claims that Ms.
Williams could not have observed the child victim’s reaction to
Defendant on November 24, 2011, (Thanksgiving) because Defendant
was not present at Ms. Williams’ residence on November 24, 2011.
Defendant alleges he told counsel he spent the night of November 23,
2011, over at his girlfriend’s, and on November 24,2011, after dropping
his girlfriend off at a friend’s house, Defendant went to his mother’s
apartment in Pace where he spent Thanksgiving. When Defendant
arrived back at Ms. Williams’ residence on November 24,2011, nobody
Case No.: 5:17cvl8/MCR/EMT

Case 5:17-cv-00018-MCR-EMT Document 37 Filed 07/09/18 Page 94 Of 153

Page 94 of 153

was home. He didn’t see Ms. Williams and the child victim until the
Milton Police Department served the 72 hour domestic violence
injunction on Defendant. Defendant claims counsel failed to contact
Kara Linsey Allen and Patricia Lynanne Faulkner who were both
available to testify, and who would have confirmed Defendant’s
rendition of events for November 24, 2011. Defendant claims that the
alibi witnesses’ testimony would have substantiated and corroborated
Defendant’s “actual and factual innocence” and had counsel contacted
the witnesses and developed the evidence, the jury would not have found
Defendant guilty.
The record demonstrates that Ms. Allen’s and Ms. Faulkner’s
testimony regarding the events ofNovember 23 and 24,2011, would not
have substantiated Defendant’s innocence and would not have changed
the result of Defendant’s trial. Initially, Defendant admits he returned to
Ms. Williams’ residence on November 24, 2011. The proposed alibi
witnesses’ testimony only shows that Defendant left his Thanksgiving
meal at 5:00 pm—it does not corroborate Defendant’s account that
nobody else was at the residence when he arrived on November 24,
2011. Consequently, neither of the witnesses would be considered true
“alibi” witnesses in this regard.
Additionally, even though Ms. Williams initially testified the child
victim’s demeanor toward Defendant changed on November 24,
2011,[FN 36] Ms. Williams confirmed that she reported the child
victim’s demeanor had changed over “the last few days” in her
November 24,2011 statement to law enforcement. [FN 3 7] If Defendant
wanted the proposed alibi testimony introduced to impeach Ms.
Williams’ statement regarding the November 24,2011 demeanor change,
Ms. Williams’ testimony was already effectively impeached by her own
statement to police.
Most importantly, the issue of whether Ms Williams noticed a
demeanor change in the child victim on November 24, 2011, or even
some other time is ancillary to the charges in this case. Although Ms.
Williams reported the abuse of the child victim to law enforcement on
Case No.: 5:17cvl8/MCR/EMT

Case 5:17-cv-00Q18-MCR-EMT Document 37 Filed 07/09/18 Page 95 of 153

Page 95 of 153

November 24, 2011, the record shows that the actual instance of
molestation occurred sometime before November 24, 2011.[FN 38]
Neither Ms. Allen’s nor Ms. Faulkner’s testimony would have
established that Defendant did not molest the child victim. Because of
the limited scope of the proposed witnesses’ testimony, Defendant has
failed to demonstrate that his counsel was deficient or that he was
prejudiced by counsel’s failure to call, interview and present these
“alibi” witnesses. Defendant is not entitled to relief as to this claim.
(Ex. J at 913-15) (footnotes citing to trial transcript omitted). The First DCA affirmed
the decision without written opinion (Ex. U).
Initially, none of the alleged “alibi” witnesses actually established an alibi to
the molestation charge. Ms. Williams reported the allegation of molestation on
November 24, 2011, but all of the evidence showed that the child reported it months
prior to that. Therefore, the proposed testimony of Petitioner’s fiancee and his mother
regarding his whereabouts on November 24, and Ms. Freeman’s proposed testimony
about Ms. Williams’ whereabouts on that day, would not have established an alibi to
the charge. Thus the only value of any testimony regarding Petitioner’s and Ms.
Williams’ whereabouts on November 24, 2011, was to impeach Ms. Williams’
testimony, that she noticed a change in the victim’s demeanor when she was around
Petitioner that day {see Ex. B at 114). However, Attorney Weekley destroyed Ms.
Williams’ credibility by exposing numerous instances of Ms. Williams’ providing
conflicting information in her trial testimony and her sworn written statements to
Case No.: 5:17cvl8/MCR/EMT

Case 5:17-cv-00018-MCR-EMT Document 37 Filed 07/09/18 Page 96 of 153
/
Page 96 of 153

police and in court documents; indeed, Attorney Weekley even elicited Ms. Williams’
outright admission that she provided false information in her sworn written statements
(Ex. B at 116-17,119-25, 135-42). Even the trial court commented during a bench
conference that Attorney Weekley had “significantly” impeached Ms. Williams
credibility {id. at 186). The state court thus reasonably concluded that Petitioner was
not prejudiced, in the Strickland sense, by Attorney Weekley’s failure to present
testimony regarding his and Ms. Williams’ whereabouts on November 24, 2011.
Petitioner has not demonstrated that the state court’s adjudication of Ground
Five was based upon an unreasonable determination of fact, or that was it contrary to
or an unreasonable application of Strickland. Therefore, Petitioner is not entitled to
federal habeas relief on Ground Five.
F.

Ground Eight: “TOC Tsicl—misadvising Petitioner not to testify.”

Petitioner alleges defense counsel was ineffective for advising him that he
should not testify because the State would introduce Petitioner’s prior crimes of
dishonesty (specifically, thefts) to impeach him, and the jury would not believe his
testimony (ECF No. 17 at 50-52; ECF No. 32 at 51-56). Petitioner alleges Attorney
Weekley never explained that the jury could still choose to believe him even if his
testimony was impeached with his prior felony convictions (ECF No. 1 at 50).

CaseNo.: 5:17cvl8/MCR/EMT

Case 5:17-cv-00018-MCR-EMT Document 37 Filed 07/09/18 Page 97 of 153

Page 97 of 153

Petitioner alleges if counsel had advised him of this, he would have testified {id.).
Petitioner alleges he would have testified “about what had been going on in the
residence” and Ms. Williams’ motives to fabricate, specifically, her desire to steal and
sell his used electronics to support her drug habit, and her fear that she would lose
custody of her children and her subsidized apartment if Petitioner followed through
with his threats to report her to child protective services and the public housing
authority if she did not “clean her life up” (ECF No. 17 at 50; ECF No. 32 at 51-54).
Petitioner contends his testimony would have cast reasonable doubt on the State’s
case (id.).
Petitioner alleges another reason defense counsel advised him not to testify was
that there was no other evidence to support his testimony (see ECF No. 17 at 50-51).
Petitioner alleges if defense counsel had investigated and obtained “even one witness
or single piece of evidence” that would have supported his testimony, for example, the
officer who was present on November 28, 2011, when Petitioner found some of his
personal belongings in Ms. Williams’ bedroom, he would have exercised his right to
testify (ECF No. 17 at 51; ECF No. 32 at 51-53).
Respondent concedes Petitioner exhausted this IATC claim (ECF No. 27 at 45).
Respondent contends the state court’s adjudication of Petitioner’s claim was not

Case No.: 5:17cvl8/MCR/EMT

Case 5:17-cv-00018-MCR-EMT Document 37 Filed 07/09/18 Page 98 of 153

Page 98 of 153

contrary to or an unreasonable application of clearly established federal law {id. at
46-48).

1.

Clearly Established Federal Law

The Strickland standard, set forth supra, governs this claim.
2.

Federal Review of State Court Decision

Petitioner presented this claim as Claim #8 of his second amended Rule 3.850
motion (Ex. H at 472-73). The state circuit court adjudicated the claim as follows:
naim F.iffht—Advising Defendant not to Testify
Defendant further alleges that counsel was ineffective in advising
Defendant not to testify. Defendant alleges counsel informed him the
State would introduce Defendant’s prior convictions to impeach him and
the jury would know Defendant as an ex-con. Defendant further
claims that counsel did not want Defendant to testify because it would
contradict counsel’s theory of defense.
Defendant’s claim is refuted by the record. Counsel’s advice to
Defendant regarding his prior convictions being used to impeach
Defendant’s testimony is absolutely correct. In fact, during a bench
conference when defense counsel was trying to get into evidence
Defendant’s statement, the Court cautioned counsel: “You want to be
very careful. Does your client have a prior record? Counsel replied,
“Yes.” The Court further stated: “If you introduce his statement, she
can impeach him with a record. She can impeach his statement with a
prior record.”[FN 82]
Additionally, the record shows that Defendant exercised his
independent decision not to testify at his trial. Defendant confirmed on
the record that he understood it was his absolute right to testify if he
Case No.: 5:17cvl8/MCR/EMT

Case 5:17-cv-00018-MCR-EMT Document 37 Filed 07/09/18 Page 99 of 153

Page 99 of 153

chose to do so; the decision not to testify was his alone; he had an
adequate opportunity to discuss with his attorney the advantages and
disadvantages of testifying; and no threats or promises had been made to
■j-p.

to demonstrate that counsel was deficient and Defendant was prejudiced.
Defendant is not entitled to relief as to this claim.
(Ex. J at 930-31) (footnotes citing to transcripts of trial and post-conviction
evidentiary hearing omitted). The First DCA affirmed the decision without written
opinion (Ex. U).
As discussed supra in Grounds Two, Six, and Seven, the state court reasonably
concluded that Attorney Weekley made a reasonable strategic decision to pursue the
defense theory that the testimony of the child victim was not trustworthy, and the
testimony of the victim’s mother (Stacy Williams) was completely incredible. And
counsel reasonably decided that the most effective way to impeach Stacy Williams’
testimony was with her own prior inconsistent statements. Therefore, counsel’s
failure to investigate evidence of Ms. Williams’ possible motivations to fabricate an
allegation against Petitioner was not deficient and thus did not render Petitioner’
waiver of his right to testify involuntary.
Additionally, defense counsel’s advice concerning the State’s ability to use
Petitioner’s prior felony convictions to attack his credibility was reasonable. See Fla.
Stat. § 90.610(1). Counsel’s failure to additionally advise Petitioner that the jury
Case No.: 5:17cvl8/MCR/EMT

Case 5:17-cv-00018-MCR-EMT Document 37 Filed 07/09/18 Page 100 of 153

Page 100 of 153

could still choose to believe him, even after the State established that he was a
convicted felon, did not amount to conduct “outside the wide range of professionally
competent assistance.”
Petitioner has not demonstrated that the state court’s adjudication of Ground
Eight was based upon an unreasonable determination of fact, or that was it contrary
to or an unreasonable application of Strickland. Therefore, Petitioner is not entitled
to federal habeas relief on Ground Eight.
G.

Ground Nine: “Bradv violation.”

Petitioner alleges that on April 27, 2017, Stacy Williams was arrested for a
narcotics violations that occurred on November 28,2011 (ECF No. 17 at 52-53; ECF
No. 32 at 56-58). Petitioner alleges the charges were pending during his trial, and the
State dropped the charges eight days after his trial (id.). Petitioner alleges this
“indicates] a likelihood that the State had threatened or promised Ms. Williams
something relating to those pending charges, and the State never revealed whether it
had or not” (id. at 52). Petitioner alleges that even though Ms. Williams’ credibility
was impeached at trial, Attorney Weekley could have used information regarding any
threats or promises to Ms. Williams by the State to impeach the child victim “with any
such expectations on her mother’s behalf’ (id.).

Case No.: 5:17cvl8/MCR/EMT

Case 5:17-cv-00018-MCR-EMT Document 37 Filed 07/09/18 Page 101 of 153

Page 101 of 153

Petitioner additionally contends the State failed to disclose that James Dean
Dickerson_was_chargedinlheCircuit.CourtibrEscambia-County,-Elorida,avithlewd
and lascivious molestation of a different victim during the same time frame as
Petitioner’s charge (ECF No. 32 at 58-61).
Respondent concedes Petitioner exhausted this claim (ECF No. 27 at 48).
Respondent contends the state court’s adjudication of Petitioner’s claim was not
contrary to or an unreasonable application of clearly established federal law {id. at
48-50).
1.

Clearly Established Federal Law

As recognized in Bradv v. Maryland. 373 U.S. 83, 83 S. Ct. 1194,10 L. Ed. 2d
215 (1963) and its progeny, principles of due process dictate that, in a criminal
proceeding, the prosecution must disclose evidence favorable to the defendant. Brady.
373 U.S. at 87; Banks v. Dretke. 540 U.S. 668, 691, 124 S. Ct. 1256, 157 L. Ed. 2d
1166 (2004). To establish a Brady violation, a defendant must prove three essential
elements: (1) that the evidence was favorable to the defendant, either because it is
exculpatory or impeaching; (2) that the prosecution suppressed the evidence, either
willfully or inadvertently; and (3) that the suppression of the evidence resulted in
prejudice to the defendant. Turner v. United States. — 582 U.S. —, 137 S. Ct. 1885,

Case No.: 5:17cvl8/MCR/EMT

Case 5:17-cv-00018-MCR-EMT Document 37 Filed 07/09/18 Page 102 of 153

Page 102 of 153

1893,198 L. Ed. 2d 443 (2017); Banks. 540 U.S. at 691; Strickler v. Greene, 527 U.S.
263, 281-82, 119 S. Ct. 1936, 144 L. Ed. 2d 286 (1999).
To establish prejudice, the defendant must show that the suppressed evidence
was material. Banks. 540 U.S. at 691. The evidence rises to the level of materiality
within the meaning of Brady when there is a reasonable probability that, had the
suppressed evidence been disclosed, the result of the proceeding would have been
different. Turner. 137 S. Ct. at 1893. “A reasonable probability of a different result
is one in which the suppressed evidence undermines confidence in the outcome of the
trial.” Id. (internal quotation marks and citations omitted).
In determining whether disclosure of the suppressed evidence might have
produced a different result, the court must consider the “totality of the circumstances.
United States v. Bagiev. 473 U.S. 667,683,105 S. Ct. 3375,87 L. Ed. 2d 481 (1985).
The court “must examine the trial record, ‘evaluate]’ the withheld evidence in the
context of the entire record,’ and determine in light of that examination whether there
is a reasonable probability that, had the evidence been disclosed, the result of the
proceeding would have been different.’” Turner, 137 S. Ct. at 1893 (quoting United
States v. Agurs. 427 U.S. 97,112,96 S. Ct. 2392,49 L. Ed. 2d 342 (1976), and Cone
v. Bell. 556 U.S. 449, 470, 129 S. Ct. 1769, 173 L. Ed. 2d 701 (2009)).

Case No.: 5:17cvl8/MCR/EMT

Case 5:17-cv-00018-MCR-EMT Document 37 Filed 07/09/18 Page 103 of 153

Page 103 of 153

2.

Federal Review of State Court Decision
a.
State’s failure to disclose evidence concerning Ms.
Williams’ drug charge

Petitioner presented this alleged Bradv violation as claim as Claim #10 of his
second amended Rule 3.850 motion (Ex. H at 475-76). The state circuit court
adjudicated the claim as follows:
Claim Ten—State Failed to Disclose Impeachment Information
Lastly, Defendant alleges that the State committed a Brady
violation by failing to disclose to Defendant that Ms. Williams’ drug
offense charges were nolleprosequed eight days after Defendant’s trial.
Defendant further argues that because the State commented extensively
in closing arguments that no motive was ever shown for either Ms.
Williams or the child victim to lie at trial, the State has already conceded
the third prong of Bradv.
“To establish a Brady violation, a defendant must show: (1)
evidence favorable to the accused, because it is either exculpatory or
impeaching; (2) that the evidence was suppressed by the State, either
willfully or inadvertently; and (3) that prejudice ensued.” Guzman. 868
So. 2d 498, 508 (Fla. 2003) (citation omitted).
Even assuming the evidence was considered impeaching and it
had been suppressed by the State, as discussed previously in this Order,
Defendant was not prejudiced as counsel had already impeached Ms.
Williams’ credibility at trial without the benefit of such information.
Consequently, Defendant has failed to demonstrate a Bradv violation
occurred, and he is not entitled to relief as to this claim.

Case No.: 5:17cvl8/MCR/EMT

Case 5:17-cv-00018-MCR-EMT Document 37 Filed 07/09/18 Page 104 of 153

Page 104 of 153

(Ex. J at 932-33). The First DCA affirmed the decision without written opinion (Ex.
U).
Petitioner’s trial was on May 23,2013 (see Exs. B, C). At the post-conviction
eviidentiary hearing, Attorney Weekley testified that he was aware, prior to trial, that
Stacy Williams was arrested on April 27,2012 (Ex. I at 772-73). One of the exhibits
submitted by Petitioner with his second amended Rule 3.850 motion, and which the
state court considered (see Ex. I at 815—16), was a copy of the Case Progress Docket
of Ms. Williams’ criminal case, Case No. 2012-CF-000616, obtained from the Santa
Rosa County Clerk of Court’s public website (Ex. H at 597-99). It was a matter of
public record that Stacy Williams was arrested on April 27, 2012, for one count of
possession of a controlled substance without a prescription in violation of Florida
Statutes § 893.13 (6)(a), a third degree felony, and one count of possession and/or use
of drug equipment in violation of § 893.147(1), a first degree misdemeanor (see id.).
It was also a matter of public record that on July 20,2012 (prior to Petitioner’s trial),
the State Attorney, Ms. Williams, and the trial court agreed to Ms. Williams’ release
to a pre-trial intervention program (see id.).1 It was also public record that the State
7 Florida law provides:
(2) Any first offender, or any person previously convicted of not more than one
nonviolent misdemeanor, who is charged with any misdemeanor or felony of the
third degree is eligible for release to the pretrial intervention program on the
CaseNo.: 5:17cvl8/MCR/EMT

Case 5:17-cv-00018-MCR-EMT Document 37 Filed 07/09/18 Page 105 of 153

Page 105 of 153

Attorney has the final authority to determine whether Ms. Williams’ charges should
be dropped, and that the charges had not been dropped at the time of Petitionor’s trial
on May 23, 2013 (see id.).

approval of the administrator of the program and the consent of the victim, the state
attorney, and the judge who presided at the initial appearance hearing of the
offender. However, the defendant may not be released to the pretrial intervention
program unless, after consultation with his or her attorney, he or she has voluntarily
agreed to such program....
(3) The criminal charges against an offender admitted to the program shall be
continued without final disposition for a period of 90 days after the date the offender
was released to the program, if the offender’s participation in the program is
satisfactory, and for an additional 90 days upon the request of the program
administrator and consent of the state attorney, if the offender’s participation in the
program is satisfactory.
(4) Resumption of pending criminal proceedings shall be undertaken at any time if
the program administrator or state attorney finds that the offender is not fulfilling his
or her obligations under this plan or if the public interest so requires. .. .
(5) At the end of the intervention period, the administrator shall recommend:
(a) That the case revert to normal channels for prosecution in instances in which the
offender’s participation in the program has been unsatisfactory;
(b) That the offender is in need of further supervision; or
(c) That dismissal of charges without prejudice shall be entered in instances in which
prosecution is not deemed necessary.
The state attorney shall make the final determination as to whether the prosecution
shall continue.
Fla. Stat. § 948.08(2M5).
Case No.: 5:17cvl8/MCR/EMT

Case 5:17-cv-00018-MCR-EMT Document 37 Filed 07/09/18 Page 106 of 153

Page 106 of 153

Since Ms. Williams’ charges, the status of those charges, and her participation
in the pre-trial intervention program were matters of public record, Petitioner failed
to satisfy the “suppression” component of a Brady violation. See Wright v. Hop.per,
169 F.3d 695, 702 (11th Cir. 1999); see also, e.g., United States v. Barroso, 719 F.
App’x 936,941 (11th Cir. 2018) (unpublished but recognized as persuasive authority)
(rejecting Bradv claim based upon government’s failure to disclose information
available on public records website, because “it would strain credulity to conclude that
the government would withhold and suppress information that was placed in a public
records website which the defendants could easily access); T Jnited States v. Cook, 170
F. App’x 639, 640 (11th Cir. 2006) (rejecting Brady claim based upon government’s
failure to disclose a trial witness’ s criminal history from 1999 to 2001, the fact that the
witness was on probation at the time he testified at defendant s trial, and the fact that
probation revocation proceedings had commenced against the witness, because
defendant failed to show that he could not have possessed this evidence with
reasonable diligence).
Moreover, as the state court determined, Attorney Weekley destroyed Ms.
Williams’ credibility with evidence of her prior inconsistent statements contained in
sworn written statements she provided to police and the court. Evidence of her

Case No.: 5:17cvl8/MCR/EMT

Case 5:17-cv-00Q18-MCR-EMT Document 37 Filed 07/09/18 Page 107 of 153

Page 107 of 153

pending criminal charges, including whether or not the State had promised or
threatened anything in exchange for her testimony in Petitioner’s case, would have
been merely cumulative impeachment evidence.
Petitioner failed to establish that the state court’s adjudication of this Brady
claim was based upon an unreasonable determination of fact, or contrary to or an
unreasonable application of clearly established federal law.
State’s failure to disclose evidence that James Dean
b.
Dickerson was charged in the Circuit Court for Escambia County.
Florida, with lewd and lascivious molestation of a different victim
during the same time frame as Petitioner’s charge.
Petitioner presented this alleged Brady violation in his third successive Rule
3.850 motion (Ex. DD at 944-63). The state circuit court adjudicated the Bradv claim
as follows:
To establish a Brady violation, a defendant must allege facts that
demonstrate that “(1) the State possessed evidence favorable to the
accused because it was either exculpatory or impeaching; (2) the State
willfully or inadvertently suppressed the evidence; and (3) the defendant
was prejudiced.” Allen v. State, 854 So. 2d 1255, 1259 (Fla. 2003)
(citing Strickler v. Greene, 527 U.S. 263, 281-82 (1999)). To establish
prejudice, a defendant must demonstrate that the evidence was material
by showing that the results of the proceeding would have been different
if the evidence had been disclosed to the defense. Id. at 1260 (citing
Strickler, 527 U.S. at 280).
Defendant argues that the evidence of Mr. Dickerson’s conviction
in Escambia County was exculpatory because it could have given the
Case No.: 5:17cvl8/MCR/EMT

Case 5:17-cv-00018-MCR-EMT Document 37 Filed 07/09/18 Page 108 of 153

Page 108 of 153

jury reasonable doubt as to whether Defendant or Mr. Dickerson
molested the victim. He claims that the evidence was suppressed by the
State because the State had prosecuted Mr. Dickerson in Escambia
County, and he states that he made the State- aware of the “kissing
incident” on October 24,2014, when he filed his second amended 3.850
motion for postconviction relief and again on August 18, 2015, during
the evidentiary hearing on his motion. Defendant also argues that the
State was aware of the “kissing incident” through the activities of the
Milton Police Department, which processed the complaint made by
Defendant regarding the “kissing incident.” Finally, Defendant claims
that he was prejudiced because trial counsel could have argued that Mr.
Dickerson could have molested the victim during the “kissing incident”
or that the victim’s mother or Mr. Dickerson himself manipulated her to
identify Defendant rather than Mr. Dickerson as the one who molested
her. In addition, he points out that trial counsel stated that evidence of
Mr. Dickerson’s conviction “would have been helpful” had they decided
on the defense theory of blaming Mr. Dickerson.
Defendant has failed to establish a Brady violation. Although the
State prosecuted Mr. Dickerson in Escambia County and would have
been aware of the “kissing incident” through the Milton Police
Department as Defendant alleges in his motion, Defendant has made no
showing that the State was aware of any significance of Mr. Dickerson’s
convictions in relation to his case until he raised the issue in his second
amended motion, filed on October 24,2014, more than one year after his
trial. Thus, Defendant has failed to show that the State possessed
exculpatory information that would have benefited [sic] the defense at
trial. Secondly, given the Court’s conclusion that the conviction could
have been discovered at the time of trial, the Court does not conclude
that suppression occurred. In addition, Defendant has failed to show the
materiality of the evidence as “[t]he mere possibility that an item of
undisclosed information might have helped the defense, or might have
affected the outcome of the trial, does not establish ‘materiality’ in the
constitutional sense.” U.S. v. Agurs, All U.S. 97, 109-10 (1976).
Consequently, the Court finds that this claim should be denied.

Case No.: 5:17cvl8/MCR/EMT

Case 5:17-cv-00018-MCR-EMT Document 37 Filed 07/09/18 Page 109 of 153

Page 109 of 153

(Ex. DD at 985-91). The First DCA affirmed without written opinion. Savicki v.
State. No. 1D17-3484,2018 WL 1223092 (Fla, IstDCA Mar. 9, 2018) (Table).
The state court’s phrasing of Bradv’s materiality standard deviates from the
standard stated by the Supreme Court. The Supreme Court defined materiality as
showing “a reasonable probability that, had the suppressed evidence been disclosed,
the result of the proceeding would have been different,” see Turner. 137 S. Ct. at
1893; whereas the state court in Petitioner’s case defined materiality as showing “that
the results of the proceeding would have been different.” It thus appears that the state
court reached a conclusion of law that contradicts one reached by the Supreme Court,
which satisfies the “contrary to” prong of § 2254(d)(1).
Nevertheless, Petitioner is not entitled to federal habeas relief, because his
allegations fail to show a Brady violation. Petitioner obviously knew that James Dean
Dickerson allegedly kissed the victim, as evidenced by the fact that he reported the
conduct to 911 on August 28, 2011, and he was interviewed by the Milton Police
Department when police investigated Petitioner’s report the same day (Ex. DD at
120-22). Additionally, evidence that James Dean Dickerson was charged in another
county with lewd or lascivious conduct in relation to a different victim, and the

Case No.: 5:17cvl8/MCR/EMT

Case 5:17-cv-00018-MCR-EMT Document 37 Filed 07/09/18 Page 110 of 153

Page 110 of 153

disposition of those charges, was a matter of public record.8 The defense could have
obtained, with due diligence, information about Mr. Dickerson’s arrest and conviction.
Petitioner thus failed to satisfy the “suppression” element of a Brady violation.
For these reasons, Petitioner is not entitled to federal habeas relief on either of
the Bradv claims presented in Ground Nine.
H.

Ground Ten: “Gielio violations.”

Petitioner alleges the State committed Giglio violations with respect to the trial
testimony of Stacy Williams and Michelle Zebracki (ECF No. 17 at 54-58; ECF No.
32 at 61-72). For example, Petitioner alleges Stacy Williams testified at trial that
there were no other roommates staying at her apartment; but a Milton Police
Department Call History Report showed that Williams called police on November 12,
2011 to have Tarah C. Freeman removed from the apartment, and that Raymond Tiller
and Iesha Gooden were also at the apartment when police arrived (ECF No. 17 at
54-5 5; ECF No. 32 at 69-71). Petitioner alleges Department of Children and Families

8 The public website of the Escambia County Clerk of Court indicates that on December 16,
2011, James Dean Dickerson was charged in Case No. 201 l-CF-005649, with six counts of lewd
or lascivious behavior with a victim aged 12 to 16 years, three counts of causing a child to commit
an act of delinquency, and one count of interference with the custody of a minor. Mr. Dickerson was
arrested on the charges on November 18,2011. On July 11,2012, Dickerson pleaded no contest to
one charge of lewd or lascivious behavior and one count of causing a child to commit an act of
delinquency. On August 21, 2012, the State dismissed the remaining counts, and Dickerson was
sentenced to eight years in prison on the lewd and lascivious behavior count, and a concurrent term
of eleven months and fifteen days on the other count.
Case No.: 5:17cv 18/MCR/EMT

Case 5:17-cv-00018-MCR-EMT Document 37 Filed 07/09/18 Page 111 of 153

Page 111 of 153

(“DCF”) records also referenced a statement by Ms. Williams that she “kicked out”
two people who had been staying at the apartment (id.). Petitioner alleges the State
was aware of this “perjury” (id.).
Petitioner alleges Stacy Williams also committed perjury when she testified that
she was evicted within a couple of days of November 24, 2011, which was why she
did not have a picture allegedly drawn by the victim (ECF No. 17 at 57; ECF No. 32
at 63-66). Petitioner alleges Ms. Williams was not evicted until September 24,2012,
as evidenced by a return of service executed in relation to a subpoena for Ms.
Williams’ pre-trial deposition (id.).
Petitioner alleges Stacy Williams also committed perjury when she testified that
Petitioner lived with her “almost a year” (ECF No. 32 at 67). Petitioner alleges DCF
records include statements from Ms. Williams that contradict this testimony (id. at
67-68). Petitioner further alleges his own records (from a past landlord and a cable
television company) prove that he did not live with Ms. Williams until the last week
of August of 2011 (id. at 67-68).
Petitioner alleges Michelle Zebracki committed perjury when she testified that
the victim told her about the molestation after the victim told Charlotte Williams, the
victim’s grandmother (ECF No. 17 at 55-56). Petitioner alleges in the DCF records

Case No.: 5:17cv 18/MCR/EMT

Case 5:17-cv-00018-MCR-EMT Document 37 Filed 07/09/18 Page 112 of 153

Page 112 of 153

dated November 25,2011, the DCF investigator stated that she interviewed Charlotte
Williams, who stated that nobody told her that the victim had been molested (id).
Petitioner additionally alleges Michelle Zebracki testified that the allegation
“came out” in July, August, and September of 2011, yet in the DCF records dated
November 25, 2011, the investigator indicated that Ms. Zebracki stated that the
allegation “came out she thinks” the previous Monday, November 21,2011 (ECF No.
17 at 56). Additionally, the CPT records stated that Jerry Weekley, Ms. Zebracki’s
fiance, told CPT Case Coordinator Leilani Mason that the victim told Ms. Zebracki
about the molestation on November 21, 2011 (id.). Petitioner alleges both the State
and defense counsel was aware of this “perjury (id.).
Respondent concedes Petitioner exhausted this IATC claim (ECF No. 27 at 51).
Respondent contends the state court’s adjudication of Petitioner’s claim was not
contrary to or an unreasonable application of clearly established federal law (id. at
51-53).
1.

Clearly Established Federal Law

In Gigliov. United States. 405 U.S. 150,92 S. Ct. 763,31 L. Ed. 2d 104 (1972),
the Supreme Court held that the government’s failure to correct false testimony of its
key witness (specifically, that the witness had received no promise of non-prosecution

Case No.: 5:17cvl8/MCR/EMT

Case 5:17-cv-00018-MCR-EMT Document 37 Filed 07/09/18 Page 113 of 153

Page 113 of 153

in exchange for his testimony), as well as the prosecutor’s false statement to the same
effect in closing argument, required a new trial. The Court explained that “deliberate
deception of a court and jurors by the presentation of known false evidence is
incompatible with rudimentary demands of justice.” 405 U.S. at 153 (citation and
internal quotation marks omitted).
The Giglio Court made clear, however, that such errors do not automatically
require reversal, and articulated a “materiality” standard to guide the determination
of whether a new trial is warranted:
We do not... automatically require a new trial whenever a combing of
the prosecutors’ files after the trial has disclosed evidence possibly
useful to the defense but not likely to have changed the verdict. A
finding of materiality of the evidence is required under Brady. A new
trial is required if “the false testimony could ... in any reasonable
likelihood have affected the judgment of the jury.”
Id. (citations and internal quotation marks omitted) (quoting Napue v. Illinois. 360
U.S. 264, 271, 79 S. Ct. 1173, 3 L. Ed. 2d 1217 (1959). Because “the Government’s
case depended almost entirely on [the falsely testifying witness’s] testimony,” the
Court reasoned, his “credibility as a witness was therefore an important issue in the
case, and evidence of any understanding or agreement as to a future prosecution
would be relevant to his credibility and the jury was entitled to know of it.” Id. at
154-55. Accordingly, the Court reversed the judgment of conviction.
Case No.: 5:17cvl8/MCR/EMT

Case 5:17-cv-00018-MCR-EMT Document 37 Filed 07/09/18 Page 114 of 153

Page 114 of 153

Since Giglio. the Supreme Court “has consistently held that a conviction
obtained by the knowing use of perjured testimony is fundamentally unfair, and must
be set aside if there is any reasonable likelihood that the false testimony could have
affected the judgment of the jury.” United States v. Agurs, 427 U.S. 97, 103, 96 S.
Ct. 2392,49 L. Ed. 2d 342 (1976) (footnote omitted); see also Kyles v. Whitley, 514
s

U.S. 419, 433 & n.7, 115 S. Ct. 1555, 131 L. Ed. 2d 490 (1995); United States.,w

Bagley, 473 U.S. 667, 677, 105 S. Ct. 3375, 87 L. Ed. 2d 481 (1985).
The “any reasonable likelihood” standard differs from the materiality standard
applicable to other types of Brady violations because of the nature of the error. See
Ventura v. Attorney Gen.. Fla.. 419 F.3d 1269, 1278 (11th Cir. 2005). As the
Supreme Court has explained, “the Court has applied a strict standard of materiality
[to Giglio violations], not just because they involve prosecutorial misconduct, but
more importantly because they involve a corruption of the truth-seeking function of
the trial process.” Agurs. 427 U.S. at 104.
The Eleventh Circuit expressly applies a perjury standard for Giglio claims. “To
establish prosecutorial misconduct for the use of false testimony, a defendant must
show the prosecutor knowingly used perjured testimony, or failed to correct what he
subsequently learned was false testimony, and that the falsehood was material.”

Case No.: 5:17cvl8/MCR/EMT

Case 5:17-cv-00018-MCR-EMT Document 37 Filed 07/09/18 Page 115 of 153

Page 115 of 153

United States v. McNair. 605 F.3d 1152, 1208 (11th Cir. 2010). This means that the
false testimony must be given with “willful intent” and “not as a result of mistake,
confusion, or faulty memory.” Id.
2.

Federal Review of State Court Decision

Petitioner presented a Giglio claim with respect to Stacy Williams’ testimony
as Claim #9 of his second amended Rule 3.850 motion (Ex. H at 474-75). The state
circuit court adjudicated the claim as follows:
Claim Nine—State Introduced Perjured Testimony
Defendant next alleges that the State committed a Giglio violation
because it permitted Ms. Williams to offer perjured testimony at trial.
Defendant further alleges that the State knew or should have known Ms.
Williams’ testimony was “perjury,’ yet it made no attempt to correct the
testimony or notify the Court. In referencing exhibits attached to his
amended motion and the trial transcript, Defendant appears to allege that
the substance of Ms. Williams’ “perjured” testimony was that Defendant
was her only roommate; Ms. Williams gave varying statements regarding
how long Defendant lived with her; and Ms. Williams testified
incorrectly regarding when she was evicted from her home. Defendant
claims these were not the only instances of perjury Ms. Williams
committed.
“A Giglio violation is demonstrated when (1) the
prosecutor presented or failed to correct false testimony; (2)
the prosecutor knew the testimony was false; and (3) the
false evidence was material. Once the first two prongs are
established, the false evidence is deemed material if there
is any reasonable possibility that it could have affected the
jury’s verdict. Under this standard, the State has the burden
Case No.: 5:17cvl8/MCR/EMT

Case 5:17-cv-00018-MCR-EMT Document 37 Filed 07/09/18 Page 116 of 153

Page 116 of 153

to prove that the false testimony was not material by
demonstrating it was harmless beyond a reasonable doubt.”
Davis v. State. 26 So. 3d 519, 532 (Fla. 2009) (citations omitted;
emphasis in original).
Initially, this claim appears to be facially insufficient as Defendant
has failed to allege there is a reasonable possibility that the alleged false
evidence could have affected the jury’s verdict. To the extent Defendant
claims there are other non-enumerated instances of perjury committed
by Ms. Williams, these allegations are also facially insufficient for lack
of specificity. The Court questions whether all of the testimony in
question can even be identified as false, but even assuming the State
knew the testimony was false and failed to correct such, the “false”
evidence alleged could not have possibly affected the jury s verdict in
this case. Defendant has failed to demonstrate a Giglio violation has
occured and he is not entitled to relief as to this claim.
(Ex. J at 931-32). The First DCA affirmed the decision without written opinion (Ex.
U).
It again appears that the state court used a different materiality standard than the
Supreme Court. The state court used an “any reasonable possibility” standard,
whereas the Supreme Court uses an “any reasonable likelihood” standard. It thus
appears that Petitioner has satisfied § 2254(d)(1).
Nevertheless, upon de novo review of Petitioner’s Giglio claim, the undersigned
concludes that Petitioner has failed to show he is entitled to relief. With respect to
Stacy Williams’ testimony, Petitioner has failed to show that there is any reasonable

Case No.: 5:17cvl8/MCR/EMT

Case 5:17-cv-00018-MCR-EMT Document 37 Filed 07/09/18 Page 117 of 153

Page 117 of 153

likelihood the jury’s verdict was affected by it. As previously discussed in the court’s
consideration of Petitioner’s other grounds for relief, defense counsel destroyed Ms.
Williams’ credibility on cross-examination, which culminated in Williams’ admission
that she provided false sworn statements to law enforcement and to the court regarding
the molestation charge. There is no reasonable likelihood that the jury relied upon any
of her testimony in finding Petitioner guilty of the molestation.
With respect to Petitioner’s Giglio violation related to Michelle Zebracki’s
testimony, Petitioner alleges Ms. Zebracki committed perjury by testifying that the
victim told her about the molestation after the victim told Charlotte Williams, the
victim’s grandmother (ECF No. 17 at 55-56). Petitioner alleges the falsity of Ms.
Zebracki’s testimony is evidenced by DCF records dated November 25,2011, which
document a DCF investigator’s interview with Ms. Zebracki, Jerry Weekley, and
Charlotte Williams (see Ex. J at 896-97). The investigator’s narrative states, in
relevant part:
CPI [Child Protective Investigator] walked into the back room and Jerry
Weekley and his fiancee Ms. Zebracki were in the room. Jerry said she
was having contractions and she may have to go to the hospital. Ms.
Zebracki said she is 26 weeks along. CPI asked them about [the victim]
being molested and Ms. Zebracki said [the victim] told her about the
abuse she thinks on Monday. She told the mother and the mother told
her she was a liar.

Case No.: 5:17cvl8/MCR/EMT

Case 5:17-cv-00018-MCR-EMT Document 37 Filed 07/09/18 Page 118 of 153

Page 118 of 153

FF [face-to-face interview]/W/Charlotte Williams and she said no one
told her [the victim] had been molested. [The victim] has been staying
with them and her mother has them for visitation. Ms. Williams was
very difficult to talk to as she was staring off into space.
(Ex. J at 896-97).
Petitioner additionally alleges Michelle Zebracki testified that the allegation
“came Out” in July, August, and September of 2011. Petitioner alleges the falsity of
this testimony is demonstrated by DCF records dated November 25, 2011, in which
the investigator indicated that Ms. Zebracki stated that the allegation “came out she
thinks” the previous Monday, November 21, 2011 (ECF No. 17 at 56). Petitioner
additionally alleges CPT records stated that Jerry Weekley, Ms. Zebracki’s fiance,
told CPT Case Coordinator Leilani Mason that the victim told Ms. Zebracki about the
molestation on November 21,2011 {id.; see also Ex. V at 99-101). Petitioner alleges
both the State and defense counsel was aware of this “perjury” {id.).
The trial transcript shows that Ms. Zebracki’s testimony was the following, in
relevant part:
Q [by the prosecutor]. Back in November of—thereabouts
November 2011, did [the victim] make some statements to you regarding
Joseph Savicki?
A. Yes, ma’am.
Q. Where were these statements made?
Case No.: 5:17cvl8/MCR/EMT

Case 5:17-cv-00018-MCR-EMT Document 37 Filed 07/09/18 Page 119 of 153

Page 119 of 153

A. At her grandmother’s house where I’m a resident at.
Q. And at some pont did [the victim] come to live there?
A. She got with us September 5th of 2011.
Q. Now, when—where were you when [the victim] made these
statements to you?
A. I was outside at first. She told the grandmother Charlotte
Williams first.
Q. And then how did you come to hear the statements?
A. The grandmother was giving her a bath and she told her
grandmother what Joe had supposedly done to her, and then the
grandmother, I was outside smoking and she came out back and got me
and brought me to [the victim].
Q. What statements did [the victim] make to you?
A. I asked [the victim] to tell me what she told her grandmother,
and she told me that—she was still living with her mother at that time
and she told—
Q. Can you tell me what [the victim] told you?
A. [The victim] told me that they were in the bedroom, that they
were under—that Joseph had put the covers over both of them. He
unzipped his pants, took [the victim’s] hand and put it on his privates and
made her hand go up and down.
Q. Did she demonstrate with her hand?
A. Oh, yes, ma’am.

Case No.: 5:17cvl8/MCR/EMT

Case 5:17-cv-00018-MCR-EMT Document 37 Filed 07/09/18 Page 120 of 153

Page 120 of 153

Q. What did she demonstrate?
A. She put her hands like this and did like the movement as you—
Q. Do you remember what day that was?
A. That she told me?
Q. Yes.
A. No, I do not.
Q. What did you do? Did you share that information with your
boyfriend?
A. Yes, I did. I came in and told him what [the victim] told me.
Q. And at some point did you share that information with the
mother?
A. Oh, yes, plenty of times.
Q. Were you present at Stacy’s house when law enforcement
responded there after she had called?
A. Yes.
Q. Did you go to the police station and give a written statement?
A. Yes.
Q. And was everything that you put in your written statement the
truth?
A. Yes.

Case No.: 5:17cvl8/MCR/EMT

Case 5:17-cv-00018-MCR-EMT Document 37 Filed 07/09/18 Page 121 of 153

Page 121 of 153

(Ex. Bat 153-58).
On cross-examination, Ms. Zebracki testified as follows:
Q [by defense counsel]. Had you told [Stacy] Williams about the
allegations that [the victim] had made before the Thanksgiving holiday?
A. Yes, sir.
Q. Do you happen to recall—I realize we’re talking about
2011—what day of the week that [the victim] went back to her mother’s
house?
A. Oh, I have—I know it was like the day before Thanksgiving.
Q. The day before Thanksgiving?
A. Yes.
Q. But at the time that [the victim] went back to spend
Thanksgiving with her mother, [Stacy] Williams had already been
notified of the allegations that [the victim] had made?
A. Yes, sir.
Q. Did she give you any idea of when this was supposed to have
occurred?
A. No.
Q. Did you ask her when it had occurred?
A. Not that I recall, not sure.
Q. Was she—but when she told you the story, she didn’t say a
week ago or two weeks ago or yesterday?
Case No.: 5:17cvl8/MCR/EMT

Case 5:17-cv-00018-MCR-EMT Document 37 Filed 07/09/18 Page 122 of 153

Page 122 of 153

A. No.
Q. How long did you wait to tell [Stacy] Williams about these
allegations when they came out?
A. I called her that exact same day.
Q. And, again, I realize we’re talking about 2011. Can you give
me an approximation about how long before the Thanksgiving holiday
was it that you had called her by the best of your recollection, and if you
don’t remember, that’s fine.
A. Somewhere in July and August because she started staying
with us September the 5th so I think it was some time in July and August
area. I’m not a hundred percent sure.
Q. To the best of your recollection, [Stacy] Williams took no
action whatsoever between July and August and November?
A. No.
(Ex. Bat 159-61).
Defense counsel presented testimony of Jerry Weekley. He testified as follows:
Q. Did [the victim] ever tell you about any allegations against Mr.
Joseph Savicki?
A. Yes, sir.
Q. When did she tell you?
A. I’m not sure of the month. She said it was, like, September,
October, somewhere in there.
Q. When you were told that, what did you do?
Case NO.: 5:17cvl8/MCR/EMT

Case 5:17-cv-00018-MCR-EMT Document 37 Filed 07/09/18 Page 123 of 153

Page 123 of 153

A. My first reaction, I called my sister up and told her what [the
victim] just told me.
Q. I am asking you specifically, did you immediately call her?
A. I immediately called her.
Q. And was that prior to Thanksgiving in 2011?
A. That was before Thanksgiving.
Q. A significant amount of time before?
A. Yes, sir.
(Ex. B at 188).
As previously discussed, a Giglio violation “exists ‘when the undisclosed
evidence demonstrates that the prosecution’s case included perjured testimony and
that the prosecution knew, or should have known, of the perjury.’” Trepal v. Sec’v.
Fla. Dep’t of Corr,. 684F.3d 1088,1107 (11th Cir. 2012) (quoting Ventura. 419F.3d
at 1276-77) (emphasis added). Here, Petitioner does not allege that evidence of
Zebracki’s “perjury” (e.g., the DCF and CPT investigative documents) was
undisclosed to the defense prior to trial. Indeed, Petitioner admits that Ms. Zebracki
“committed perjury known by both the State and counsel” (ECF No. 17 at 56).
Therefore, Petitioner failed to show a Giglio violation. See Ward v. Hall. 592 F.3d
1144, 1183 (11th Cir. 2010) (there is no suppression of evidence if the defendant
Case No.: 5:17cvl8/MCR/EMT

Case 5:17-cv-00018-MCR-EMT Document 37 Filed 07/09/18 Page 124 of 153

Page 124 of 153

knows of the information or had equal access to obtaining it); Hammond v. Hall, 586
F.3d 1289, 1309 (11th Cir. 2009) (Giglio claim fails because information not
suppressed).9
Additionally, Petitioner has not shown that the allegedly false testimony was
given with “willful intent” and “not as a result of mistake, confusion, or faulty
memory.” See McNair. 605 F.3d at 1208.
Moreover, the jury was aware of the inconsistency in Ms. Zebracki’s testimony
with respect to when the victim told her about the molestation. At the very beginning
of Ms. Zebracki’s testimony, she testified that in November of201_l

. the victim made^7*-*2-'^**-'^

statements to her about the molestation. Yet on cross-examination, Ms. Zebracki
------------------------ —

stated that she told the victim’s mother about the victim’s disclosure “somewhere in
July and August.” Since the jury was aware of the inconsistency, there is no
reasonable likelihood that the allegedly false testimony could have affected the
judgment of the jury.
Petitioner failed to demonstrate he is entitled to federal habeas relief on Ground
Ten.

9 When a federal habeas court reviews a Giglio claim de novo, the petitioner has the burden
of showing that there is a reasonable likelihood that the false testimony could have affected the
jury’s verdict. See Trepal. 684 F.3d at 1108.
Case No.: 5:17cvl8/MCR7EMT

/■&

‘b-fcreme/i-n

Case 5:17-cv-00018-MCR-EMT Document 37 Filed 07/09/18 Page 125 of 153

Page 125 of 153

I.
Ground Eleven: “Florida Statute § 800.04.5b. under which Petitioner
was charged, is un-constitutional [sic], as it renders the Petitioner guilty until
proven innocent.”
■
Petitioner alleges the statute under which he was charged violates the Fifth and
Fourteenth Amendments, because it places the burden of proof upon the defendant
(ECF No. 17 at 59-61). Petitioner alleges the only direct evidence of his guilt was the
victim ’ s testimony, but her testimony was less detailed than, and inconsistent with, her
original pre-trial allegation, which was admitted at trial through the victim’s hearsay
statements (id). Petitioner alleges “the presumption of innocence was overcome by
the allegation before trial, and Petitioner absolutely had to put on a defense to prove
by a preponderance of the evidence that he was innocent” (id. at 61).
Petitioner concedes he did not exhaust his state court remedies with respect to
this claim (ECF No. 17 at 61-62). He claims that there are no available state court
remedies to adequately present this issue (id.).
Respondent asserts an exhaustion defense (ECF No. 27 at 53-57). Respondent
contends notwithstanding the failure to exhaust, the claim is without merit, because
Florida Statute § 800.04(5)(b) does not shift the burden of proof to the defendant (id.
at 57-58).

Case No.: 5:17cvl8/MCR/EMT

Case 5:17-cv-00018-MCR-EMT Document 37 Filed 07/09/18 Page 126 of 153

Page 126 of 153

In Petitioner’s reply, he argues he that the cause of his failure to present the
issue in his Rule 3.850 motion was ineffective assistance of post-conviction counsel
(see ECF No. 32 at 73). Therefore, he is entitled to federal review of his claim under
Martinez v. Rvan. 566 U.S. 1 (2012). Petitioner additionally argues that the court’s
failure to consider his claim on federal habeas will result in a fundamental miscarriage
of justice (id. at 73-75).
The Eleventh Circuit has held that Martinez applies only to claims of ineffective
assistance of trial counsel that are otherwise procedurally barred. See Gore v. Crews,
720 F.3d 811, 816 (11th Cir. 2013). Here, Petitioner’s claim is a challenge to the
constitutionality of the statute under which he was charged and convicted. Therefore,
Martinez is inapplicable to this claim.
Moreover, notwithstanding Petitioner’s failure to exhaust, his claim is without
merit. The statute under which Petitioner was charged provides:
(a) A person who intentionally touches in a lewd or lascivious manner
the breasts, genitals, genital area, or buttocks, or the clothing covering
them, of a person less than 16 years of age, or forces or entices a person
under 16 years of age to so touch the perpetrator, commits lewd or
lascivious molestation.
(b) An offender 18 years of age or older who commits lewd or lascivious
molestation against a victim less than 12 years of age commits a life
felony, punishable as provided in s. 775.082(3)(a)4.

Case No.: 5:17cvl8/MCR/EMT

Case 5:17-cv-00018-MCR-EMT Document 37 Filed 07/09/18 Page 127 of 153

Page 127 of 153

Fla. Stat. § 800.04(5).(a)-{b). The statute does not relieve the State of its burden to
prove each of the elements of the offense beyond a reasonable doubt, nor does it place
upon the defendant the burden to present evidence or prove anything. Indeed, the jury
in Petitioner’s case was instructed as follows, in relevant part:
To prove the crime of lewd or lascivious molestation, the state must
prove the following three elements beyond a reasonable doubt.
Number one, PW was less than 12 years of age. Number two,
Joseph Glen Savicki intentionally forced or enticed PW to touch the
genitals of Joseph Glen Savicki. Number three, Joseph Glen Savicki was
18 years of age or older at the time of the offense.
The defendant has entered a plea of not guilty. This means that
you must presume or believe the defendant is innocent.
The presumption stays with the defendant as to each material
allegation in the Information, that’s the charging document, through each
stage of the trial unless it has been overcome by the evidence to the
exclusion of and beyond a reasonable doubt.
To overcome the defendant’s presumption of innocence, the state
has the burden of proving the crime with which the defendant is charged
was committed, and the defendant is the person who committed the
crime.
The defendant is not required to present evidence or prove
anything.
The Constitution requires the state to prove its accusations against
the defendant. It is not necessary for the defendant to disapprove
anything. Nor is the defendant required to prove his innocence. It is up
to the state to prove the defendant’s guilt by evidence.
Case No.: 5:17cvl8/MCR/EMT

Case 5:17-cv-00018-MCR-EMT Document 37 Filed 07/09/18 Page 128 of 153

Page 128 of 153

(Ex. C at 239-^43) (emphasis added).
Petitioner has failed to show that the statute under which he was charged and
convicted placed the burden upon him to demonstrate his innocence. Therefore,
Petitioner is not entitled to federal habeas relief on Ground Eleven.
Ground Twelve: “Newlv discovered evidence that affects two issues of
J.
ineffective assistance of counsel, and a Bradv violation”
Petitioner alleges that on March 30, 2017, he discovered that James Dean
Dickerson was arrested on November 7, 2011, and charged in the Escambia County
Circuit Court with six counts of lewd and lascivious behavior and multiple counts of
contributing to the delinquency of a minor; and that Dickerson was convicted of on
one of the lewd and lascivious behavior counts (ECF No. 17 at 62-68). Petitioner
alleges this “newly discovered evidence” supports two IATC claims: (1) trial counsel
was ineffective for failing to investigate, prepare, and introduce evidence that James
Dean Dickerson could have committed the sexual molestation of the victim; and (2)
trial counsel was ineffective for failing to inform Petitioner of the availability of this
evidence, which affected Petitioner’s choice of the defense theory and his decision not
to testify. Petitioner alleges this “newly discovered evidence” also supports a Brady
claim, i.e., that the State failed to disclose James Dean Dickerson’s charges and
conviction {id.). Petitioner states he presented this “newly discovered evidence” claim
Case No.: 5:17cvl8/MCR/EMT

Case 5:17-cv-00018-MCR-EMT Document 37 Filed 07/09/18 Page 129 of 153

Page 129 of 153

to the state courts in his amended third successive Rule 3.850 motion (id. at 70).
Petitioner contends the state court’s adjudication of the claim is unreasonable (see
ECFNo. 32 at 78, 80-82).
Respondent concedes Petitioner’s claim is technically exhausted by procedural
bar (ECF No. 27 at 58-63). Respondent contends Petitioner presented claims of
“newly discovered evidence” to the state courts in his first, second, and third
successive Rule 3.850 motions, but in each instance, the state court determined that
the alleged new evidence did not qualify as “newly discovered evidence” for purposes
of Rule 3.850(b)( 1); therefore, Petitioner failed to satisfy the exception to the two-year
limitations period under that provision (id). Respondent contends the state court’s
rejection of the “newly discovered evidence” claim asserted in Ground Twelve is
entitled to deference (id at 59-63).
In Petitioner’s amended third successive Rule 3.850 motion, he argued that he
was innocent of the crime, and that “newly discovered evidence” would show that his
trial counsel was ineffective and that the State knowingly withheld exculpatory
evidence from the defense (Ex. DD at 944-63). Petitioner alleged that the “newly
discovered evidence” was evidence that on November 4,2011, James Dean Dickerson
was charged in Escambia County, Florida, with six counts of lewd and lascivious

Case No.: 5:17cvl8/MCR/EMT

Case 5:17-cv-00018-MCR-EMT Document 37 Filed 07/09/18 Page 130 of 153

Page 130 of 153

behavior on a different victim, and on August 21, 2012, Dickerson pleaded guilty to
one of the charges (id.). Petitioner alleged that on August 28, 2011, Dickerson “had
been caught kissing the Defendant’s AV [alleged victim] while she was asleep on the
couch in the living room in the same apartment where the allegation against the
Defendant is to have taken place” (id. at 948). Petitioner alleged he was unaware of
Mr. Dickerson’s charges until March 30,2017, when his mother conducted a Google
search and discovered that Dickerson was a registered sex offender (id.).
Petitioner alleged that his trial counsel, Attorney Weekley, admitted he did not
investigate Mr. Dickerson as the possible perpetrator in Petitioner’s case (Ex. DD at
948). Petitioner alleged that one of the DCF reports showed that the child protective
investigator questioned Stacy Williams about “James, and Ms. Williams stated that
James had kissed the victim and the police knew about it (id. at 950). Petitioner
alleged that the same DCF report showed that Petitioner told the investigator about the
kissing incident, and Petitioner told the investigator that the victim must be referring
to James” in her allegation of molestation (id.). Petitioner alleged that in one of the
State’s discovery exhibits, titled “Investigative Summary,” the DCF investigator
provided details of the kissing incident with Mr. Dickerson (id. at 951). Petitioner
alleges he also referenced the incident in his written statement to police (id.).

Case No.: 5:17cv 18/MCR/EMT

Case 5:17-cv-00018-MCR-EMT Document 37 Filed 07/09/18 Page 131 of 153

Page 131 of 153

As one of the exhibits to the amended third successive Rule 3.850 motion,
Petitioner submitted the Amended Discovery Exhibit in which the State provided DCF
Chronological Notes Reports to the defense on October 3,2012 (Ex. DD at 973-82).
The DCF report includes notes from the investigator’s contact with Stacy Williams
on December 7, 2011. The notes include the following:
CPI [child protective investigator] asked her [Stacy Williams] about a
guy named James and she said he was a friend of a friend and he kissed
[the victim.] she has no idea why he did it but it was reported to Milton
PD and they will know the guys [sic] name.
(Ex. DD at 979).
The report also includes notes from the DCF investigator’s contact with the
victim, on December 7, 2011. The notes include the following:
CPI asked her [the victim] if anyone lived with her mother [Stacy
Williams] and she said just Joe. CPI asked if she knew anyone named
James and she said she did not. She asked if it was a white guy or a
black guy and CPI said a white guy. She said she doesn’t know anyone
named James and no one has done anything to her other than Joe.
(Ex. DD at 980-81).
Petitioner claimed that the “newly discovered evidence” of James Dickerson’s
arrest and conviction supported two claims of IATC: (1) counsel failed to investigate,
prepare, and introduce evidence that James Dean Dickerson could have committed the
offense; and (2) counsel failed to inform Petitioner of the availability of the defense
Case No.: 5:17cvl8/MCR/EMT

Case 5:17-cv-00018-MCR-EMT Document 37 Filed 07/09/18 Page 132 of 153

Page 132 of 153

theory that Dickerson could have committed the sexual molestation, which affected
Petitioner’s choice of defense theory and his decision not to testify (Ex. DD at
952—60). Petitioner also claimed that this “newly discovered evidence supported a
Bradv claim (id. at 951, 960-61). Petitioner alleged that the State knew that Mr.
Dickerson’s charges in Escambia County “tend[ed] to negate Petitioner s guilt (id.).
Petitioner alleged the State “had direct control over the charges and prosecution of Mr.
Dickerson” but never disclosed the existence of Dickerson’s charges (id.).
The state court adjudicated the motion as follows:
In his third successive motion, Defendant brings a claim of newly
discovered evidence based on his discovery of a roommate’s conviction
of lewd and lascivious molestation and a£ra<iy[FN 1] violation based on
the newly discovered evidence. In his amended 3rd successive motion,
Defendant adds two claims of ineffective assistance of counsel based on
newly discovered evidence related to his discovery of the roommate s
conviction. He claims that trial counsel was ineffective for failing to
investigate, discover, and present this information at his trial to argue
that the roommate molested the victim. Defendant also claims that trial
counsel’s advice regarding whether he should testify at trial was
deficient and rendered him “completely uninformed.” After reviewing
the motion, the record, and the applicable law, the Court finds that
Defendant is not entitled to relief.
[FN 1: Brady v. Maryland, 373 U.S. 83 (1963).
NFWEY DISCOVERED EVIDENCE
Defendant filed his third successive motion for postconviction
relief (and subsequent amended motion) more than two years after his
Case No.: 5:17cvl8/MCR/EMT

Case 5:17-cv-00018-MCR-EMT Document 37 Filed 07/09/18 Page 133 of 153

Page 133 of 153

judgment and sentence became final;[FN 2] therefore, his motion may
only proceed under one of the exceptions outlined in Fla. R. Crim. P.
3.850(b). Defendant relies on Fla. R. Crim. P. 3.850(b)(1), namely the
exception regarding newly“discovered evidence. TcTdeem evidence
newly discovered, the asserted facts upon which the evidence is based
“must have been unknown by the trial court, by the party, or by counsel
at the time of trial, and it must appear that defendant or his counsel could
not have known them by the use of diligence.” Jones v. State, 591 So.
2d 911, 916 (Fla. 1991) (citing Hallman v. State, 371 So. 2d 482, 485
(Fla. 1979)). Additionally, “the newly discovered evidence must be of
such nature that it would probably produce an acquittal on retrial.” Id.
at 915 (emphasis omitted).
[FN 2: Savicki v. State, 1D13-2951 (Fla. 1st DCA June 2,
2014).]
Defendant alleges that he recently discovered that James Dean
Dickerson, one of the roommates at the house in which Defendant and
the victim were residing at the time of his arrest, had been convicted of
lewd and lascivious molestation in Escambia County on August 21,
2012. Defendant alleges that he could not have discovered Mr.
Dickerson’s conviction because he does not have internet access in
prison and must rely on others to help him. Defendant asserts that he
was unaware of this information until his mother discovered it via a
Google search on March 30,2017 and that this motion is filed within two
years of discovering the information. He avers that he exercised due
diligence by informing trial counsel prior to trial of an incident between
the victim and Mr. Dickerson in which he caught Mr. Dickerson kissing
the victim “like a man kisses a woman,” and he relied on trial counsel to
investigate Mr. Dickerson. Defendant contends that trial counsel could
have used this information to argue that Mr. Dickerson had molested the
victim.
Contrary to Defendant’s allegations, information regarding Mr.
Dickerson’s August 2012 conviction was available prior to Defendant’s
trial on May 23, 2013, and could have been discovered at the time of
Case No.: 5:17cvl8/MCR/EMT

Case 5:17-cv-000l8-MCR-EMT Document 37 Filed 07/09/18 Page 134 of 153

Page 134 of 153

trial, or within two years of his judgment and sentence. Thus, Mr.
Dickerson’s conviction is not newly discovered evidence. See Lamb v.
State, 212 So. 3d 1108,1111 (Fla. 5th DCA 2017) (determining that the
victim’s criminal conviction could have been obtained within two years
of the judgment and sentence of the defendant and thus did not constitute
newly discovered evidence).
In addition, the newly discovered evidence must have been
unknown and not discoverable by due diligence by Defendant or his trial
counsel. “[T]he facts on which the claim is predicated were unknown
to the movant or the movant’s attorney and could not have been
ascertained by the exercise of due diligence . . . .” Fla. R. Crim. P.
3.850(b)(1) (emphasis added). Defendant’s trial counsel could have
discovered Mr. Dickerson’s conviction with due diligence had that
information been pertinent to Defendant’s theory of defense. At the
evidentiary hearing on Defendant’s initial motion for postconviction
relief, trial counsel testified that there were several alternative theories
to Defendant’s case, namely, blaming Mr. Dickerson, arguing that the
allegations were fabricated, and attacking the credibility of the victim
and her mother.[FN 3] Trial counsel testified that they rejected the
theory of blaming Mr. Dickerson because the allegation against Mr.
Dickerson was different from the allegation against Defendant. [FN 4]
Even though trial counsel chose not to pursue the theory of blaming Mr.
Dickerson, trial counsel had the capacity to discover Mr. Dickerson’s
conviction, and thus, Defendant’s discovery of Mr. Dickerson s
conviction is not newly discovered evidence.
[FN 3: Exhibit A, Tr. 22.]
[FN 4: Id.\
Secondly, in order for evidence to be deemed newly discovered,
the evidence must be of a nature that it would probably result in the
acquittal of Defendant on retrial, Evidence of Mr. Dickerson’s
conviction, if admissible at trial, would merely support the theory that he
molested the victim rather than Defendant, as discussed in the Court’s
Case No.: 5:17cvl8/MCR/EMT

Case 5:17-cv-00018-MCR-EMT Document 37 Filed 07/09/18 Page 135 of 153

Page 135 of 153

order on Defendant’s initial motion for-postconviction relief.[FN 5]
Trial counsel testified that, after consideration, they elected not to pursue
this theory. In fact, at the evidentiary hearing, trial counsel testified that
the theory that Defendant chose, which was to attack the credibility of
the victim and her mother, was the best theory of defense given the facts
of the case.” Based on the record, the Court does not conclude that
introducing evidence of Mr. Dickerson’s conviction of inappropriate
contact with a different victim would result in an acquittal on retrial.
Consequently, the Court finds that Mr. Dickerson’s conviction does not
qualify as newly discovered evidence, and Defendant’s motion is
untimely.[FN 7] Fla. R. Crim. P. 3.850(b).
[FN 5: Exhibit B, Order Den. Def.’s Pro Se Second Am.
Mot. for Postconviction Relief (without exhibits) 22-23]
[FN 6: Exhibit A, Tr. 39.]
[FN 7: As the motion is untimely, the Court will not
consider Defendant’s claims of ineffective assistance of
counsel based on the discovery of Mr. Dickerson’s
conviction in Escambia County. In addition, the Court
would note that it is illogical for trial counsel to have
rendered ineffective assistance of counsel based on newly
discovered evidence as a claim of newly discovered
evidence requires trial counsel to have been unaware of the
information and unable to discover the information with
due diligence.]
BRAD Y VIOLATION
To establish a Brady violation, a defendant must allege facts that
demonstrate that “(1) the State possessed evidence favorable to the
accused because it was either exculpatory or impeaching; (2) the State
willfully or inadvertently suppressed the evidence; and (3) the defendant
was prejudiced.v. State, 854 So. 2d 1255,1259 (Fla. 2003) (citing
Strickler v. Greene, 527 U.S. 263, 281-82 (1999)). To establish
Case No.: 5:17cvl8/MCR/EMT

Case 5.17-CV-00018-MCR-EMT Document 37 Filed 07/09/18 Page 136 of 153

Page 136 of 153

prejudice, a defendant must demonstrate that the evidence was material
by showing that the results of the proceeding would have been different
if the evidence had been disclosed to the defense. Id. at 1260 (citing
Strickler, 527 U.S. at 280).
Defendant argues that the evidence of Mr. Dickerson’s conviction
in Escambia County was exculpatory because it could have given the
jury reasonable doubt as to whether Defendant or Mr. Dickerson
molested the victim. He claims that the evidence was suppressed by the
State because the State had prosecuted Mr. Dickerson in Escambia
County, and he states that he made the State aware of the “kissing
incident” on October 24,2014, when he filed his second amended 3.850
motion for postconviction relief and again on August 18, 2015, during
the evidentiary hearing on his motion. Defendant also argues that the
State was aware of the “kissing incident” through the activities of the
Milton Police Department, which processed the complaint made by
Defendant regarding the “kissing incident.” Finally, Defendant claims
that he was prejudiced because trial counsel could have argued that Mr.
Dickerson could have molested the victim during the kissing incident
or that the victim’s mother or Mr. Dickerson himself manipulated her to
identify Defendant rather than Mr. Dickerson as the one who molested
her. In addition, he points out that trial counsel stated that evidence of
Mr. Dickerson’s conviction “would have been helpful” had they decided
on the defense theory of blaming Mr. Dickerson.
Defendant has failed to establish a Brady violation. Although the
State prosecuted Mr. Dickerson in Escambia County and would have
been aware of the “kissing incident” through the Milton Police
Department as Defendant alleges in his motion, Defendant has made no
showing that the State was aware of any significance of Mr. Dickerson’s
convictions in relation to his case until be raised the issue in his second
amended motion, filed on October 24,2014, more than one year after his
trial. Thus, Defendant has failed to show that the State possessed
exculpatory information that would have benefited [sic] the defense at
trial. Secondly, given the Court’s conclusion that the conviction could
have been discovered at the time of trial, the Court does not conclude
Case No.: 5:17cvl8/MCR/EMT

Case 5:17-cv-00018-MCR-EMT Document 37 Filed 07/09/18 Page 137 of 153

Page 137 of 153

that suppression occurred. In addition, Defendant has failed to show the
materiality of the evidence as “[t]he mere possibility that an item of
undisclosed information might have helped the defense, or might have
affectedlhe outcome ofthe trial, does not establish ‘materiality’ in the
constitutional sense.” U.S. v. Agurs, 427 U.S. 97, 109-10 (1976).
Consequently, the Court finds that this claim should be denied.
(Ex. DD at 985-91). The First DCA affirmed the decision without written opinion.
To the extent Petitioner challenges the state court’s adjudication of the merits
of his Bradv claim, for the reasons discussed supra in Ground Nine, Petitioner has
failed to establish a Brady violation with respect to the State’s alleged suppression of
information regarding Mr. Dickerson’s arrest and conviction. Therefore, Petitioner
is not entitled to habeas relief on his Bradv claim.
To the extent Petitioner seeks federal review of the merits of the two new IATC
claims (i.e., that trial counsel was ineffective for failing to investigate James Dean
Dickerson’s arrest and conviction, and failing to inform Petitioner of this information
so that he could make an informed decision as to the defense theory he wished to
pursue and whether or not he wished to testify at trial), the state court did not
adjudicate the merits of those claims. Indeed, the state court expressly stated, in a
footnote, that it would not consider the merits of Petitioner’s IATC claims, because
the claims were untimely {see Ex. DD at 988 n.7).

Case No.: 5:17cvl8/MCR/EMT

Case 5:17-cv-00018-MCR-EMT Document 37 Filed 07/09/18 Page 138 of 153

Page 138 of 153

“[I]f state-court remedies are no longer available because the prisoner failed to
comply with the deadline for seeking state-court review . . . those remedies are
technically exhausted,... but exhaustion in this sense does not automatically entitle
the habeas petitioner to litigate his or her claims in federal court. Instead, if the
petitioner procedurally defaulted those claims, the prisoner generally is barred from
asserting those claims in a federal habeas proceeding.” Woodford v. Ngo, 548 U.S.
81,93,126 S. Ct. 2378,165 L. Ed. 2d 368 (2006) (citations omitted); see also Camff
v. Moore. 269 F.3d 1245,1247 (11th Cir. 2001) (“[Cjlaims that have been held to be
procedurally defaulted under state law cannot be addressed by federal courts.”). A
claim is considered procedurally defaulted if it was presented in state court and
rejected on the independent and adequate state ground of procedural bar or default.
See Coleman v. Thompson. 501 U.S. 722,734—35 & n.l, 111 S. Ct. 2546,115 L. Ed.
2d 640 (1991). In such a case, a federal court must determine whether the last state
court rendering judgment clearly and expressly stated its judgment rested on a
procedural bar. Id.. A federal court is not required to honor a state s procedural
default ruling unless that ruling rests on adequate state grounds independent of the
federal question. See Harris v. Reed. 489 U.S. 255, 109 S. Ct. 1038, 103 L. Ed. 2d
308 (1989). The adequacy of a state procedural bar to the assertion of a federal

Case No.: 5:17cvl8/MCR/EMT

Case 5:17-cv-00018-MCR-EMT Document 37 Filed 07/09/18 Page 139 of 153

Page 139 of 153

question is itself a federal question. Lee v. Kemna. 534 U.S. 362,122 S. Ct. 877,151
L. Ed. 2d 820 (2002).
The Eleventh Circuit has set forth a three-part test to determine whether a state
court’s procedural ruling constitutes an independent and adequate state rule of
decision. Judd v. Haley. 250 F.3d 1308, 1313 (11th Cir. 2001). First, the last state
court rendering judgment must clearly and expressly state it is relying on state
procedural rules to resolve the federal claim. Id. Second, the state court’s decision
on the procedural issue must rest entirely on state law grounds and not be intertwined
with an interpretation of federal law. Id. Third, the state procedural rule must be
adequate. Id. The adequacy requirement has been interpreted to mean the rule must
be firmly established and regularly followed, that is, not applied in an arbitrary or
unprecedented fashion. Id.
Here, the first two parts of the Judd test are clearly satisfied. First, the state
court clearly and expressly stated that it would not consider Petitioner’s new IATC
claims, because Petitioner failed to show that they were based upon “newly discovered
evidence” and they were thus untimely under Rule 3.850(b)(1). Second, the state
court’s decision on the procedural issue rested entirely on state law grounds and was
not intertwined with an interpretation of federal law.

Case No.: 5:17cvl8/MCR/EMT

Case 5:17-cv-00018-MCR-EMT Document 37 Filed 07/09/18 Page 140 of 153

Page 140 of 153

Petitioner appears to argue that the third part of the Judd test is not satisfied,
because the state court applied Rule 3.850(b)(1) in an arbitrary fashion (see ECF No.
32 at 80-81). Citing Bailev v. State. 768 So. 2d 508 (Fla. 2d DCA 2000), Petitioner
argues that the state court arbitrarily determined that evidence of Mr. Dickerson’s
arrest and conviction was not “newly discovered” because Petitioner s trial counsel
could have discovered it with due diligence (id. at 80).
In Bailey, the trial court summarily denied Bailey’s Rule 3.850 motion as
untimely and not within one of the exceptions to the two-year time limit set out in
Rule 3.850(b)(1). 768 So. 2d at 509. Bailey alleged that through repeated discovery
requests he received Bradv material from the State that was not produced to his trial
attorney, and the documents attached to the Rule 3.850 motion supported this
contention. Id. This material consisted of a field interview report prepared by a
sheriffs deputy, several offense reports prepared by sheriffs deputies, and other
documents. Id. Bailey alleged that the information in those documents could have
been used to impeach a key witness against him, and that his attorney was ineffective
for failing to discover these documents. Id. The Second DCA noted that the fact that
the police reports were in existence at the time of the trial would usually foreclose
using these reports as newly discovered evidence to warrant an exception to the

Case No.: 5:17cvl8/MCR/EMT

Case 5:17-cv-00018-MCR-EMT Document 37 Filed 07/09/18 Page 141 of 153

Page 141 of 153

two-year time limit set forth in Rule 3.850(b)(1). Id. However, the court found the
case analogous to Porter v. State. 670 So. 2d 1126 (Fla. 2d DCA 1996), in which the
Second DCA found that a claim of ineffective assistance of counsel for failure to
discover certain police reports was facially sufficient even though.it was filed well
after the two-year time limit, because “the defendant ‘cannot be charged with
constructive knowledge of [the police report’s] availability since his ineffective
assistance claim assails counsel for failing to discover the evidence.’” Id. (quoting
Porter, 670 So. 2d at 1127). The Second DCA remanded the case to the trial court for
further proceedings. Id.
But the facts of Bailey and Porter are materially distinguishable from the facts
in Petitioner’s case, in that the evidence at issue in Petitioner’s case (i.e., evidence that
James Dean Dickerson was convicted of lewd and lascivious conduct in August of
2012) was publicallv available at the time of Petitioner’s trial and thereafter. Indeed,
Petitioner alleged, in his amended third successive Rule 3.850 motion, that his mother
discovered the information about Mr. Dickerson’s conviction by conducting a Google
search, which revealed that Mr. Dickerson was a sexual predator (Ex. DD at 947-49).
Thus Petitioner himself could have known of Mr. Dickerson’s conviction by the use
of diligence. See Porter v. State. 653 So. 2d 374, 378 (Fla. 1995) (claim that trial

Case No.: 5:17cvl8/MCR7EMT

Case 5:17-cv-00018-MCR-EMT Document 37 Filed 07/09/18 Page 142 of 153

Page 142 of 153

counsel had conflict of interest because counsel simultaneously represented petitioner
and key prosecution witness was not based upon newly discovered evidence, as was
necessary for it to be basis of successful post-conviction relief motion filed after
expiration of applicable time limits, as court records upon which claim was based
were public records continually available throughout all post-conviction relief
proceedings), called into doubt on other grounds by Wyatt v. State, 71 So. 3d 86,100
n.13 (Fla. 2011).
Information that Mr. Dickerson was a convicted sex offender, and the date of
his conviction, was continuously publicly available since 2012 through the Florida
Department of Law Enforcement. .See Fla. Stat. § 775.21(5)(a)2. (“An offender who
meets the sexual predator criteria described in paragraph (4)(a) who is before the court
for sentencing for a current offense committed on or after October 1,1993, is a sexual
predator, and the sentencing court must make a written finding at the time of
sentencing that the offender is a sexual predator, and the clerk of the court shall
transmit a copy of the order containing the written finding to the department [of law
enforcement] within 48 hours after the entry of the order.”); Fla. Stat. § 775.2 l(6)(b)
(“If the sexual predator is in the custody or control of, or under the supervision of, the
Department of Corrections,... the sexual predator shall register with the Department

Case No.: 5:17cvl8/MCR/EMT

Case 5:17-cv-00018-MCR-EMT Document 37 Filed 07/09/18 Page 143 of 153

Page 143 of 153

of Corrections.”); Fla. Stat. § 775.21(6)(k)l. (“The department [of law enforcement]
is responsible for the online maintenance of current information regarding each
registered sexual predator.”); Fla. Stat. § 775.2l(6)(k)2. (“The department’s sexual
predator registration list, containing the information described in subparagraph (a)l.,
is a public record,.... The department may disseminate this public information by
any means deemed appropriate, including operating a toll-free telephone number for
this purpose.). Additionally, the date and nature or Mr. Dickerson’s conviction
information was continuously publically available since 2012 from the Escambia
County Clerk of Court and the Florida Department of Corrections.
Moreover, according to public records of the Escambia County Clerk of Court,
Mr. Dickerson was charged with the lewd and lascivious conduct in Case No. 2011CF-005649, on December 16,2011. This was prior to Petitioner’s arrest on March 8,
2012. Because Petitioner himself could have discovered, with due diligence, evidence
of Mr. Dickerson’s arrest and conviction for lewd and lascivious conduct, Petitioner
failed to show that the state post-conviction court arbitrarily applied Rule 3.850(b)(1)
in determining that his amended third successive Rule 3.850 motion was untimely.
Therefore, this federal court must honor the state’s procedural default rule.

Case No.: 5:17cvl8/MCR/EMT

Case 5:17-cv-00018-MCR-EMT Document 37 Filed 07/09/18 Page 144 of 153

Page 144 of 153

To overcome a procedural default, the petitioner must show cause and prejudice
or a fundamental miscarriage of justice in order for the federal habeas court to reach
the merits of a claim. Coleman. 501 U.S. at 750. “For cause to exist, an external
impediment, whether it be governmental interference or the reasonable unavailability
of the factual basis for the claim, must have prevented petitioner from raising the
claim.” Mrrieskev v. Zant. 499 U.S. 467, 497, 111 S. Ct. 1454, 113 L. Ed. 2d 517
(1991) (quoting Murray v. Carrier. 477 U.S. 478,488,106 S. Ct. 2639, 91 L. Ed. 2d
397 (1986)).
As cause for the procedural default, Petitioner argues his post-conviction
counsel in the first Rule 3.850 proceeding (Mr. Early) was ineffective for failing to
investigate Mr. Dickerson’s arrest and conviction (ECF No. 32 at 82). Petitioner
contends this constitutes cause under Martinez v. Ryan, 566 U.S. 1 (2012).
Before its decision in Martinez, the Supreme Court had long held that § 2254
petitioners cannot rely on errors made by their state collateral counsel to establish
cause See Coleman. 501 U.S. at 752-53. Martinez created a limited, equitable
exception to Coleman where, (1) “a State requires a prisoner to raise an
ineffective-assistance-of-trial-counsel claim in a collateral proceeding,” as opposed
to on direct appeal; (2) “appointed counsel in the initial-review collateral proceeding,

Case No.: 5:17cvl8/MCR/EMT

Case 5:17-cv-00018-MCR-EMT Document 37 Filed 07/09/18 Page 145 of 153

Page 145 of 153

where the claim should have been raised, was ineffective under the standards of
Strickland [v. Washington. 466 U.S. 668 (1984)]”; and (3) “the underlying
ineffective-assistance-of-trial-counsel claim is a substantial one.” Martinez. 566 U.S.
at 14 (citations omitted).
In Petitioner’s first Rule 3.850 proceeding, where the two new IATC claims
should have been raised, Petitioner was initially appointed counsel (see Ex. I at
674-77, 682). However, at the beginning of the evidentiary hearing, Petitioner
insisted on representing himself even after the court explained some of the ways that
representation by counsel could be to Petitioner’s advantage, including that a lawyer
had fewer limitations and restrictions on researching Petitioner’s claims (see id. at
731-51). Moreover, as discussed supra, evidence of Mr. Dickerson’s arrest and
conviction was publicly available at the time Petitioner commenced the first Rule
3.850 proceeding on June 6,2014. Therefore, Petitioner has failed to demonstrate he
qualifies for de novo review of his IATC claims under the “cause and prejudice”
exception to the procedural bar.
Petitioner also contends he is entitled to a merits review of his two new IATC
claims under the “actual innocence” exception (see ECF No. 32 at 81-82). To satisfy
the miscarriage of justice exception, the petitioner must show that “a constitutional

Case No.: 5:17cvl8/MCR/EMT

Case 5:17-cv-00018-MCR-EMT Document 37 Filed 07/09/18 Page 146 of 153

Page ! 46 of 153

violation has probably resulted in the conviction of one who is actually innocent.”
Schlup v. Delo. 513 U.S. 298, 327, 115 S. Ct. 85, 130 L. Ed. 2d 808 (1995). “To
establish the requisite probability, the petitioner must show that it is more likely than
not that no reasonable juror would have convicted him.” Schlup, 513 U.S. at 327.
Further:
a substantial claim that constitutional error has caused the conviction of
an innocent person is extremely rare. To be credible, such a claim
requires [a] petitioner to support his allegations of constitutional error
with new reliable evidence—whether it be exculpatory scientific
evidence, trustworthy eyewitness accounts, or critical physical
evidence—that was not presented at trial.
Id.
Here, evidence that James Dean Dickerson was arrested on several counts of
lewd and lascivious conduct on a different victim during the same month that
Petitioner was arrested, and that Mr. Dickerson was convicted on one of the counts,
does not constitute reliable evidence that Petitioner did not place the victim s hand on
his bare penis and move her hand back and forth. Therefore, Petitioner failed to
demonstrate he is entitled to federal merits review of the two procedurally defaulted
IATC claims presented in Ground Twelve.
IV.

MOTION TO APPOINT COUNSEL AND FOR DISCOVERY

Case No.: 5:17cvl8/MCR/EMT

Case 5:17-cv-00018-MCR-EMT Document 37 Filed 07/09/18 Page 147 of 153

Page 147 of 153

As a final matter, the court will address Petitioner’s “Request for Discovery,
Appointment of Counsel, Funds for Investigator” (ECF No. 35) and “Amendment to
Request for Appointment of Counsel, Funds for Investigator, and Depositions be [sic]
Transcribed” (ECF No. 36). Petitioner requests that the court appoint counsel to
represent him, and allocate funds to hire an investigator and transcribe the pre-trial
depositions of Stacy Williams, Michelle Zebracki, and Jerry Weekley.
The appointment of counsel in civil cases is not a constitutional right; rather,
it is “a privilege that is justified only by exceptional circumstances, such as where the
facts and legal issues are so novel or complex as to require the assistance of a trained
practitioner.” Poole v. Lambert. 819 F.2d 1025, 1028 (11th Cir. 1987). This rule
extends to post-conviction proceedings. Pennsylvania v. Finley. 481 U.S. 551, 107
S. Ct. 1990, 95 L. Ed. 2d 539 (1987); Fowler v. Jones. 899 F.2d 1088 (11th Cir.
1990).
Additionally, although federal statutes bestow upon indigent state capital
defendants a mandatory right to counsel, state non-capital defendants have no
equivalent right to the appointment of counsel in federal habeas corpus proceedings.
See 18 U.S.C. § 3599(a)(2); see also McFarland v. Scott. 512 U.S. 849, 857 n.3, 114

Case No.: 5:17cvl8/MCR/EMT

Case 5:17-cv-00018-MCR-EMT Document 37 Filed 07/09/18 Page 148 of 153

Page 148 of 153

S. Ct. 2568, 129 L. Ed. 2d 666 (1994) (citing § 3599(a)(2)’s predecessor rule, 21
U.S.C. § 848(q)(4)(B)).
Federal courts do, however, have discretionary statutory authority to appoint
counsel to state non-capital defendants in habeas corpus actions. See 28 § 2254(h).
Further, the Criminal Justice Act (CJA), 18 U.S.C. § 3006A, provides in relevant part:
“Whenever the United States magistrate judge or the court determines that the
interests of justice so require, representation may be provided for any financially
eligible person who ... is seeking relief under section 2241, 2254, or 2255 of title
28.” 18 U.S.C. § 3006A(a)(2)(B).
The procedural rules governing § 2254 cases require the appointment of counsel
in two circumstances: (1) where the court has authorized discovery upon a showing
of good cause, and appointment of counsel is necessary for effective discovery, and
(2) where the court has determined that an evidentiary hearing is warranted. See Rules
6(a), 8(c), Rules Governing Section 2254 Cases.
As a practical matter, the Supreme Court’s decision in Cullen.v. Pinholster, 563
U.S. 170,131 S. Ct. 1388,179 L. Ed. 2d 557 (2011), places restrictions on discovery
and expansion of the record in federal habeas cases. In Pinholster, the Court made it
clear that, “[although state prisoners may sometimes submit new evidence in federal

Case No.: 5:17cvl8/MCR/EMT

Case 5:17-cv-00018-MCR-EMT Document 37 Filed 07/09/18 Page 149 of 153

Page 149 of 153

court, AEDPA’s statutory scheme is designed to strongly discourage them from doing
so.” 563 U.S. at 186. The Court addressed whether habeas review “under §
2254(d)(1) permits consideration of evidence introduced in an evidentiary hearing
before the federal court.” Id. at 181. The Court held that when the state court has
decided an issue on the merits, “review under § 2254(d)( 1) is limited to the record that
was before the state court that adjudicated the claim on the merits.” Id. Likewise,
based on the plain language in the statute itself, review under § 2254(d)(2) is limited
to “evidence presented in the State court proceeding.” 28 U.S.C. § 2254(d)(2);
Pinholster. 563 U.S. at 185 n.7.
“In cases where an applicant for federal habeas relief is not barred from
obtaining an evidentiary hearing by 28 U.S.C. § 2254(e)(2) [or Pinholster], the
decision to grant such a hearing rests in the discretion of the district court.” Schriro
v. Landriean. 550 U.S. 465,468,127 S. Ct. 1933, 167 L. Ed. 2d 836 (2007); see also
Rule 8, Rules Governing Section 2254 Cases. When deciding whether to grant a
hearing, the “court must consider whether such a hearing could enable an applicant
to prove the petition’s factual allegations,” taking into consideration the “deferential
standards prescribed by 28 U.S.C. § 2254.” Schriro. 550 U.S. at 474. An evidentiary

Case No.: 5:17cvl8/MCR/EMT

Case 5:17-cv-00018-MCR-EMT Document 37 Filed 07/09/18 Page 150 of 153

Page 150 of 153

hearing is not necessary if the issues can be resolved by reference to the record
developed in the state courts. Id.
While Pinholster addressed evidentiary hearings, district courts have found that
its linkage to discovery is unquestionably present. See, e.g., Butts v. Chatman, No.
5:13cvl94 (MTT), 2014 WL 185339, at *1 n.2 (M.D. Ga. Jan. 15, 2014)
(unpublished) (while Pinholster addressed only evidentiary hearings, there would be
no need for discovery if Pinholster barred the court from considering any newly
discovered evidence); Coddington v. Cullen, No. CIV-S-01-1290 KJM GGH DP,
2011 WL 2118855 (E.D. Cal. May 27, 2011) (unpublished) (explaining that “the
extent of permissible discovery in a habeas corpus action, seemingly once settled, has
been upset by the AEDPA ruling of... [Pinholster]”). After Pinholster, if the state
court decided a particular claim on the merits, this court is not authorized to hold an
evidentiary hearing in which new evidence is introduced to support that claim. Thus,
it would seem that obtaining discovery on that claim would be futile. Courts faced
with discovery requests post-Pinholster have explained:
[A]ny new evidence unearthed during discovery in federal court and
“later introduced in federal court is irrelevant to § 2254(d)(1) [and (2)]
review.” In other words, if the state trial court adjudicated . . .
[petitioner’s claims] on the merits, such that [petitioner must satisfy the
terms of § 2254(d), “good cause” does not exist for the discovery

Case No.: 5:17cvl8/MCR/EMT

Case 5:17-cv-00018-MCR-EMT Document 37 Filed 07/09/18 Page 151 of 153

Page 151 of 153

[petitioner seeks ... because this Court may look only to the state court
record in applying § 2254(d).
Hurst^"BrankeTr1s[o"l:lt):::CV-7257"2014^WIr21~49470~(M7D:N:CrJTrne"1“~20rrY
(unpublished) (quoting Pinholster. 131 S. Ct. at 1400).
With respect to Petitioner’s § 2254 claims that were adjudicated on the merits
in state court (i.e., Grounds Two though Eight, and one of the Bradv claims presented
in Ground Nine), the undersigned has concluded that Petitioner has not satisfied
§ 2254(d); therefore, neither discovery nor an evidentiary hearing is appropriate as to
those claims. With respect to Petitioner’s remaining claims, Petitioner has not shown
that further factual development would enable him to demonstrate entitlement to
relief. Therefore, Petitioner’s motions for appointment of counsel and discovery
should be denied.
V.

CERTIFICATE OF APPEALABILITY
Rule 11 (a) of the Rules Governing Section 2254 Cases in the United States

District Courts provides that “[t]he district court must issue or deny a certificate of
appealability when it enters a final order adverse to the applicant.” If a certificate is
issued “the court must state the specific issue or issues that satisfy the showing
required by 28 U.S.C. § 2253(c)(2).” 28 U.S.C. § 2254 Rule 11(a). A timely notice

Case No.: 5:17cvl8/MCR/EMT

Case 5:17-cv-00018-MCR-EMT Document 37 Filed 07/09/18 Page 152 of 153

Page 152 of 153

of appeal must still be filed, even if the court issues a certificate of appealability. 28
U.S.C. § 2254 Rule 11(b).
“Section 2253(c) permits the issuance of a COA only where a petitioner has
made a ‘substantial showing of the denial of a constitutional right.’” Miller-El v,
Cockrell. 537 U.S. 322, 336, 123 S. Ct. 1029, 154 L. Ed. 2d 931 (2003) (quoting
§ 2253(c)(2)). “At the COA stage, the only question is whether the applicant has
shown that ‘jurists of reason could disagree with the district court s resolution of his
constitutional claims or that jurists could conclude the issues presented are adequate
to deserve encouragement to proceed further.’” Buck v. Davis, 580 U.S.

, 137 S.Ct.

773 (2017) (citing Miller-El. 537 U.S.,at 327). Here, Petitioner cannot make that
showing. Therefore, the undersigned recommends that the district court deny a
certificate of appealability in its final order.
The second sentence of Rule 11(a) provides: “Before entering the final order,
the court may direct the parties to submit arguments on whether a certificate should
issue.” Thus, if there is an objection to this recommendation by either party, that party
may bring this argument to the attention of the district judge in the objections
permitted to this report and recommendation.
Accordingly, it is respectfully RECOMMENDED:

Case No.: 5:17cvl8/MCR/EMT

■A

.

Case 5:17-cv-00018-MCR-EMT Document 37 Filed 07/09/18 Page 153 of 153

e

Page 153 of 153

1.

That the amended petition for writ of habeas corpus (ECF No. 17) be

DENIED.
2.

That Petitioner’s “Request for Discovery, Appointment of Counsel,

Funds for Investigator” (ECF No. 35) and “Amendment to Request for Appointment
of Counsel, Funds for Investigator, and Depositions be [sic] Transcribed” (ECF No.
36) be DENIED.
3.

That a certificate of appealability be DENIED.

At Pensacola, Florida, this 9^ day of July 2018.

/s/ Elizabeth M. Timothy
ELIZABETH M. TIMOTHY
CHIEF UNITED STATES MAGISTRATE JUDGE
NOTICE TO THE PARTIES
Objections to these proposed findings and recommendations must be filed
within fourteen (14) days after being served a copy thereof. Any different
deadline that may appear on the electronic docket is for the court’s internal use
only, and does not control. A copy of objections shall be served upon all other
parties. If a party fails to object to the magistrate judge’s findings or
recommendations as to any particular claim or issue contained in a report and
recommendation, that party waives the right to challenge on appeal the district
court’s order based on the unobjected-to factual and legal conclusions. See 11th
Cir. Rule 3-1; 28 U.S.C. § 636.

Case No.: 5:17cvl8/MCR/EMT

r\
>

>

HMf.nAfx F

n

n

!

i

IN THE CIRCUIT COURT OF TIE FIRST JUDICIAL CIRCUIT
IN AND FOR SANTA ROS A COUNTY,
FLORIDA
:
c.->

STATE OF FLORIDA,

£5

£ &

)

5>

(TI

CO

Plaintiff/Respondent,

Case No.:

2012-Cpof,13 £
*-n

F
0
m c,>
'0 ~

vs.

—•s

JOSEPH GLEN SAVICKI,

n>

13
CD

zl CO

o m ^
o
^
3: ~ 'CT
“T3

% P

o o
r o

1— c: in
m
-2;
^ -H o

cd

Defendant/Petitioner.

r~\

^3

r"

.

ORDER DENYING DEFENDANT’S PRO l 'E SECOND AMENDED MOTION FOR
POSTCONVICTION RELIEF

THIS CAUSE comes before the Court upon Defendant’s pro se Second Amended
Motion for Postconviction Relief, filed October 2!1, 2014, pursuant to Rule 3.850, Florida Rules
of Criminal Procedure. A limited evidentiary heai ing was convened on August 18,2015, in
which Defendant and the State were both present. Having considered Defendant’s motion,
record, evidence adduced at evidentiary hearing, Defendant’s written closing arguments,1 and
4
relevant legal authority, the Court finds that Defer dant is not entitled to relief.

f
1

I

On May 23, 2013, Defendant was found guilty by jury of one count of lewd and
1

lascivious molestation (victim less than 12 years, offender over 18 years). The Court adjudged

1

The following documents were considered as Defendant’s written closing arguments: “Defendant’s Memorandum
of Law and Facts in Support of Defendant’s 3.850 Motion for Post-Conviction Relief,” filed August 26,2015;
“Defendant’s Supplement to Memorandum of Law and Facts,” filed September 22,2015; Defendant’s letter to the
court, filed November 4, 2015; and “Defendant’s Suppleme it to Exhibit A of Defendant’s 3.850 Motion for Post
Conviction Relief,”'filed December 1, 2015.
Page 1 of 33

Joseph Glen Savicki, Case N i. 2012-CF-0313____________________
Order Denying Defendant’s pro se Second A mended Motion for Postconviction Relief

!

Volume 5 902

1

n

n

Defendant guilty and sentenced him as a sexual piedator to 25 years in prison.2 Defendant
Il
appealed his judgment and sentence; however, Defendant’s appeal was dismissed by the First
District Court of Appeal on June 2, 2014.
On June 11, 2014, Defendant filed his original motion for postconviction relief. On June
23, 2014, Defendant’s motion was dismissed for f lilurej to contain a proper oath and for
noncompliance with the certification requirement pursuant to rule 3.850, Florida Rules of
|

Criminal Procedure. On July 2, 2014, Defendant iled his Amended Motion for Postconviction
i

Relief. Because Defendant’s amended motion was facially and/or legally insufficient, this Court

i

;

struck Defendant’s motion and granted Defendant leave to amend pursuant to Spera v. State. 971
So. 2d 754 (Fla. 2007).3 Defendant’s second ame ided motion is now before the Court for
consideration.
In the instant motion, Defendant alleges his counsel was ineffective by: 1) failing to
challenge out-of-court hearsay statements of the c lild; 2) failing to object to the Court’s failure
to find the child victim competent to testify witho it an bath as required by section 90.605(2),
Florida Statutes; 3) failing to object and move to suppress in-court identification; 4) presenting
and arguing “two mutually exclusive, incoherent theories of defense;” 5) failing to call,
interview, and present alibi witnesses; 6) failing tq call,, interview, and present material
!
witnesses; 7) failing to conduct “any” pre-trial investigation; and 8) advising Defendant not to

2 See Attachment 1, Judgment and Sentence, May 23,201i
3 See Attachment 2 “Order Striking Defendant’s Amended Motion for Postconviction Relief and Granting Leave to
Amend,” October s, 2014.
Page 2 ofS3

Joseph Glen Savicki. Case N x 2012-CF-0313
'Order Denying Defendant's pro se Second7 mended'Moiion foFPostconviction Relief
I

i

!
i

Volume 5 903

fn

n
i
I

testify. Defendant further alleges that the State: 9 committed a Giglio4 violation by introducing
perjured testimony; and 10) committed a Brady5 violation by failing to disclose impeachment
information.6 The Court will address each of Defendant’s allegations in turn.
As a general principle, to prevail on a claii a of ineffective assistance of counsel, a
I
defendant must demonstrate that: 1) counsel’s pei formance was deficient; and 2) there is a
reasonable probability that the outcome of the pro seeding would have been different had counsel

i

!.

not been deficient. See Torres-Arboleda v. Duggt r, 636 So. 2d 1321,1324 (Fla. 1994)
(construing Strickland v. Washington. 466 U.S. 668, 68j7, 694,104 S. Ct. 2052, 80 L. Ed. 2d 674
J

(1984)). “The |ikelihood of a different result mus: be substantial, not just conceivable.”
Harrington v. kichter. 131 S.Ct. 770, 792 (2011). Thus, there is a two-part inquiry: Counsel’s
performance and prejudice.
)

In reviewing counsel’s performance, the'court must be highly
deferential to counsel, and in asses ring the performance, every
effort must "be made to eliminate t le distorting effects of
hindsight, to reconstruct the circun [Stances of counsel’s challenged
conduct, and to evaluate the condu ;t from counsel’s perspective at
the time.”
Spencer v. State. 842 So. 2d 52, 61 (Fla. 2003) (quoting Strickland. 466 U.S. at 689).
Defendant bears the burden of showing that coun: el’s errors were "so serious that counsel was

4 Giglio v. United States. 405 U.S. 150, 153-54, 92 S.Ct. 7 53, 31 L. Ed. 2d 104 (1972).
5 Brady v. Maryland. 373 U.S. 83, 83 S. Ct. 1194,10 L. Ec. 2d 215 (1963).
6 Defendant also raises an additional claim pf ineffective™ ss of postconviction counsel in one of his pleadings filed
after evidentiary hearing. Claims of ineffective assistance of postconviction counsel are not cognizable in a motion
for postconviction relief. See Tompkins v. State. 994 So. 2i 11072| 1088 (Fla. 2008).
EageJ-jof-33. ----------------- Joseph-GlenSavickU-Case-N O.-2012-CP-0313--------- :--------- ---------—-------------Order Denying Defendant's pro se Seconds mended Motionfor Postconviction Relief
i

i

Volume 5 904

n

H
\

not functioning as the 'counsel' guaranteed the defendant by the Sixth Amendment.” Strickland.
466 U.S. at 687. There is a “wide range of profess ionally competent assistance” that passes this
:

constitutional muster. Bertolotti v. State. 534 So. [2d 38,6, 387 (Fla. 1988). Furthermore, there is
a “strong presumption that counsel has rendered a lequate assistance and made all significant
decisions in the exercise of reasonable profession aljudgment with the burden on claimant to
show otherwise." Blanco v. Wainwrieht. 507 So. 2d 1377, 1381 (Fla. 1987), quoted in
Bertolotti. 534 So. 2d at 387 (emphasis added).
Even if Defendant’s counsel fell below sue h standards, Defendant would not
automatically prevail. Defendant must also meet he prejudice prong of the Strickland test.7 For
Defendant to prevail on this point, he must demor strate that there is a "reasonable probability
that, but for the deficiency, the result of the proceeding would have been different." Spencer.
842 So. 2d at 61. Moreover, a court considering e claim of ineffective assistance of counsel need

l
1

not determine whether coiinsel’s performance was deficient when it is clear the alleged
deficiency was not prejudicial. See Torres-Arbol ;da. 636 So. 2d at 1324 (emphasis added). In
other words, Defendant must demonstrate a “prob ibility sufficient to undermine confidence in
the outcome." Spencer. 842 So. 2d at 61. With these principles in mind, the Court will address
Defendant’s ineffective assistance of counsel claims.

i

!

7 There is no prescribed sequence for the Strickland analyi is, but if a defendant does not carry his burden on one
prong, then the Court need not consider the other prong. §6 ickland. 466 U.S. at 697.
Pane 4 of33

Volume 5 905

___________ Joseph Glen Savickl Case Nr 2012-CF-03J3___________________________
Order Denying Defendant's fro se Second / mended Motionfor Postconviction Relief
!

n

n
i

counsel had challenged the child victim’s testimoiLy or objected to the Court’s failure to make a
finding regarding the child victim’s competency. Defendant basically alleges that counsel had
!

“nothing to lose” in objecting to the child victim’s competency which is not an allegation that
lends itself to finding it is “reasonably probable” i different result would have occurred.
Even if this claim were not facially insuffi dent, the record refutes Defendant’s claim.
Contrary to Defendant’s allegations, the Court did in fact find that the child victim was

t

competent to testify.21 Additionally, even though this claim was not set for evidentiary hearing,

i

counsel testified in response to Defendant’s quest; ons at evidentiary hearing that he did not
believe the child victim was incompetent. The Cc urt finds that the record supports counsel’s
opinion that the child victim was competent to tes :ify.22 Consequently, the Court finds there was
no valid basis for counsel to object to the child victim’s, testimony. The Court further finds that
if counsel had objected, the Court would have ove rruled the objection and the child victim would
have been permitted to testify. As the Court made i the finding that the child victim was
competent to testify, and because the record shows the child victim was competent,23 Defendant
has failed to demonstrate that counsel was deficie it or that Defendant was prejudiced.
!

Defendant is not entitled to relief as to this claim.
Claim Three — Failing to Object and Move to Suppress In-Court Identification
Defendaht next alleges that counsel failed to object and move to suppress the in-court

(L.

. %
21 See Attachment 3, Transcript, Jury Trial, May 23,2013, pp. 6^-66. See also Transcript, Evidentiary Hearing,
August 18, 2015, p. 75.
pp^23-25^78-95.— QVO
22 See Attachment 3, Transcript, Jury Trial, May 23,2013,
I

23 See Attachment 3, Transcript, Jury Trial, May 23,2013, pp. 23;-25; 78-95. See also Transcript Evidentiary
Hearing, August 18,2015, p. 72.
EageJ8-of33- ___________ JosephIjlen.Smicki.JZasB.Ji 7-2.0±2JZEJ)J±3
Order Denying Defendant's pro se Second / mended Motionfor Postconviction Relief

Volume 5 909

f

t

n

i

!D

I

identification. Defendant alleges that “counsel nude several issues about identification.”
'
j
Defendant further contends that neither Michelle Zebraeki nor Jerry Weekley (witnesses at trial)

1

!

knew Defendant; therefore they would not be ablej to testify whether Defendant was the “Joe” in
i

the allegation. Defendant further states that his adpearance had changed since the time of the
incident: he had lost weight, shaved off his goatee and mustache, and allowed his hair to grow
out where he had been bald previously. Defendant also!claims that counsel should have objected
!

to the State pointing to Defendant, describing the color of his shirt and then asking the child
victim to identify Defendant. Defendant claims tlat if counsel had succeeded in suppressing the

!

identification, it would haye raised reasonable dot bt as to Defendant’s identity as the perpetrator,
I

and the jury would have found Defendant not guil yDefendant has failed to allege a valid basis for counsel to have objected or moved to
suppress the imeourt identification of Defendant as the perpetrator of the crime. Initially, the
Court notes that neither Michelle Zebraeki24 nor J jrry Weekley25 was asked to identify
Defendant in-court, most likely for the reason cite 1 by Defendant: neither Michelle Zebraeki nor
i

Jerry Weekley knew Defendant. Defendant admits his appearance was drastically different at the
I
t

time of trial but the child victim was still able to identify Defendant by name.26 The record
shows that the State asked the child victim “Do yc u know who the man is over in the red shirt

24 See Attachments, Transcript, Jury Trial, May 23,2013, pp. 153-163.
25 See Attachment 3, Transcript, Jury Trial, May 23,2013, pp. 187-189.
26 See Attachment 3, Transcript, Jury Trial, May 23, 2013, pp. 26, 32.
Paee9of33 ___________ Joseph Glen Savicki. Case N x 2012-CF-0313_____________________
Order Denying Defendant's pro se Second / mended Motion for Postconviction Relief
i

Volume 5 910

n

:

n

f
i

!

if

over there?” to which the child victim responded ‘ Joe.”?7 Upon further questioning, the child
victim testified that Joe had grabbed her hand and put itj on his penis, moving her hand back and
forth.28 Considering the age of the child victim, the State’s question directing the child victim to

!

the man in the fed shirt was wholly appropriate. The State did not include in its vague
description of Defendant’s clothing any indicator that Defendant was the person who had
committed the crime against the child. It was the ;hild victim who testified later that it was Joe,
who used to live in her mother’s house, who had molested her. The Court finds that if counsel
I

had objected to the State’s question to the child vi :tim, it is likely the objection would have been

I

overruled.

I

!

Even though this claim was not scheduled for evidentiary hearing, counsel testified in
response to Defendant’s questions that the child v ctim never identified Defendant from a pre­

!

trial photo line-up, “[b]ut I think she knew who she was talking about when she said, Joe, who
lives with my mom. There was not another Joe that you ever made me aware of that lived in that
house.”29 Counsel also testified that the identity o: ‘the alleged perpetrator was never a question
in this case.30 “This is not an identity case. There were several months when both the mother,
the alleged victim - -and Mr. Savicki agreed they ill lived in the same house.”31 The Court finds
counsel’s testimony credible. Defendant has faile 1 to show that counsel had a valid basis to

27 See Attachment 3, Transcript, Jury Trial, May 23, 2013, p. 26.
28 See Attachment 3, Transcript, Jury Trial, May 23,2013, pp. 29-32.
29 See Transcript, Evidentiary Hearing, August 18,2015, p. 79.
30 See Transcript, Evidentiary Hearing, August 18,2015, p, 76.
31 See Transcript, Evidentiary Hearing, August 18,2015, pp. 77-78.
-Page-i-O-of-33- ----------------- Joseph-Glen-Saviekir-Case-N }^2i)l-2=CE=03J3---------------------------Order Denying Defendant's pro se Second / mended Motionfor Postconviction Relief
I

Volume 5 911

I.

n

\

object or move for suppression of the in-court identification. Consequently, Defendant has failed
i.

to show that counsel was deficient or that he was prejudiced. Defendant is not entitled to relief
as to this claim.
Claim Four—Arguing “Two Mutually Exclusive. Incoherent Theories of Defense”
Defendant next alleges that counsel was ineffective for arguing “two mutually exclusive,
incoherent theories of defense.” According to the motion, counsel first argued the child victim
made so many different, inconsistent allegations that hone of it could be believed. Defendant
■ i

r

alleges that counsel also argued identification. De fendant alleges that counsel’s presentation of
these “two mutually exclusive theories” confused the jury and was in blatant disregard to what
Defendant told counsel (that Ms. Williams statem :nt were lies and an attempt to commit fraud
upon the Court.) Defendant claims that counsel's ineffectiveness violated his right to a trial “free
f

from fundamental unfairness.”
Initially, it appears the claim is facially insufficient: Defendant never claims that if
counsel had proceeded differently there is a reasonable probability the results of his trial would
I
have been different.
Even if Defendant’s claim w;re facially sufficient, he still would not be

entitled to relief. As codnsel credibly testified “[t his is not an identity case.”32 Counsel
explained at evidentiary hearing the defense theor / was to attack the credibility of the child
victim and Ms. Williams (the child’s mother), and to stand by Defendant’s assertion that these
things did not happen and Defendant was not guil y.33 The Court finds counsel’s testimony

-32 See Transcript, Evidentiary Hearing, August 18,2015, p. 77.
33 See Transcript. Evidentiary Hearing. August 18.2015. p. 28. ;
RageJ-Lof33 ------ ------ ——Jdseph-Glen-Savickir^CaseJJ x-20J-2*CE*03J3------------------------------Order Denying Defendant's pro se Second / mended Motion for Postconviction Relief

I

Volume 5 912

n

n

credible. The record confirms the defense theory was t<j> attack credibility: The entirety of
\

counsel’s closing argument was based on this thee ry.34 I While it is true that counsel argued the
child victim only identified Defendant at trial bee; use he was sitting at the defense table,35 this
l

was an ancillary argument to support the defense Iheory that the child victim’s testimony could
not be trusted. This argument was not contrary to the defense theory of attacking the credibility
of the child victim and Ms. Williams. As counsel did not present “two mutually exclusive,
incoherent theories of defense,” Defendant has fai led to demonstrate that counsel acted
deficiently or that he was prejudiced. Defendant is not entitled to relief as to this claim.
Claim Five—Failing to Call, Interview, and Present Alibi Witnesses
Defendant alleges that counsel was ineffective for failing to call, interview and present
alibi witnesses. Defendant claims that Ms. Willia ns could not have observed the child victim’s
i

reaction to Defendant on November 24, 2011, (Thanksgiving) because Defendant was not
present at Ms. Williams’ residence on November 24, 2011. Defendant alleges he told counsel he
spent the night eff November 23, 2011, over at his girlfriend’s, and on November 24, 2011, after
dropping his girlfriend off at a friend’s house, Deiendant went to his mother’s apartment in Pace
where he spent Thanksgiving. When Defendant arrived back at Ms. Williams’ residence on
November 24,2011, nobody was home. He did n Dt see: Ms. Williams and the child victim until
the Milton Police Department served the 72 hour domestic violence injunction on Defendant.
Defendant claims counsel failed to contact Kara Linsey Allen and Patricia Lynanne Faulkner

34 See Attachment 3, Transcript, Jury Trial, May 23,2013, pp. 219-232.
35 See Attachment 3, Transcript, Jury Trial, May 23, 2013, pp. 230-231.
Rage-L2-of32 ___________ JoseDh-GleuJSavJckijCjaseM xJDJ2^CES.3JA__________________
Order Denying Defendant’s pro se Second / mended Motion for Postconviction Relief
!

Volume 5 913

n

n
!

who were both available to testify, and who woul< have confirmed Defendant’s rendition of

i

events for November 24, 2011. Defendant claims that the alibi witnesses’ testimony would have
!

i

substantiated and corroborated Defendant’s “acturl andjfactual innocence” and had counsel
contacted the witnesses and developed the evident .e, the jury would not have found Defendant

i

guilty.
The record demonstrates that Ms. Allen’s and Ms. Faulkner’s testimony regarding the
events of November 23 and 24, 2011, would not b ave substantiated Defendant’s innocence and
would not haves changed the result of Defendant’s trial. Initially, Defendant admits he returned
to Ms. William's’ residence on November 24,201:. The proposed alibi witnesses’ testimony
only shows that Defendant left his Thanksgiving r real at 5:00 pm - it does not corroborate
Defendant’s account that nobody else was at the r ;sidence when he arrived on November 24,
2011. Consequently, neither of the witnesses woi Id be considered true “alibi” witnesses in this
regard.
Additionally, even though Ms. Williams ii itially testified the child victim’s demeanor
toward Defendant changed on November 24, 201' ,36 Ms. Williams confirmed that she reported
the child victim’s demeanor had changed over “th 3 last few days” in her November 24, 2011
statement to law enforcement.37 If Defendant warned the proposed alibi testimony introduced to
impeach Ms. Williams’ statement regarding the N ovember 24,2011 demeanor change, Ms.
Williams’ testimony was already effectively impe iched by her own statement to police.

36 See Attachment 3, Transcript, Jury Trial, May 23,2013, pp. 111-113.
37 See Attachment 3, Transcript, Jury Trial, May 23, 2013, pp. 121-122.
BageJ-3of-33- -----------------Joseph-GIenSavicki^CaseM i^20.12J0E=D313.
Order Denying Defendant's pro se Second / mended Motionfor Postconviction Relief

Volume 5 914

i

l
j-

n

n

Most importantly, the issue of whether Ms Williams noticed a demeanor change in the
;

child victim on November 24, 2011, or even some other time is ancillary to the charges in this

i

case. Although Ms. Williams reported the abuse c f the .'child victim to law enforcement on

r
November 24, 2011, the record shows that the actual instance of molestation occurred sometime
before November 24, 2011.38 Neither Ms. Allen’: nor Ms. Faulkner’s testimony would have
established that Defendant did not molest the chil< [ victim. Because of the limited scope of the
:

proposed witnesses’ testimony, Defendant has failed to .'demonstrate that his counsel was
i

deficient or that he was prejudiced by counsel’s failure to call, interview and present these “alibi”

r

witnesses. Defendant is not entitled to relief as to this claim.
Claim Six—Failing to Call. Interview, and Pre: ent Material Witnesses
Defendant next alleges that his counsel wa3 ineffective by failing to call, interview, and
present material witnesses. Specifically, Defenda it alleges that if: a) Tarah C. Freeman; b)
Iesha Rochelle Gooden; c) Raymond Lloyd Tiller d) Richard Henry Stephens; e) James Dean
Dickerson; f) the officers who investigated Defendant’s 911 call; and g) the officers involved in
Defendant’s November 28, 2011 standby had been called on Defendant’s behalf at trial, the
results of his trial would have been different.
An evidentiary hearing was convened regarding this claim as it pertains to Ms. Freeman,
Ms. Gooden, Mr. Tiller, and Mr. Stephens. Counsel testified that Defendant made him aware of
these alleged proposed witnesses.39 Counsel conf rmed that he had made the decision not to
i

38 See Attachment 3, Transcript, Jury Trial, May 23, 2013, pp. 156-157; 159-162; 188.
39 Seg Transcript, Evidentiary Hearing, August 18, 2015, p 49.
Page 14 of 33

Joseph Glen Savicki. Case N i. 2012-CF-0313________ _
Order Denying Defendant's pro se Second / mended Motionfor Postconviction Relief
I

Volume 5 915

i

n

n
•:
i

contact any of these potential witnesses based on what Defendant had said about them, “both
what they would say, their characteristics, their attitudes toward” Defendant.40 The Court finds
that counsel’s testimony is credible and his strategy sound in not contacting these four witnesses.
As addressed in greater detail below, the Court finds that Defendant is not entitled to relief as to
the entirety of this claim.
a. Tarah C. Freeman
Defendant alleges that his counsel should have called Tarah C. Freeman, a former
roommate, who would have testified she had warr ed Defendant that Ms. Williams (the mother of
the child victim) was going to “set him up.” Ms. Freeman would have also testified that Ms.
Williams was telling people Defendant had moles ;ed her child. Ms. Freeman would have further
testified that James Dean Dickerson lived at the se me residence as Defendant and Ms. Williams;
there were several other roommates that lived at Ms. Williams’ residence; she had heard
Defendant threaten Ms. Williams with calling Department of Children and Families (DCF); and
the one time Ms. FreemEm had seen Defendant and the child victim together, she did not witness
anything inappropriate. Ms. Freeman would have also confirmed that On November 24, 2011
(Thanksgiving) Defendant texted Ms. Freeman that Ms. Williams had filed a complaint, to which
Ms. Freeman responded she had warned him.
Contrary to Defendant’s allegations, couni el testified Defendant never told him that Ms.
Freeman would testify he was being “set up” by Ms. Williams. 41 Counsel confirmed that for the

40 See Transcript, Evidentiary Hearing, August 18,2015, p 49.
41 See Transcript, Evidentiary Hearing, August 18,2015, p r. 49-50; 51-52.
EageJ5-of3i ---------------------Joseph-Glen-Savicki.-Case-N j.2 012-CE-03-13------------------------------Order Denying Defendant's pro se Second/ mended Motion for Postconviction Relief

:

Volume 5 916

!
!■

!

n

n
!
i
!

I
first few months of Defendant’s correspondence vyith counsel,
Defendant stated Ms. Freeman

I

had told him a few weeks before the report of abu >e wajs filed that Ms. Williams was telling
i

people Defendant had molested her dkughter.42 C aunsel further confirmed Defendant
consistently told counsel that Ms. Freeman had to d Defendant to watch his back.43 Counsel also
testified that it was Defendant who drew a conclusion in later letters that Ms. Freeman telling
him to watch his back must have been a sign from her that Defendant was being “set up.”44
i

Counsel testified that in evaluating whether the testimony would be helpful at trial,
. ►

counsel took into account that Defendant told him Ms. Freeman had been evicted from Ms.
Williams’ home 45 Counsel further testified that 1 e reviewed a DCF report showing Ms.
Williams told DCF she had kicked several people out her house for drug use.46 Counsel further
took into account that Defendant had characterize i Ms. Freeman as being part of the group that

i

Defendant referred to as a drug addicts.47 Counsel testified that he determined Ms. Freeman’s
proposed testimony would have probably only sei ved to impeach the credibility of Ms. Williams.
However, counsel surmised from the information arovided by Defendant that Ms. Freeman’s
testimony could have been impeached by Ms. Williams on rebuttal evidence by the State.48
Counsel also noted that although Defendant alleges in his rule 3.850 motion that Ms.

42 See Transcript. Evidentiary Hearing. August 18.2015. p. 50. •
43 See Transcript, Evidentiary Hearing, August 18,2015, p. 50.
44 See Transcript, Evidentiary Hearing, August 18,2015, p. 59.
45 See Transcript, Evidentiary Hearing, August 18,2015, p. 50.
46 See Transcript, Evidentiary Hearing, August 18,2015, p. 50.
47 See Transcript, Evidentiary Hearing, August 18,2015, p. 50.
48 See Transcript, Evidentiary Hearing, August 18,2015, p. 51.
Page 16 of 33

JosephJ3.lenAayjckijCjas£.M xJ.0J.2JZEr&3J3.__________________
Order Denying Defendant's pro se Second /. mended Motion for Postconviction Relief
l

!

Volume 5 917

v

n

O
!
i
I

i

Freeman was available to testify, in Defendant’s correspondence to counsel he had asked counsel
I

l

to inform Ms. Freeman how long Defendant had t een in jail and the penalty Defendant was
facing.49 Defendant also instructed counsel to act as though he had copies of the text messages
between Defendant and Ms. Freeman in which she warned Defendant to watch his back.50
Defendant indicated that if counsel did not do all of these things, Ms. Freeman might not
cooperate.51
Counsel confirmed that Defendant told counsel that Ms. Freeman had observed
Defendant with the child victim and had not obsei ved any odd reactions by the child victim to
Defendant.52 However, counsel testified there wa > “an ethical reason for which I would not have
been able to call her to testify to that.”53 Ultimate .y counsel determined that calling Ms.
Freeman would not have helped Defendant’s case 54 “It was not a silver bullet or a smoking gun
without some other admission from [Ms. William >], which never came.”55
The Court finds the entirety of counsel’s t< stimony regarding Ms. Freeman credible. The

Court further finds that Defendant never told cour sel Ms. Freeman warned him that Ms.
Williams was going to “set him up.” Even if Ms. Freeman had offered the vague statement that
Ms. Williams was trying to set up Defendant, it is questionable whether this testimony would

49 See Transcript, Evidentiary Hearing, August 18,2015, p. 51.
50 See Transcript, Evidentiary Hearing, August 18,2015, p. 51.
51 See Transcript, Evidentiary Hearing, August 18, 2015, p. 51.
52 See Transcript, Evidentiary Hearing, August 18,2015, p. 53.
53 See Transcript, Evidentiary Hearing, August 18,2015, p. 53-54.
54 See Transcript, Evidentiary Hearing, August 18,2015, p. 60.
55 See Transcript, Evidentiary Hearing, August 18, 2015, p. 60. ■:
Page 17 of 33

Joseph Glen Savicki. Case No. 2012-CF-0313
_______ __
Order Denying Defendant’s pro se Second / mended Motionfor Postconviction Relief

i

Volume 5 918

!

n

n

have been admissible at trial. The Court also find s that, contrary to Defendant’s allegations, Ms.
Freeman was not available and willing to testify a Defendant’s trial. The Court finds that
counsel clearly piade a strategic decision not to contact Ms. Freeman based upon the information
i
i

Defendant provided to cpunsel. Ms. Freeman’s te stimony could have easily been impeached,
and even if it were not, Ms. Freeman’s testimony could have only served to impeach Ms.
Williams’ testimony, which had already been accomplished. Ms. Freeman’s proposed testimony
simply would not have made a difference in the results of Defendant’s trial. Defendant has
failed to show that counsel was deficient or that Defendant was prejudiced by counsel’s failure to
contact Ms. Freeman and have her testify at Defer dant’s trial. Defendant is not entitled to relief
i

as to this claim.
b. Icsha Rochelle Gooden
Defendant alleges counsel should have cal ed Iesha Rochelle Gooden, a former
roommate, who would have testified she had seen Defendant and the child victim together once
and the child did not have a reaction to Defendant’s presence. Defendant further alleges that Ms.
Gooden would have testified that Ms. Williams ai d Defendant argued about Ms. Williams’

!

lifestyle and Defendant had threatened to call DCF. Defendant further contends that Ms. Gooden
would have testified that Ms. Williams would speid the night in Defendant’s room; Ms.
Williams had talked about setting Defendant up; i nd Ms. Williams had broken into Defendant’s
room and stolen several items after Defendant wa; forced to leave the residence by law
enforcement.
An evidentiary hearing was convened reg£ rding this allegation. Counsel testified that he
Page 18 of 33

Volume 5 919

Joseph Glen Savicki. Case N o. 2012-CF-0313
Order Denying Defendant’s pro se Second / Mended Motionfor Postconviction Relief

r

[

n

i

n

i

was aware that Ms. Gooden was a former roomnu te of Defendant’s who had been “kicked out”

!
:

by Ms. Williams from the residence prior to the allegations
against Defendant.56 Counsel further
i
testified that Defendant informed counsel that Ms Gooden was the girlfriend of Raymond
Tiller.57 When being questioned by defendant at evidentiary hearing, counsel revealed that

I

“Raymond Tiller is a person that you told me had told another person that you admitted to him
that you had done it.”58 Counsel indicated he did lot believe it would be in Defendant’s best
interest to attempt to contact Ms. Gooden because he had “no interest” in trying to find a witness
who could lead the State to Someone who would r rake the allegation that Defendant had made an

i

admission to the crime.59 Defendant had also waned counsel that one of the ways to find Ms.
Gooden was to go through Mr. Tiller, who was being housed at the. Santa Rosa County Jail.

1

Counsel testified that from Defendant’s description of Mr. Tiller as a “reluctant hostile witness,”
he did not want to call anybody as a witness who vas connected to Mr. Tiller.60 Counsel further
testified that he did not believe Ms. Gooden’s test mony would have been of any great

evidentiary value to establish Ms. Williams was motivated to report Defendant because of threats
of DCF involvement. Counsel testified that from what he had reviewed before trial, DCF was
constantly being called on Ms. Williams.61

56 See Transcript, Evidentiary Hearing, August 18,2015, p p.,54-55.
57 See Transcript, Evidentiary Hearing, August 18,2015, p .55.
58 See Transcript, Evidentiary Hearing, August 18,2015, p .55.
59 See Transcript, Evidentiary Hearing, August 18,2015, p p. 55-56.
60 See Transcript. Evidentiary Hearing, August 18,2015, p .56. !
61 See Transcript, Evidentiary Hearing, August 18,2015, p .56. i
Page 19 of 33

Joseph Glen Savicki. Case No. 2012-CF-03J3
Order Denying Defendant’s pro se Second j mendedMotionfor Postconviction Relief

:

Volume 5 920

n

n
'T

.

The Coprt finds counsel’s testimony wholly credible on the reason he did not attempt to

!

contact Ms. Gooden. The Court further finds that counsel exercised sound trial strategy in not
contacting Ms. Gooden. Contacting Ms. Gooden vould not have been in Defendant’s best
!

interest. As Defendant has failed to demonstrate that counsel was deficient or that Defendant
was prejudiced, Defendant is not entitled to relief is to this claim.
c. Raymond Lloyd Tiller
Defendant alleges that counsel should have called Raymond Lloyd Tiller, a former
roommate, who would have testified that Ms. Wil lams and Defendant argued; Defendant
threatened to call DCF on Ms. Williams, and Ms. Williams slept in Defendant’s bedroom.
Defendant further claims that Mr. Tiller would have testified that the child victim did not live at
the house with Ms. Williams and he had never sec n Defendant and the child victim at the
1
apartment at the same time. Defendant further co itends that Mr. Tiller would have testified that
Ms. Williams broke into Defendant’s room on November 24,2011, after Defendant was “made
to leave” by Milton police. Mr. Tiller would have further testified that Ms. Williams and the
child victim were not at the apartment on November 24,2011, until after Ms. Williams had
contacted the Milton police.
An evidentiary hearing was convened regc rding this claim. Counsel testified that
because Defendant informed counsel that Mr. Tiller had told someone else that Defendant had
admitted to committing the crime, he did not belie ve he was doing Defendant “any favors” by

Page 20 of33

Volume 5 921

Joseph Glen Savicki. Case No. 2012-CF-0313 .
Order Denying Defendant’s pro se Second j mended Motion for Fostconviction Relief

I
i

n

n

locating Mr. Tiller.62 Counsel also testified he die not believe it was wise to contact Mr. Tiller
when Defendant told counsel he should “proceed ’ vith caution” because Mr. Tiller would be a
i

“reluctant hostile witness,” and if he knew counse] was .contacting him on Defendant’s behalf,
i

Mr. Tiller would not help.63 Counsel asked Defendant at hearing, even if he assumed for a
i

■

i

moment Mr. Tiller may have seen the few small things that might further impeach the credibility
of Ms. Williams, “why would we open the door to the possibility that the State may elicit from
[Mr. Tiller and Ms. Gooden] alleged admissions that you made about what you’re charged with?
!
That has no logic.”64 Counsel clarifipd that he made his decision not to contact Mr. Tiller based
on not only what Defendant told counsel about the situation, but also on what Defendant told Mr.
Russell and Ms. Edwards, Defendant’s previous cDunsel.65 Counsel had the benefit of the foil
file and all of Defendant’s statements made to coi nsel and to all of Defendant’s previous
• attorneys when he made the decision not to call IV r. Tiller.66
The Court finds counsel’s testimony credible. Counsel was folly informed and exercised
sound discretion when determining it would defy ogic to contact Mr. Tiller to testify on
Defendant’s behalf. Defendant has failed to demonstrate that counsel was deficient or that
Defendant was prejudiced. Defendant is not entit ed to relief as to this claim.

62

See Transcript, Evidentiary Hearing, Augjust 18,2015, j p. 55, 57.
63 See Transcript, Evidentiary Hearing, August 18, 2015, j. 57.
64 See Transcript, Evidentiary Hearing, August 18, 2015, j p.. 57-58.
65 See Transcript, Evidentiary Hearing, August 18, 2015, j. 58. :
66
See Transcript, Evidentiary Hearing, August 18, 2015, j. 58.
Page 21 of33

Joseph Glen Savicki. Case ho. 2012-CF-0313
Order Denying Defendant’s pro se Second j ImendecfMotion for Postconviction Relief

I

!

Volume 5 922

n

n

i-

d, Richard Henrv Stephens
Defendant alleges that Richaid Henry Stephens, who was also a former roommate of

i

■ Defendant, would have testified that James Dickei son was permitted to move to an upstairs

i

!

bedroom. Defehdant further alleges that Mr. Step hens would have testified that Ms. Williams
and Defendant argued abbui Mr. Dickerson movir g in. Mr. Stephens was also aware that
Defendant threatened to call DCF. Additionally, idr. Stephens would have testified that the child
victim was not living at the residence; he never saw Defendant and the child victim at the
apartment at the same time.

I,

An evidentiary hearing was convened regarding this assertion. Counsel testified that
Defendant informed him that Mr. Stephens was

s, Williams’ boyfriend, who was a sex

offender that was not supposed to be living at that address.67 In response to Defendant’s
question as to whether Mr. Stephens would have testified that Defendant threatened to call DCF
' on Ms. Williams, counsel testified he did not beli< ve Mr. Stephens would be willing to testify on
Defendant’s behalf as it would have required Mr. Stephens admitting he was present at a
prohibited location.68 Counsel further explained 1 e.based this opinion on Defendant’s letters
informing counsel Mr. Stephens was a sex offend ;r living with Ms. Williams.69
The Court finds counsel’s testimony credi! lie and his strategy sound in not calling Mr.
Stephens to testify. The Court agrees with couns< 1 that it is highly unlikely Mr. Stephens would

67 See Transcript, Evidentiary Hearing, August 18, 2015, f. 61.
68 See Transcript, Evidentiary Hearing, August 18,2015, p. 61. ■
69 See Transcript. Evidentiary Hearing. August 18. 2015. i. 61. .
Page 22 of33

■________ Joseph Glen Savicki, Case No. 2012-CF-03I3__________________
Order Denying Defendant’s pro se Second j [mended Motionfor Postconviction, Relief
I

1

Volume 5 923

n

-n

have implicated himself in another crime by testif nng on Defendant’s behalf. The Court finds
that counsel’s actions were not deficient and Defe idant'has failed to demonstrate he was
prejudiced by counsel’s actions. Defendant is not entitled to relief as to this claim.
e. James Dean Dickerson
Defendant next alleges that James Dean D ckerson, a former roommate, would have
testified that Defendant did not want Mr. Dickerson living at Ms. Williams' residence.
Defendant also contends that Mr. Dickerson woul l have testified the child victim did not live at
the residence and he never saw the child victim ar d Defendant at the residence at the same time.
Defendant is not entitled to relief as to this claim. Even if counsel had called Mr.
i

Dickerson to testify to the testimony alleged by D ;fendant, it would not have made a difference

I

at Defendant’s trial. The substance of Mr. Dicker son’s proposed testimony has no bearing on
whether Defendant committed the crime in question. As Defendant cannot show he was
prejudiced by counsel’s failure to offer testimony that would have been of no assistance to
Defendant’s case, Defendant is not entitled to reli ;f as to this claim.
f. Officers Who Investigated Defendant’s 911 ('all
Defendant next alleges that counsel shoulc have called the officers who investigated the
911 call placed by Defendant on August 28,2011 Defendant alleges the officers would have
testified that Defendant told them Ms. Williams h id seen Mr. Dickerson kissing the sleeping
child victim, “like a man kisses a woman.”
This claim is facially insufficient. Initially, indentifying the persons as “officers” is not
an adequate identificatidn of the purported witnes ses. See Austin v. State. 762 So. 2d 558, 558
i
P age 23j}f 33^ _________ ____Jas.eDAJ31enPay.ickiJ3jas.eJS o,JJ)J3J3EJ)3J_L____ ___________ ____
Order Denying Defendant’s pro se Second j Imended Motion for Postconviction Relief

Volume 5 924

1

n

n
i

(Fla. 4th DCA 2000). The Court has reviewed the 911 call report attached to Defendant’s
motion and finds that the officers are not identified on the report. Consequently, counsel would
not have had the proper information to try to obtain the testimony from the unidentified
“officers.”
Even if the claim were facially sufficient, Defendant would still not be entitled to relief.
Testimony regarding an ancillary event regarding someone else kissing the child victim would

i
i

have done nothing to refute the fact that the child /ictim identified Defendant as the person who
l

molested her. Additionally, counsel testified that le and Defendant discussed the possible
defense of raising the issue with Mr. Dickerson ar d shifting the blame to him. However, counsel

i
j

indicated “[w]e elected not to do that because the illegations against the James person were
different than the allegations against [Defendant]. For example, the allegations against James
occurred in a common living area with several chi ldren present in front of a television while the
. child slept. The allegations against [Defendant] were isolated to [Defendant’s] room and [the
child victim] only.”70 The Court finds counsel’s testimony credible regarding this issue.
Defendant has failed to demonstrate that counsel was deficient and that Defendant was
prejudiced by the officers not being called. Defer dant is not entitled to relief as to this claim.
g. Officers involved in Defendant’s November 28.2011 Standby
Defendant also alleges that counsel should have called the Milton Police Department
Officers and the Santa Rosa Sheriffs Office Offi< ers who were involved in Defendant’s civil
standby on November 28, 2011. Defendant alleges the officers would have testified that Ms.

70 See Transcript, Evidentiary Hearing, August 18,2015, j: p. 27, 66.
Page 24 of33

Volume 5 925

Joseph Glen Savicki. Case No. 20I2-CF-03I3
'Order DehyingDefendanrspro seSecond7rmencled~Mo(imTfor'Postconviction~Relief

i

n
!

n

I

Williams was ^visibly high” when the officers arr ved at the apartment to let Defendant in to

!
!

collect his belongings, faefendant further alleges 1 he officers could have testified that some of
Defendant’s personal items were found in Ms. Wi Hams’ room even though she denied taking

!

L
any of Defendant’s belongings.

i

I

This claim as presented prior to evidential* / hearing71 appears to be facially insufficient as
Defendant fails to identify the proposed witnesses by name. See Austin v. State. 762 So. 2d 558,
l

558 (Fla. 4th DCA 2000). The Court has reviewe 1 the police report regarding this incident
i

attached as an exhibit to the motion: the officers i ire pot identified. Consequently, counsel
would not have ]iad the proper information to try 1o obtain the testimony from the unidentified
"officers.”
Even if this claim y/ere not facially insuffi :ient, Defendant would still not be entitled to
relief. Initially, Ms. Williams admitted from the stand that she was a drug addict.72 Testimony
from a third-party observing Ms. Williams under he influence of drugs would not have added
any additional information to the trial. Additionally, the fact that Ms. Williams might have taken
some of Defendant’s belongings after he was arre ;ted on these charges is an ancillary matter that '
has no bearing on whether pefendant committed1 he offense. As testified to by counsel at the
71 After evidentiary hearing Defendant submitted “Defend int’s Supplemental/Amended Discovery Exhibit O in
support of Defendant’s 3.850,” filed October 7, 2015; and “ Amended Discovery Exhibit N,” filed September 22,
2015. In the October 7,2015 pleading with attached exhibi t, Defendant now alleges the name of the deputy who
arrested Ms. Williams, and who presumably would have be :n one of the officers present during Defendant’s
standby. The Court finds that while Defendant was given If ave to file written closing arguments after the hearing,
he was not permitted leave to submit additional allegations 5r evidence for the Court’s consideration. Consequently,
both of these pleadings with attached exhibits are inappropi iately filed and will not be considered by the Court
Even if they were considered, neither of these exhibits woui d have made a difference in the result of Defendant’s
trial.
72 See Attachment 3 Transcript, Jury Trial, May 23,2013, pp. 137,143-144.
Eage3S_of3X ___________ Joseph Glen.Savicki. Case A o. 2012-CF-0313__________________
Order Denying Defendant's pro se Second / (mended Motionfor Postconviction Relief

Volume 5 926

T

n

n

evidentiary hearing, counsel strategically decided lot to pursue this defense because ‘‘[q]uite
frankly, I don’t think that it is a motivation to make a serious claim against someone in order to
steal an Xbox or a television.”73 Counse.1 later exp lound'ed on his explanation by testifying “If I
recall the items, there were a couple of gaming sy: temsiand a television. I would not have felt
comfortable pursuing that as a theory of defense, for a jury, to say that [Ms. Williams] was
enticing her daughter to make accusations against [Defendant], and putting her through the stress
of a trial to testify against [Defendant] for a couplp of used gaming systems and other
electronics.”74 Counsel also indicated he did not now who the officer was that charged Ms.
Williams with drug possession that night, but that he had in fact talked to a number of officers
related to the case.75 The Court finds counsel’s te stimony credible. Defendant has failed to
demonstrate that counsel whs deficient and that D jfendant was prejudiced by these officers not
being called. Defendant is not entitled to relief as to this claim.
Claim Seven — Failing to Conduct Pre-Trial Investigation
Defendant also alleges that counsel was in effective for failing to conduct “any” pre-trial
investigation. Specifically, Defendant alleges tha he explained to counsel that the allegations
were lodged against him because Ms. Williams w inted revenge and monetary gain. Specifically,
Defendant claims Ms. Williams wanted revenge b ecause Defendant had involved law
enforcement and DCF in her life on August 28, 2(11, when he called 911. Defendant further

73 See Transcript, Evidentiary Hearing, August 18,2015, p 33.
74 See Transcript, Evidentiary Hearing, August 18,2015, p 45.
75 See Transcript, Evidentiary Hearing, Auglist 18,2015, p 33. !
Page 26 of 33

Volume 5 927

Joseph Glen Savicki. Case No. 2012-CF-03I3
OrdeTDenying Defendant's pro se Second1 ImendectMotidhfdrPdstconvictidrTReluf'

n

■n

i

alleges Ms. Williams wanted revenge because he ] lad threatened to call DCF and report Ms.
!

Williams’ drug use. Defendant claims that Ms. W illiams would gain monetarily by the

I
i

allegations because she could steal the items from Defendant’s room after his arrest and trade the
—<0

property to support Ms. Williams’ drug addiction.

i

Defendant also claims that he told counsel Ms. Williams was arrested in April 2012 for

i

drug offenses which resulted from information Defendant gave the authorities on November 28,
2011. Defendant claims that he requested his cou isel to investigate whether Ms. Williams was
promised anything for her testimony.
Defendant also claims that the child victin made other allegations of abuse against her
uncle, Jerry Weekley and her grandfather, Eddie Weekley, before Defendant’s trial. Defendant
alleges he urged counsel to investigate to see if m lybe the Weekleys were attempting to maintain
custody of Ms. Williams’ children, and if possibly Ms. Williams might have influenced the child
victim to make allegations against them.
Defendant claims that four days before trial, on May 19, 2013, counsel informed
Defendant he had not conducted investigation into these matters because he assumed the attorney
prior to him had already investigated these concerns. Defendant claims that if counsel had
investigated and presented the pertinent evidence, the jury would not have found Defendant
guilty.
An evidentiary hearing was convened reg; rding this multi-part claim. The evidence
submitted at evidentiary hearing established that counsel was aware of Defendant’s theories of

Page 27 of33

Joseph Glen Savicki, Case ho. 2012-CF-03I3
'Order Denying Defendant’s pro se Second / [mended Motionfor Postcomiction Relief
I
I

Volume 5 928

n

n

revenge and monetary gain, and he did not see a n ;ed tcj further investigate those situations.76 As
discussed in great detail, counsel testified he considered the theories of revenge and monetary
i

gain but determined that neither of these trial strat igies jwould assist Defendant at trial.77
In regard to Defendant’s claim regarding v diether Ms. Williams was promised anything
for her testimony, counsel testified he understood Ms. Williams was arrested prior to
Defendant’s trial but he did not look into whether the State was making her testify as a result of
her arrest.78 However, such failure to look into th s issue was not prejudicial to Defendant. A
large portion of counsel’s defense theory was to show Ms. Williams was not credible. Even the
!

trial judge indicated during a bench conference that Ms. Williams’ credibility had been
impeached.79 If Ms. Williams had brokered a dea. to testify at Defendant’s trial, this information
would have only been used by the defense for imp eachment purposes. As counsel had already
impeached Ms. Williams’ credibility at trial, whether Ms. Williams had been promised anything
in exchange for jher testimony is of no real consequence.
As to Defendant’s claim regarding additio lal allegations of abuse against others, counsel
testified at evidentiary hearing that he did not rec; 11 telling Defendant there had been new
allegations of abuse made by the child victim aga nst Eddie and Jerry Weekley. Counsel knew
that Defendant had referenced such in a couple of his letters, but counsel could not recall

76 See Transcript, Evidentiary Hearing, August 18,2015, pp. 26-45.
77 See Transcript, Evidential^ Hearing, August 18,2015, f p. 32-33; 44-45; 56; 66-67.
78 See Transcript, Evidentiary Hearing, August 18,2015, f p. 43-44.
79 See Transcript, Evidentiary Hearing, August 18,2015,;. 60. See also Attachment 3, Transcript, Jury Trial, May
23, 2013, pp. 186.
80

See Transcript, Evidentiary Hearing, August 18, 2015, f. 46;

Page 28 of33

Joseph Glen Savicki. Case A o. 2012-CF-0313
Order Denying Defendant’s pro se Second j [mended Motionfor Postconviction Relief
i
i
!
!

Volume 5 929

n

n-

whether any new allegations had actually been brc ught iy the child victim.81 The Court finds
counsel’s testimony credible. At hearing, Defendant failed to present any evidence showing that

!

new allegations of abuse actually had been made 1 y thej child victim against Eddie and Jerry
Weekley. Even if such allegations had been made, Defendant has failed to show how such
information would have been admissible evidence at trial. Defendant has failed to demonstrate
that counsel acted deficiently and Defendant was prejudiced. He is not entitled to relief.
Claim Eight -Advising Defendant not to Testifr
Defendant further alleges that counsel was ineffective in advising Defendant not to
testify. Defendant alleges counsel informed him tie State would introduce Defendant’s prior
convictions to i mpeach him and the jury would kr ow Defendant as an “ex-con.” Defendant
further claims that counsel did not want Defendant to testify because it would contradict
counsel’s theory of defense.
Defendant’s claim is refuted by the record Counsel’s advice to Defendant regarding his
prior convictions being used to impeach Defendant's testimony is absolutely correct. In fact,
during a bench conference when defense counsel vas trying to get into evidence Defendant’s
statement, the Court cautioned counsel: “You wait to be very careful. Does your client have a
prior record?” Counsel replied, “Yes.” The Court further stated: “If you introduce his statement,
she can impeach him with a record. She can imp< ach his statement with a prior record.”82
Additionally, the record shows that Defendant exercised his independent decision not to testify at

81 See Transcript, Evidentiary Hearing, August 18, 2015, f .48. .
82 See Attachment 3, Transcript, Jury Trial, May 23,2013, p. 174.
Page 29 of33

Joseph Glen Savicki. Case ho. 2012-CF-0313
Order Denying Defendant's pro se Second 11mended Motionfor Postconviction Relief

I

Volume 5 930

n

n
;

his trial. Defendant confirmed on the record that he understood it was his absolute right to testify
if he chose to do so; the decision not to testify was his alone; he had an adequate opportunity to
discuss with his attorney the advantages and disadvantages of testifying; and no threats or
promises had been made to get Defendant not to t< sstify.83 Consequently, Defendant has failed to
demonstrate that counsel was deficient and Defendant was prejudiced. Defendant is not entitled
to relief as to this claim.
Claim Nine - State Introduced Perinred Testimony
Defendant next alleges that the State comr fitted a Giglio violation because it permitted
Ms. Williams to offer perjured testimdny at trial. Defendant further alleges that the State knew
or should have known Ms. Williams’ testimony was “perjury,” yet it made no attempt to correct
the testimony or notify the Court. In referencing < exhibits attached to his amended motion and
the trial transcript, Defendant appears to allege that the substance of Ms. Williams’ “perjured”
testimony was that Defendant was her only roomi rate; Ms. Williams gave varying statements
regarding how long Defendant lived with her; and Ms. Williams testified incorrectly regarding
when she was evicted from her home. Defendant claims these were not the only instances of
peijury Ms. Williams committed.
“A Giglio violation is demonstrate 1 when (1) the prosecutor
presented or failed to correct false testimony; (2) the prosecutor
knew the testimony was false; and '3) the false evidence was
material. Once the first two prong i are established, the false
evidence is deemed material if theie is any reasonable possibility
that it could have affected the jury s verdict. Under this standard,

83 See Attachment 3, Transcript, Jury Trial, May 23, 2013, pp. 179-180.
Page 30 of33 ___________ Joseph Glen Savicki, Case ho. 2012-CF-0313
_______ _
Order Denying Defendant's pro se Second 11mended Motionfor Postconviction Relief

Volume 5 931

n

n

the State has the burden to prove that the false testimony was not
material by demonstrating it was hi rmless beyond a reasonable
doubt.”
I

1

!

Davis v. State. J26 So. 3d 519, 532 (Fla. 2009) (citations omitted; emphasis in original).
►

Initially, this claim appears to be facially insufficient as Defendant has failed to allege
there is a reasonable possibility that the alleged fa se evidence could have affected the jury’s
verdict. To the extent Defendant claims there are other non-enumerated instances of perjury
\
committed by Ms. Williams, these allegations are also facially insufficient for lack of specificity.
The Court questions whether all of the testimony in question can even be identified as false, but
even assuming the State knew the testimony was false and failed to correct such, the “false”
evidence alleged could not have possibly affected the jury’s verdict in this case. Defendant has
failed to demonstrate a Giglio violation has occurred and he is not entitled to relief as to this
claim.
Claim Ten -State Failed to Disclose Impeachment Information
Lastly, defendant alleges that the State co ninitted a Brady violation by failing to disclose
to Defendant that Ms. Williams’ drug offense charges were nolleprosequedeight days after
Defendant’s trial. Defendant further argues that because the State commented extensively in
closing arguments that no motive was ever shown for either Ms. Williams or the child victim to
lie at trial, the State has already conceded the third prong of Brady.
I.
“To establish a Brady violation, a defenda it must show: (1) evidence favorable to the
accused, because it is either exculpatory or impea ;hing; (2) that the evidence was suppressed by
Page 31 of33 ____________ Joseph Glen Savicki. Case No. 2012-CF-03I3____________________
Order Denying defendant’s pro se Second i Intended Motionfor Postconviction Relief

Volume 5 932

n

n

the State, either willfully or inadvertently; and (3) that prejudice ensued.” Guzman. 868 So. 2d
498, 508 (Fla. 2003) (citation omitted)..
Even assuming the evidence was consider d impeaching and it had been suppressed by
the State, as discussed previously in this Order, Di ifendant was not prejudiced as counsel had
already impeached Ms. Williams’ credibility at tri il without the benefit of such information.
Consequently, Defendant has failed to demonstrat 2 a Brady violation occurred, and he is not
entitled to relief as to this claim.
ACCORDINGLY, it is hereby ORDERED and ADJUDGED that:

1. Defendant’s Second Amenlded Motion 'or Postconviction Relief is DENIED; and
2. Defendant has thirty (30) days from the date of this order to file his notice Of

i

!

appeal, should he so choose.
DONE and ORDERED in Chambers at Milton, Santa Rosa County, Florida, this
day of

■?

If

2015.

JOHN (I/ MILLER
CIRCUIT JUDGE
JLM/mco

£agfL32jrfJ± ___________ JosephJ3len-Say.icki^Case-h o.3012-CEJ)313___________1----*....... ,

Order Denying Defendant's pro se Second j (mended Motionfor Postcpnv'iction Relief

Volume 5 933

1

n

n
CERTIFICATE OF SERVICE

I HEREBY CERTIFY that a true and acc irate copy of the foregoing Order has been
furnished via regular U.S. Mail (unless otherwise i ndicated) to:
'^Joseph Glen Savicki

\/ Office of the State Attorney
ATTN: Kenneth Ridlehoover, ASA
6495 Caroline Street, Suite S
Milton, Florida 32570
{via electronic delivery)

DC# 220618
Graceville Correctional Facility
5168 Ezell Road
Graceville, Florida 32440
\/Jeremy Early, Esq.
7139 North 9th Avenue - Suite F
Pensacola, Florida, 32504
Stand-by Postconviction Counsel
(via electronic delivery)
this

,201!

DONALD C. SPENCER, Clerk of Court

BY:
Deputy Clerk

Page 33 of33

Joseph Glen Savicki. Case t\ o.> 201'2-CF-0313
Order Denying Defendant’spro se Second , Intended Motionfor Postconviction Relief

:

Volume 5 934

E

it

y

>

J

HMtndSHE-

1

IN THE CIRCUIT COURT OF THE FIRST JUDICIAL CIRCUIT
IN AND FOR SANTA ROSA COUNTY, FLORIDA
i.
STATE OF FLORIDA,
h.

Plaintiff,

b;,-

v.

m

Case No.:

2012-CF-313

V:

JOSEPH G. SAVICKI,

. GO

rsj

h=r

Defendant

o P
r- *—1
O m rz.

:?a

rfr o

*

“?■*

<_•;

^"*"A
CUD

ORDER DENYING DEFENDANT’S 3RD SUCCESSIVE 3.850 MOTION
EC R
m Or"
■
POSTCONVICTION RELIEF/NEWLY DISCOVERED EVIDENCE A
DEFENDANT’S AMENDED 3RD SUCCESSIVE 3.850 MOTlON’FOfef
POSTCONVICTION RELIEF/NEWLY DISCOVERED EVIDENCE,^
r-

-H © o
'O .

© O CO
ill © *»
C: CT»
■^1 O)
p» *71

PO

THIS CAUSE is before the Court on Defendant’s 3rd Successive 3.850 Motion for
Postconviction Relief/Newly Discovered Evidence, filed on April 11, 2017, and on Defendant’s
pro se Amended 3rd Successive 3.850 Motion for Postconviction Relief/Newly Discovered
Evidence, filed on June 27, 2017. In his third successive motion, Defendant brings a claim of
newly discovered evidence based on his discovery of a roommate’s conviction of lewd and
lascivious molestation and a Brady1 violation based on the newly discovered evidence. In his
amended 3rd successive motion, Defendant adds two claims of ineffective assistance of counsel
based on newly discovered evidence related to his discovery of the roommate’s conviction. He
claims that trial counsel was ineffective for failing to investigate, discover, and present this
information at his trial to argue that the roommate molested the victim. Defendant also claims
-thaUriaLcounseEs-advice-regarding-whether-he-should-testify-at-trialJwas-deficient-and-rendered.

I

Brady v. Maryland, 373 U.S. 83 (1963).

Page 1 of 7

i£

him “completely uninformed.” After reviewing the motion, the record, and the applicable law.
the Court finds that Defendant is not entitled to relief.
NEWLY DISCOVERED EVIDENCE
Defendant filed his third successive motion for postconviction relief (and subsequent
amended motion) more than two years after his judgment and sentence became final;" therefore,
his motion may only proceed under one of the exceptions outlined in Fla. R. Crim. P. 3.850(b).
Defendant relies on Fla. R. Crim. P. 3.850(b)(1), namely the exception regarding newly
discovered evidence. To deem evidence newly discovered, the asserted facts upon which the
evidence is based “must have been unknown by the trial court, by the party, or by counsel at the
time of trial, and it must appear that defendant or his counsel could not have known them by the
use of diligence.” Jones v. Stale, 591 So. 2d 911, 916 (Fla. 1991) (citing Hallman v. State, 371
So. 2d 482, 485 (Fla. 1979)). Additionally, “the newly discovered evidence must be of such
nature that it would probably produce an acquittal on retrial.” Id. at 915 (emphasis omitted).
Defendant alleges that he recently discovered that James Dean Dickerson, one of the
roommates at the house in which Defendant and the victim were residing at the time of his arrest,
had been convicted of lewd and lascivious molestation in Escambia County on August 21, 2012.
Defendant alleges that he could not have discovered Mr. Dickerson’s conviction because he does
not have internet access in prison and must rely on others to help him. Defendant asserts that he
was unaware of this information until his mother discovered it via a Google search on March 30,
2017 and that this motion is filed widiin two years of discovering the information. He avers that
he exercised due diligence by informing trial counsel prior to trial of an incident between the
-vietim-and-MFr-Diek-erson-in—wltich-lie-caught-Mn.—Dickerson-kissing-the_victim—like-a_mankisses a woman,” and he relied on trial counsel to investigate Mr. Dickerson.
2 Savicki v. State, 1D13-2951 (Fla. 1st DCA June 2,2014).

Page 2 of 7

Defendant

contends that trial counsel could have used this information to argue that Mr. Dickerson had
molested the victim.
Contrary to Defendant’s allegations, information regarding Mr. Dickerson’s August 2012
conviction was available prior to Defendant’s trial on May 23, 2013, and could have been
discovered at the time of trial, or within two years of his judgment and sentence. Thus, Mr.
Dickerson’s conviction is not newly discovered evidence. See Lamb v. State, 212 So. 3d 1108,
11 H_(Fla. 5th DCA 2017) (determining that the victim’s criminal conviction could have been
obtained within two years of the judgment and sentence of the defendant and thus did not
constitute newly discovered evidence).
In addition, the newly discovered evidence must have been unknown and not
discoverable by due diligence -by Defendant or his trial counsel. “[Tjhe facts on which the claim
is predicated were unknown to the movant or the movant's attorney and could not have been
ascertained by the exercise of due diligence . . . .”

Fla. R. Crim. P. 3.850(b)(1) (emphasis

added). Defendant’s trial counsel could have discovered Mr. Dickerson’s conviction with due
diligence had that information been pertinent to Defendant’s theory of defense.

At the

evidentiary hearing on Defendant’s initial motion for postconviction relief, trial counsel testified
that there were several alternative theories to Defendant’s case, namely, blaming Mr. Dickerson,
arguing that the allegations were fabricated, and attacking the credibility of the victim and her
mother.3 Trial counsel testified that they rejected the theory of blaming Mr. Dickerson because
the allegation against Mr. Dickerson was different from the allegation against Defendant.4 Even
though trial counsel chose not to pursue the theory of blaming Mr. Dickerson, trial counsel had
*

o

? Exhibit A, Tr. 27.

Ud.
Page 3 of7

the capacity to discover Mr. Dickerson’s conviction, and thus, Defendant’s discovery of Mr.
Dickerson’s conviction is not newly discovered evidence.
Secondly, in order for evidence to be deemed newly discovered, the evidence must be of
a nature that it would probably result in the acquittal of Defendant on retrial. Evidence of Mr.
Dickerson’s conviction, if admissible at trial, would merely support the theory that he molested
the victim rather than Defendant, as discussed in the Court’s order on Defendant’s initial motion
for postconviction relief.5 Trial counsel testified that, after consideration, they elected not to
pursue this theory. In fact, at the evidentiary hearing, trial counsel testified that the theory that
Defendant chose, which was to attack the credibility of the victim and her mother, was the best
theory of defense given the facts of the case.6 Based on the record, the Court does not conclude
that_ introducing evidence of Mr. Dickerson’s conviction of inappropriate contact with a different
^

victim would result in an acquittal on retrial. Consequently, the Court finds that Mr. Dickerson’s

\\^

\Cjpnviction does not qualify as newly discovered evidence, and Defendant’s motion is untimely.7
Fla. R. Crim. P. 3.850(b).

/ \cA

A<V
rv

)

BRADY VIOLATION
To establish a Brady violation, a defendant must allege facts that demonstrate that “(1)
the State possessed evidence favorable to the accused because it was either exculpatory or
impeaching; (2) the State willfully or inadvertently suppressed the evidence; and (3) the
defendant was prejudiced.” Allen v. State, 854 So. 2d 1255, 1259 (Fla. 2003) (citing Strickler v.
Greene, 527 U.S. 263, 281-82 (1999)). To establish prejudice, a defendant must demonstrate
5 Exhibit B, Order Den. Def.’s Pro Se Second Am. Mot. for Postconviction Relief (without exhibits) 22-23.

lExhibltJwJx.-ia.______________________________________________________________
As the motion is untimely, the Court will not consider Defendant’s claims of ineffective assistance of counsel
based on the discovery of Mr. Dickerson’s conviction in Escambia County. In addition, the Court would note that it
is illogical for trial counsel to have rendered ineffective assistance of counsel based on newly discovered evidence as
a claim of newly discovered evidence requires trial counsel to have been unaware of the information and unable to
discover the information with due diligence.
>

Page 4 of 7
v

that the evidence was material by showing that the results of the proceeding would have been
different if the evidence had been disclosed to the defense. Id. at 1260 (citing Strickler, 527 U.S.
at 280).
■■

i

Defendant argues that the evidence of Mr. Dickerson’s conviction in Escambia County

. V

t,.

£

was exculpatory because it could have given the jury reasonable doubt as to whether Defendant
or Mr. Dickerson molested the victim. He claims that the evidence was suppressed by the State
because the State had prosecuted Mr. Dickerson in Escambia County, and he states that he made
the State aware of the “kissing incident” on October 24, 2014, when he filed his second amended
3.850 motion for postconviction relief and again on August 18, 2015, during the evidentiary
hearing on his motion. Defendant also argues that the State was aware of the “kissing incident”
through the activities of the Milton Police Department, which processed the complaint made by
Defendant regarding the “kissing incident.” Finally, Defendant claims that he was prejudiced
because trial counsel could have argued that Mr. Dickerson could have molested the victim
during the “kissing incident” or that the victim’s mother or Mr. Dickerson himself manipulated
her to identify Defendant rather than Mr. Dickerson as the one who molested her. In addition, he
points out that trial counsel stated that evidence of Mr. Dickerson’s conviction “would have been
helpful” had they decided on the defense theory of blaming Mr. Dickerson.
Defendant has failed to establish a Brady violation. Although the State prosecuted Mr.
Dickerson in Escambia County and would have been aware of the “kissing incident” through the
Milton Police Department as Defendant alleges in his motion, Defendant has made no showing
that the State was aware of any significance of Mr. Dickerson’s convictions in relation to his
-case-untiF-he-ntised-tlie4ssue-in-his-seeond-amended-motionT-filed-©n-06tober-44T-2O-14T-more----than one year after his trial. Thus, Defendant has failed to show that the State possessed

Page 5 of 7

exculpatory information that would have benefited the defense at trial. Secondly, given the
Court’s conclusion that the conviction could have been discovered at the time of trial, the Court
does not conclude that suppression occurred. In addition, Defendant has failed to show the
;

i

' i

J.

-

materiality of the evidence as “[t]he mere possibility that an item of undisclosed information
might have helped the defense, or might have affected the outcome of the trial* does not establish
‘materiality’ in the constitutional sense.”

U.S. V. Agurs, 427 U S. 97, 109-10 (1976).

Consequently, the Court finds that this claim should be denied.
Accordingly, it is ORDERED AND ADJUDGED that Defendant’s 3rd Successive
3.850 Motion for Postconviction Relief/Newly Discovered Evidence and Defendant’s Amended
3rd Successive 3:850 Motion for Postconviction Relief/Newly Discovered Evidence are
DENIED. Defendant has the right to appeal within thirty (30) days of the rendition of this
Order.
DONE AND ORDERED in Chambers at the Santa Rosa County Courthouse, Milton,
Florida.

eSigned by DAVID RIMMER 07/07/2017 10:03:20 b6QP4z5M

DAVID RIMMER
CIRCUIT JUDGE
DRAvdh

{certificate ofservice on next page)

Page 6 of 7
\

CERTIFICATE OF SERVICE

t

f

I HEREBY CERTIFY that a true and accurate copy of the foregoing Order Denying
Defendant’s 3rd Successive 3.850 Motion for Postconviction Relief/Newly Discovered Evidence
and Defendant’s Amended 3rd Successive 3.850 Motion for Postconviction Relief/Newly
Discovered Evidence has been furnished by regular U.S. Mail (unless otherwise indicated) to the
following:

t

I .

Mseph G. Savicki (DC #220618)
V/Graceville Correctional Facility
5168 Ezell Road
Graceville, Florida 32440
this

V

UJ

^ydfflce of the State Attorney
6495 Caroline Street, Suite S
Milton, Florida 32570-4595
(via electronic delivery0
, 2017.
DONALD C. SPENCER, Clerk of Court

BY:
Deputy Clerk

Page 7 of7

